<html>
<title> - REPORT OF THE U.S. COMMISSION ON OCEAN POLICY</title>
<body><pre>[Senate Hearing 108-757]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-757

             REPORT OF THE U.S. COMMISSION ON OCEAN POLICY

=======================================================================

                                HEARINGS

                               before the

   SUBCOMMITTEE ON COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND 
                            RELATED AGENCIES

                                and the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                     APRIL 22, 2004--WASHINGTON, DC
               SEPTEMBER 27, 2004--DURHAM, NEW HAMPSHIRE

                               __________

         Printed for the use of the Committee on Appropriations



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
93-902                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
KAY BAILEY HUTCHISON, Texas          PATRICK J. LEAHY, Vermont
BEN NIGHTHORSE CAMPBELL, Colorado    HERB KOHL, Wisconsin
SAM BROWNBACK, Kansas                PATTY MURRAY, Washington
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                              Scott Gudes
                          Katherine Hennessey
                             Dennis Balkham
                           Jill Shapiro Long
                             Shannon O'Keefe
                         Lila Helms (Minority)
                        Kate Eltrich (Minority)
                        Chad Schulken (Minority)

                         Administrative Support

                            Jessica Roberts


                            C O N T E N T S

                              ----------                              

                        Thursday, April 22, 2004

                                                                   Page
Statement of Admiral James D. Watkins, U.S. Navy (Ret.), 
  Chairman, U.S. Commission on Ocean Policy......................     1
Accompanied by:
    Ed Rasmuson, Member, U.S. Commission on Ocean Policy.........     1
    Paul A. Sandifer, Ph.D., Member, U.S. Commission on Ocean 
      Policy; and Senior Scientist, National Centers for Coastal 
      Ocean Science, National Ocean Service, National Oceanic and 
      Atmospheric Administration.................................     1
    Andrew A. Rosenberg, Ph.D., Member, U.S. Commission on Ocean 
      Policy; and Professor, University of New Hampshire.........     1
    Thomas Kitsos, Executive Director, U.S. Commission on Ocean 
      Policy.....................................................     1
Call to Action...................................................     3
National Ocean Policy Framework..................................     3
President's Council of Advisors on Ocean Policy..................     4
Regional Ocean Councils..........................................     5
Offshore Management Regime.......................................     5
Strengthening the Federal Agency Structure.......................     5
Ocean Policy Trust Fund..........................................     6
Prepared Statement of Admiral James D. Watkins...................     8
The Value of the Oceans and Coasts...............................     8
Trouble in Paradise..............................................     9
Vision and Strategy for the 21st Century.........................     9
Improving Governance.............................................    11
Science-based Decisions: Advancing Our Understanding of the 
  Oceans.........................................................    17
Promoting Lifelong Ocean Education...............................    23
Specific Management Challenges...................................    28
Improving Management of Coasts and Watersheds....................    28
Coastal and Ocean Water Quality..................................    33
Enhancing the Use and Protection of Ocean Resources..............    37
Advancing International Ocean Science and Policy.................    43
Implementing a New National Ocean Policy.........................    44

                       Monday, September 27, 2004

Statement of Ann Weaver Hart, President, University of New 
  Hampshire......................................................    59
Statement of Robert Ballard, Ph.D., Member, U.S. Commission on 
  Ocean Policy; and Professor, University of Rhode Island........    62
    Prepared Statement of........................................    66
Statement of Paul A. Sandifer, Ph.D., Member, U.S. Commission on 
  Ocean Policy; and Senior Scientist, National Centers for 
  Coastal Ocean Science, National Ocean Service, National Oceanic 
  and Atmospheric Administra- 
  tion...........................................................    67
    Prepared Statement of........................................    70
Statement of Andrew A. Rosenberg, Ph.D., Member, U.S. Commission 
  on Ocean Policy; and Professor, University of New Hampshire....    77
    Prepared Statement of........................................    80

 
             REPORT OF THE U.S. COMMISSION ON OCEAN POLICY

                              ----------                              


                        THURSDAY, APRIL 22, 2004

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:03 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Judd Gregg presiding.
    Present: Senators Stevens, Cochran, Gregg, Burns, and 
Leahy.
STATEMENT OF ADMIRAL JAMES D. WATKINS, U.S. NAVY 
            (Ret.), CHAIRMAN, U.S. COMMISSION ON OCEAN 
            POLICY
ACCOMPANIED BY:
        ED RASMUSON, MEMBER, U.S. COMMISSION ON OCEAN POLICY
        PAUL A. SANDIFER, Ph.D., MEMBER, U.S. COMMISSION ON OCEAN 
            POLICY; AND SENIOR SCIENTIST, NATIONAL CENTERS FOR COASTAL 
            OCEAN SCIENCE, NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND 
            ATMOSPHERIC ADMINISTRATION
        ANDREW A. ROSENBERG, Ph.D., MEMBER, U.S. COMMISSION ON OCEAN 
            POLICY; AND PROFESSOR, UNIVERSITY OF NEW HAMPSHIRE
        THOMAS KITSOS, EXECUTIVE DIRECTOR, U.S. COMMISSION ON OCEAN 
            POLICY

    Senator Gregg. We are going to begin the hearing. The 
chairman of the full committee will be here, and we are 
expecting Senator Hollings.
    The hearing today is on the issue of the oceans and we have 
a report from Admiral Watkins and the U.S. Commission on Ocean 
Policy. It is the first major review of Federal ocean policy 
and programs in probably 35 years. It has the imprimatur of the 
Government on it. Its purpose was to give us an assessment of 
where we are in ocean policy and where we should go. I want to 
congratulate the Commission for doing an extraordinary job. I 
have had a chance to read it, look at and study it in some 
depth, and I am very impressed with the product. I have issues 
and concerns obviously, as anybody would, because there are so 
many issues involved.
    But as we all know, the ocean is such a key part of our 
environment, our economy, our society, our definition of 
ourselves, that having a coordinated and intelligent and 
thoughtful policy on it is critical. I want to congratulate the 
Commission for putting a proposal forward that we as a Congress 
can use as a road map.
    I think it was Arthur C. Clarke who said, and I quoted him 
a couple of days ago, that instead of planet Earth, we should 
call our planet ``planet ocean'' because so much of it is 
ocean. And we now know that most of the ocean has not been 
explored. We are off to Mars to try to explore it and find 
water; however, we do not even know what is in the water off 
our shores. I think it is about time we focussed on that. What 
this Commission does is give us guideposts for how we can 
accomplish that effectively.
    And Senator Stevens is here so I will turn it over to the 
chairman.
    Chairman Stevens. Thank you for coming. It has been a full 
day for you and it is a fuller day for us running back and 
forth, I will tell you, but we thought we ought to have this 
hearing so that we had on the record and clearly delineated the 
enormous concepts that are in your report and how they will 
affect this committee because the estimates of the additional 
costs of the recommendations you have made to the Federal 
Government I understand will be at least $1.273 billion in the 
first year, $2.318 billion in the second year, and level off 
somewhere around $3.192 billion in the years thereafter.
    Now that is an enormous increase and I spent this morning 
with the NIH people; they are seeking another increase. There 
is not a section of the Government that is not seeking an 
increase to meet the technological challenges that they face. 
The National Science Foundation, all of them legitimately 
request additional amounts of money.
    We currently have programs in the area that you are dealing 
with and in 2001 alone--that is the latest figure I could grab 
together--was $8.3 billion and NOAA represented $1.6 billion of 
that total.
    So your comments we welcome and certainly there is no 
question that we support but the real problem is going to be to 
find the commitment for not only the Congress but for the 
administration to get behind this report from the point of view 
of commitment of dollars on a steady basis so we know what we 
are dealing with.
    I do want to thank once more my good friend Ed Rasmuson. He 
has discussed with me some of the problems involved here, 
particularly the pollution problem, and we have to be--I think 
you said we wanted a policy of no sewage left behind.
    Mr. Rasmuson. Yes.
    Chairman Stevens. So we here, some of us are members of 
both committees and we want to assist to the maximum extent 
possible and thank you all for being here.
    Senator Gregg, you are the chair of this committee.
    Senator Gregg. Thank you, Mr. Chairman.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    I have no statement, although I have quite a lot of 
interest on how we approach this and I want to thank the 
Commission. From what we have seen, and I have not read the 
entire report, you have done really good work and I 
congratulate you on that.
    We are watching and I am concerned, like the chairman of 
the full committee is concerned, about what commitment we get 
out of Congress and from the administration on some of the 
things that we must address--I feel like they must be 
addressed--and how we fund those things in a way that has some 
predictability about it.
    So I thank you for your work and I will be interested more 
in your testimony today. Thank you for coming and thank you, 
Mr. Chairman.
    Senator Gregg. I thank the chairman of the full committee. 
I understand he has to come and go, but I do intend to be here 
for the full hearing. The subcommittee which I chair, which 
Senator Hollings is the ranking member of, does have 
jurisdiction over NOAA, which receives a lot amount of the 
attention in this report. Therefore, we are very interested in 
your thoughts in that area.
    Admiral Watkins, we would love to have you make a 
presentation in any form you want to make it. I would note we 
do have a vote scheduled for 2:45-2:50, which does put some 
time restraints on us.
    Admiral Watkins. Thank you, Mr. Chairman. In deference to 
Senator Stevens, who heard this 10-minute oral statement this 
morning, I do not think he could live through another one of 
those so what I would like to do is ask you if you would take 
my oral statement, put it in the record so we can cut the time 
down at the front end and have more time for discussion during 
the next 40 minutes.
    Senator Gregg. Of course, we would be happy to do that.
    Admiral Watkins. Let me start out with the very bottom line 
of our morning statement to the Commerce Committee. As a 
specific call to action for the United States Senate, we 
believe it is critical for the following actions to occur as 
soon as possible. This obviously relates to our preliminary 
report recommendations.


                             CALL TO ACTION


    First, authorize the establishment in the Executive Office 
of the President, a National Ocean Council, a President's 
Council of Advisors on Ocean Policy, and an Office of Ocean 
Policy, and I will expand on that in a minute.
    Second, enact an organic act for NOAA. We believe it is 
critical for NOAA to come into the modern world of ecosystem-
based management. The agency is not configured in that way now 
and it needs to restructure itself in a more powerful way. Then 
we want to give NOAA many new responsibilities, like running 
the integrated ocean observing system, a component of what it 
looks like the President is now going to commit to--an Earth-
observing system.
    And third, create an Ocean Policy Trust Fund, which 
obviously had some controversy at the prior committee hearing 
this morning. We would like to discuss that in great depth and 
I have asked the Executive Director of the Commission, the 
former Acting Director of the Minerals Management Service in 
Interior, who is an expert in dealing with offshore oil 
revenues, to be at the table here to answer some questions I 
know that this committee is going to be interested in.


                    NATIONAL OCEAN POLICY FRAMEWORK


    So let me talk about the first item, which is the 
establishment of the National Ocean Council (NCO) in the 
executive branch. The National Ocean Council is composed of 
Cabinet secretaries and heads of independent agencies with 
ocean-related responsibilities. The NOC would be responsible 
for coordinating Federal ocean activities. Today there are 15 
departments and independent agencies that have functions 
related to the oceans and we have outlined them in tabular form 
in one of our figures in the report. There is much redundancy, 
overlap, and failure to collaborate with each other on issues 
of common interest for a variety of reasons. I am not 
condemning them. That is just the way the system works. It is a 
vertically oriented, standpipe structure. They are mission-
oriented agencies. They come before 60 committees of the House 
and Senate dealing with matters in ocean policy across the 
board, 44 alone for science and technology. So there are a lot 
of reasons why it is a Byzantine network today and does not 
work.
    At any rate, we are saying there should be a head on this 
unruly network. We believe the National Ocean Council should be 
headed up by a representative of the President, which we 
designate as an assistant to the President. We do not specify 
which assistant to the President should lead the NOC, it can be 
the Council of Economic Advisers. It could be the head of the 
Domestic Policy Council. It can be anybody, but he or she needs 
to hear from the President: ``I want to do something about the 
oceans.''
    That will give the OMB Director the signal to move. He can 
coordinate through this National Ocean Council an integrated 
budget submission that can be viewed as a package. How are we 
going to implement the integrated ocean observing system? Well, 
the Interior Department is going to have some part of it, EPA 
is going to have some part of it, Navy is going to have some 
part of it. Almost every agency that we have outlined in our 
report is going to have a piece of that and they should come 
together in a seamless web, horizontally integrated. This could 
be done through a modified National Ocean Partnership Program, 
which has already been established by the Congress.
    So there are ways to make this work without bringing the 
Secretary of Defense himself to the table and we believe that 
the Assistant to the President has that power if the President 
wants to do it.


            PRESIDENT'S COUNCIL OF ADVISORS ON OCEAN POLICY


    We have also said that there should be a President's 
Council of Advisors on Ocean Policy, composed of 
representatives from the State and local government, industry, 
nongovernmental organizations, and others who can provide non-
Federal perspectives on ocean policy. All over the Nation, 
including our hearings up in Boston, counties, States and 
regions are calling for a greater role in the up-front planning 
of all of these issues. They do not want to have unfunded 
mandates. They do not want to be told how to clean up every 
piece of debris that is out there and every pollution item. 
They want to be given some national goals and policies within 
which their own programs can fit, and this would provide a 
mechanism at the highest level of Government, similar to the 
President's Council of Advisors on Science and Technology.
    The Congress is the one that set up the Office of Science 
and Technology, not the White House, and it was a good idea. 
And if the President wants to listen to the science adviser he 
certainly can. If he does not, then it does not get the time of 
day. So we recognize that but we think it is very important for 
the non-Federal component of the leadership team in Washington 
to be set up as a kind of a co-leader, and we have asked also 
that the Assistant to the President co-chair this Council of 
Advisors, along with a non-Federal co-chair, much as we do in 
the President's Council of Advisors on Science and Technology.


                        REGIONAL OCEAN COUNCILS


    The Commission recommends that there be a network of 
broadly inclusive, voluntarily established regional ocean 
councils to help coordinate programs at the regional ecosystem 
level. The Oceans Act of 2000 directed us not to impose 
specific recommendations on a single State but to recommend 
improved Federal cooperation with the States because it's the 
people out there that have the real job of doing the work, in 
the coastal areas in particular.
    So we said these councils should be voluntary at the 
outset. We should incentivize pilot programs for those that 
want to participate. If the regions do not want to come 
together and participate, that is their business, but for those 
that do, we want to incentivize those programs, learn from 
them, and perhaps sometime downstream make it more formal, with 
legislative support. We do not ask for that right now because 
we think it is premature to try to force anything in the 
system. Let us try it, see if it could work, see if we can set 
up this President's Council of Advisors, see if they can work 
with the National Ocean Council and do the job.


                       OFFSHORE MANAGEMENT REGIME


    We say there needs to be a coordinated offshore management 
regime that encompasses traditional and emerging uses and is 
flexible enough to incorporate uses not yet foreseen. Off Cape 
Cod we have proposals for wind farms, and in other areas we 
have people moving toward deep ocean aquaculture, we may have 
bioprospecting, all of these issues, and they need some kind of 
national regime within which they can fit. We do not have such 
a structure today.
    Right now it is the Rivers and Harbors Act, Section 10 I 
believe it is, that the Corps of Engineers is using to 
determine whether it is appropriate to put the wind farms off 
of Cape Cod. We believe that this, along with the other issues, 
needs a comprehensive and coordinated offshore regime 
established by the Congress in consultation with the NOC.


               STRENGTHENING THE FEDERAL AGENCY STRUCTURE


    We also need a strengthened and streamlined Federal agency 
structure achieved through a phased approach, as outlined in 
our report. During this morning's hearing we had quite a 
discussion about that. We are saying, let's not try to do 
everything now. Let us do phase one, which is to get our act 
together at the National Ocean Council level. Let us get 
Congress to authorize that. Let us enact a new law for NOAA, an 
organic act that puts them into the ecosystem-based management 
mode, and let us do that right now.
    Then we can begin to bring under the strengthened NOAA 
concept, a variety of entities out of Interior, EPA, Energy, 
Navy, Corps of Engineers, that could begin to play a part in 
this ecosystem-based management approach. NOAA is not there 
today, so we need to let it grow a little bit.
    Then 5 to 7 years from now, if the Congress feels it is 
time to have a department of natural resources or some other 
concept, you are ready to do it. You have already gone through 
all the growing pains, the lessons learned, and we are ready to 
do it in a sensible way without putting so much energy on 
reorganization that we end up ignoring the other 195 
recommendations that have to be carried out.
    We have a lot of issues in here that have to be addressed 
today. We cannot wait for some organizational monster to be 
created and focus all of our energies on that. So it is a 
phased approach we are talking about.
    An organic act for NOAA we think is essential and that is 
where the Congress can get in and fine tune the agency 
structure so that it matches the ecosystem-based approach we 
have recommended.


                        OCEAN POLICY TRUST FUND


    Let me now turn to the Ocean Policy Trust Fund. I asked the 
committee if it would be appropriate for me to bring the 
Executive Director along because he is the pro in this area for 
the Commission and he knows how those revenue streams work. He 
knows what is allocated out of the $5 billion a year revenue 
that comes in from offshore oil and gas. He knows what happens 
with the unallocated portion. We think there is a legitimate 
claim that the unallocated funds should be used to help pay for 
ocean and coastal activities. We think it is a method to do it. 
We understand how you score it up here. It is still a budget 
issue. It is still subject to appropriations, but we think the 
Highway Trust Fund has worked; we think the Ocean Policy Trust 
Fund can be similarly important.
    So those are the things we are asking. We can go into 
greater detail and I have my commissioners up here who are 
experts in all of these areas and ready to answer questions. 
That is sufficient for an oral presentation, without going into 
the economic benefits of this and the status of the oceans. 
Everybody agrees. The Pew Commission and we all agree that the 
oceans are in trouble. They need addressing and the management 
regime we have today just is not adequate to the task.
    So at any rate I would like to wrap up by asking Tom 
Kitsos, our Executive Director, to summarize in more detail the 
creation of an Ocean Policy Trust Fund, which is obviously very 
important to this committee.
    Mr. Kitsos. Thank you. Mr. Chairman, I will try to do this 
in about a minute or two, if possible.
    In recent years, revenues from offshore oil and gas 
development coming into the Federal Government total, on 
average, about $5 billion. Of that $5 billion, some money is 
allocated to the Land and Water Conservation Fund. Not all of 
it is appropriated but it goes into that fund. Some money is 
allocated to the National Historic Preservation Fund. Not all 
is appropriated but it goes into the fund. And some money goes 
directly to coastal States under what is called the section 
8(g) part of the Outer Continental Shelf Lands Act. I will not 
go into detail about that but essentially 27 percent of the 
revenues that come from the area from 3 to 6 miles offshore, an 
area from which, arguably Federal lessees are draining State 
resources, go to the States.
    So with those three allocated or dedicated funds--Land and 
Water Conservation, Historic Preservation, and 8(g)--roughly 
speaking about $1 billion is allocated, give or take a few 
hundred million dollars. So if you take the $5 billion that 
comes in, you hold harmless the Land and Water Conservation, 
Historic Preservation, and 8(g) funds, that leaves $4 billion 
which, under section 9 of the OCS Lands Act, goes into 
miscellaneous receipts of the Treasury of the United States.
    What the Commission is recommending is that those 
unallocated monies, rather than going into miscellaneous 
receipts, be deposited into a special newly created fund called 
the Ocean Policy Trust Fund in the Treasury of the United 
States. It is not mandatory spending. We understand that it is 
a Treasury receipt and currently miscellaneous receipts count 
toward the deficit. We understand also that the appropriation 
is still scored as discretionary budget authority and outlays; 
it is general fund revenue. What we are suggesting is that 
rather than acting as miscellaneous receipts, there should be a 
dedicated fund, money coming from offshore activities, from oil 
and gas, to be dedicated for use for ocean and coastal 
purposes.
    We also suggest that in the future when other revenues come 
into the Treasury from marine aquaculture or wind farms if they 
become profitable or marine biotechnology projects or other 
projects that occur in Federal water for which resource rents 
are charged by the lead Federal agency, that those monies also 
go into the fund.
    And of the monies that go into the Ocean Policy Trust Fund, 
they would be basically given back to Federal agencies and to 
States. For the Federal agencies we suggest that the money go 
to the Federal agencies that need this money to carry out any 
additional responsibilities they will incur as a result of 
implementation of recommendations made by the Ocean Policy 
Commission and that such allocation among the Federal agencies 
would be determined by the National Ocean Council, which the 
Admiral just referred to as a newly created institution within 
the White House.
    Of the money that would be allocated to the States, what we 
are suggesting in the Commission report is, after about a 3-
year ramp-up, roughly $1 billion would be made available to all 
coastal States, a disproportionate amount going to States for 
which there is oil and gas development off their shores. But of 
the amount that would remain, we suggest that the money be 
allocated among all coastal States based on a formula to be 
determined by Congress for two purposes for the States.
    One, to carry out any additional responsibilities that they 
may incur as a result of recommendations of this report, thus 
fulfilling the Commission's goal not to impose any unfunded 
mandates on States if these recommendations are implemented. 
Two, because States through their land and water use and zoning 
authorities within their sovereign borders and submerged lands, 
have responsibilities for the protection and conservation and 
sustainability of ocean and coastal resources and these 
responsibilities have historically not been well funded. It is 
the suggestion of the Commission that using this fund, some of 
those programs can, in fact, be enhanced.
    I am obviously leaving out many details, Mr. Chairman, but 
in a sense, that is the trust fund proposal from the 
Commission.
    Admiral Watkins. That completes our oral presentation, Mr. 
Chairman. We open the floor for any questions you may have.
    [The statement follows:]

             Prepared Statement of Admiral James D. Watkins

                              INTRODUCTION

    Mr. Chairman and members of the Committee, I am pleased to appear 
before you to discuss the Preliminary Report of the U.S. Commission on 
Ocean Policy, which was released to the public on Tuesday, April 20. We 
believe this report offers a blueprint for a coordinated, comprehensive 
national ocean policy for the 21st century. It includes nearly 200 
action-oriented recommendations that present workable solutions for a 
broad range of ocean- and coastal-related issues.
    As you know, the last comprehensive review of U.S. ocean policy 
took place more than 35 years ago when the Commission on Marine 
Science, Engineering and Resources--known as the Stratton Commission--
issued its report, Our Nation and the Sea. Since then, considerable 
progress has been made, but many challenges remain and new issues have 
emerged. The value of the oceans to our nation has only grown in 35 
years, and the time to act is now.
    The simple fact is that the oceans affect and sustain all life on 
Earth. They drive and moderate weather and climate, provide us with 
food, oxygen, transportation corridors, recreational opportunities, 
energy resources and other natural products, and serve as a national 
security buffer. In our travels around the country, we heard and saw 
first-hand how communities care about the ocean and coasts, and how 
they worry about their future.

                   THE VALUE OF THE OCEANS AND COASTS

    America's oceans and coasts provide ecological and aesthetic 
benefits with tremendous value to our national economy. In 2000, the 
ocean economy contributed more than $117 billion to American prosperity 
and supported well over two million jobs. More than $1 trillion, or 
one-tenth of the nation's annual GDP, is generated within the 
relatively narrow strip of land immediately adjacent to the coast. 
Considering the economies of all coastal watershed counties, that 
contribution swells to over $4.5 trillion, fully half of the nation's 
GDP. The contribution to employment is equally impressive, with 16 
million jobs in the nearshore zone and 60 million in coastal watershed 
counties.
    The country also remains highly dependent on marine transportation. 
More than thirteen million jobs are connected to the trade transported 
through the nation's network of ports and inland waterways. Annually, 
the nation's ports handle more than $700 billion in goods. The cruise 
industry and its passengers account for another $11 billion in 
spending.
    Offshore oil and gas operations have expanded into deeper waters 
with new and improved technologies. The offshore oil and gas industry's 
annual production is valued at $25 to $40 billion, and its yearly bonus 
bid and royalty payments contribute approximately $5 billion to the 
U.S. Treasury.
    The commercial fishing industry's total annual value exceeds $28 
billion, with the recreational saltwater fishing industry valued at 
around $20 billion, and the annual U.S. retail trade in ornamental fish 
worth another $3 billion. Nationwide, retail expenditures on 
recreational boating exceeded $30 billion in 2002.
    In the last three decades, more than 37 million people and 19 
million homes have been added to coastal areas. Every year, hundreds of 
millions of Americans and international visitors flock to the coasts to 
enjoy the oceans, spending billions of dollars and directly supporting 
more than a million and a half jobs. In fact, tourism and recreation is 
one of the fastest-growing business sectors--enriching economies and 
supporting jobs in communities virtually everywhere along the coasts of 
the continental United States, southeast Alaska, Hawaii, and our island 
territories and commonwealths.
    These concrete, quantifiable contributions to the national economy 
are just one measure of the oceans' value. We also love the oceans for 
their beauty and majesty, and for their intrinsic power to relax, 
rejuvenate, and inspire. Unfortunately, we are starting to love our 
oceans to death.

                          TROUBLE IN PARADISE

    Development comes with costs, and we are only now discovering the 
full extent of those costs. Pollution, depletion of fish and other 
living marine resources, habitat destruction and degradation, and the 
introduction of invasive non-native species are just some of the ways 
people harm the oceans, with serious consequences for the entire 
planet.
    In 2001, 23 percent of the nation's estuarine areas were not 
suitable for swimming, fishing, or supporting marine species. In 2002, 
about 12,000 beach closings and swimming advisories were issued across 
the nation, most due to the presence of bacteria associated with fecal 
contamination. Marine toxins afflict more than 90,000 people annually 
across the globe and are responsible for an estimated 62 percent of all 
seafood-related illnesses. Such events are on the rise, costing 
millions of dollars a year in decreased tourism revenues and increased 
health care costs.
    Experts estimate that 25 to 30 percent of the world's major fish 
stocks are overexploited, and many U.S. fisheries are experiencing 
similar difficulties. Since the Pilgrims first arrived at Plymouth 
Rock, over half of our fresh and saltwater wetlands--more than 110 
million acres--have been lost.
    Our failure to properly manage the human activities that affect 
oceans and coasts is compromising their ecological integrity and 
diminishing our ability to fully realize their potential. Congress 
recognized this situation when it passed the Oceans Act of 2000 calling 
for a Commission on Ocean Policy to establish findings and develop 
recommendations for a coordinated and comprehensive national ocean 
policy. Pursuant to that Act, the President appointed 16 Commission 
members, including individuals nominated by the leadership in the 
United States Senate and the House of Representatives. These 
individuals were drawn from diverse backgrounds with knowledge in ocean 
and coastal activities.
    Because of the vast scope of topics the Commission was required to 
address, it sought input from individuals across the country. The 
Commission members traveled around the United States obtaining valuable 
information from diverse marine-related interests. They heard testimony 
on ocean and coastal issues during nine regional meetings and 
experienced regional concerns first-hand during seventeen site visits. 
The regional meetings also highlighted relevant success stories and 
regional models with potential national applicability.
    Four additional public meetings were held in Washington, D.C., 
after completion of the regional meetings, to publicly present and 
discuss many of the policy options under consideration for the 
Commission's recommendations. In all, the Commission heard from some 
445 witnesses, including over 275 invited presentations and an 
additional 170 comments from the public, resulting in nearly 1,900 
pages of testimony (included as Appendices to the report).
    The message we heard was clear: the oceans and coasts are in 
trouble and major changes are urgently needed. While new scientific 
understanding shows that natural systems are complex and 
interconnected, our decisionmaking and management approaches have not 
been updated to reflect that complexity and interconnectedness. 
Responsibilities remain dispersed among a confusing array of agencies 
at the Federal, State, and local levels. Better approaches and tools 
are also needed to gather data to understand the complex marine 
environment. Perhaps most important, people must understand the role 
the oceans have on their lives and livelihoods and the impacts they 
themselves have on the oceans.
    As the result of significant thought and deliberation and the 
consideration of a wide range of potential solutions, the Commission 
prepared its preliminary report containing bold and broad-reaching 
recommendations for reform--reform that needs to start now, while it is 
still possible to reverse distressing declines, seize exciting 
opportunities, and sustain the oceans and their valuable assets for 
future generations.

                VISION AND STRATEGY FOR THE 21ST CENTURY

    Any strategy for change must begin with a clear picture of the 
desired endpoint. In the desirable future we wish to create, the oceans 
and coasts would be clean, safe, and sustainably managed. They would 
contribute significantly to the economy, supporting multiple beneficial 
uses such as food production, development of energy and mineral 
resources, recreation, transportation of goods and people, and the 
discovery of novel medicines and other products, while preserving a 
high level of biodiversity and a full range of natural habitats. The 
coasts would be attractive places to live, work and play, with clean 
water and beaches, easy public access, sustainable economies, safe 
bustling harbors and ports, adequate roads and services, and special 
protection for sensitive habitats. Beach closings, toxic algal blooms, 
proliferation of invasive species, and vanishing native species would 
be rare. Better land use planning and improved predictions of severe 
weather and other natural hazards would save lives and money.
    The management of our oceans and coasts would also look different: 
it would follow ecosystem boundaries, considering interactions among 
all elements of the system, rather than addressing isolated areas or 
problems. In the face of scientific uncertainty, managers would balance 
competing considerations and proceed with caution. Ocean governance 
would be effective, participatory, and well coordinated among 
government agencies, the private sector, and the public.
    Managers and politicians would recognize the critical importance of 
good data and science, providing strong support for physical, 
biological, social, and economic research. The nation would invest in 
the tools and technologies needed to conduct this research: ample, 
well-equipped surface and underwater research vessels; reliable, 
sustained satellites; state-of-the-art computing facilities; and 
innovative sensors that withstand harsh ocean conditions. A widespread 
network of observing and monitoring stations would provide data for 
research, planning, marine operations, timely forecasts, and periodic 
assessments. Scientific findings and observations would be translated 
into practical information, maps, and products used by decisionmakers 
and the public.
    Better education would be a cornerstone of ocean policy, with the 
United States once again joining the top ranks in math, science, and 
technology achievement. An ample, well-trained, and motivated workforce 
would be available to study the oceans, set wise policies, apply 
technological advances, engineer new solutions, and teach the public 
about the value and beauty of the oceans and coasts throughout their 
lives. As a result of this lifelong education, people would understand 
the links among the land, sea, air, and human activities and would be 
better stewards of the nation's resources.
    Finally, the United States would be a leader and full partner 
globally, sharing its science, engineering, technology, and policy 
expertise, particularly with developing countries, to facilitate the 
achievement of sustainable ocean management on a global level.
    The Commission believes this vision is practical and attainable. To 
achieve it, national ocean policy should be guided by a set of 
overarching principles including the following:
    Sustainability.--Ocean policy should be designed to meet the needs 
of the present generation without compromising the ability of future 
generations to meet their needs.
    Stewardship.--The principle of stewardship applies both to the 
government and to every citizen. The U.S. government holds ocean and 
coastal resources in the public trust--a special responsibility that 
necessitates balancing different uses of those resources for the 
continued benefit of all Americans. Just as important, every member of 
the public should recognize the value of the oceans and coasts, 
supporting appropriate policies and acting responsibly while minimizing 
negative environmental impacts.
    Ocean-Land-Atmosphere Connections.--Ocean policies should be based 
on the recognition that the oceans, land, and atmosphere are 
inextricably intertwined and that actions that affect one Earth system 
component are likely to affect another.
    Ecosystem-based Management.--U.S. ocean and coastal resources 
should be managed to reflect the relationships among all ecosystem 
components, including humans and nonhuman species and the environments 
in which they live. Applying this principle will require defining 
relevant geographic management areas based on ecosystem, rather than 
political, boundaries.
    Multiple Use Management.--The many potentially beneficial uses of 
ocean and coastal resources should be acknowledged and managed in a way 
that balances competing uses while preserving and protecting the 
overall integrity of the ocean and coastal environments.
    Preservation of Marine Biodiversity.--Downward trends in marine 
biodiversity should be reversed where they exist, with a desired end of 
maintaining or recovering natural levels of biological diversity and 
ecosystem services.
    Best Available Science and Information.--Ocean policy decisions 
should be based on the best available understanding of the natural, 
social, and economic processes that affect ocean and coastal 
environments. Decisionmakers should be able to obtain and understand 
quality science and information in a way that facilitates successful 
management of ocean and coastal resources.
    Adaptive Management.--Ocean management programs should be designed 
to meet clear goals and provide new information to continually improve 
the scientific basis for future management. Periodic reevaluation of 
the goals and effectiveness of management measures, and incorporation 
of new information in implementing future management, are essential.
    Understandable Laws and Clear Decisions.--Laws governing uses of 
ocean and coastal resources should be clear, coordinated, and 
accessible to the nation's citizens to facilitate compliance. Policy 
decisions and the reasoning behind them should also be clear and 
available to all interested parties.
    Participatory Governance.--Governance of ocean uses should ensure 
widespread participation by all citizens on issues that affect them.
    Timeliness.--Ocean governance systems should operate with as much 
efficiency and predictability as possible.
    Accountability.--Decisionmakers and members of the public should be 
accountable for the actions they take that affect ocean and coastal 
resources.
    International Responsibility.--The United States should act 
cooperatively with other nations in developing and implementing 
international ocean policy, reflecting the deep connections between 
U.S. interests and the global ocean.

Ecosystem-based Management
    Ecosystem-based management emerged as an overarching theme of the 
Commission's work. To move toward more ecosystem-based approaches, 
managers must consider the relationships among all ecosystem 
components, including human and nonhuman species and the environments 
in which they live. Management areas should be defined based on 
ecosystem, rather than political, boundaries. A balanced precautionary 
approach should be adopted that weighs the level of scientific 
uncertainty and the potential risk of damage before proceeding.
    In moving toward an ecosystem-based approach, the U.S. Commission 
on Ocean Policy considers the following actions absolutely critical. 
First, a new national ocean policy framework must be established to 
improve Federal leadership and coordination and enhance opportunities 
for State, territorial, tribal, and local entities to improve responses 
at the regional level. Second, decisions about ocean and coastal 
resources need to be based on the most current, credible, unbiased 
scientific data. And third, improved education about the oceans is 
needed to give the general public a sense of stewardship and prepare a 
new generation of leaders to address ocean issues.

                          IMPROVING GOVERNANCE

    Many different entities at the Federal, regional, State, 
territorial, tribal and local levels participate in the management of 
the nation's oceans and coasts. At the Federal level, eleven of the 
fifteen existing cabinet-level departments and four independent 
agencies play important roles in the development of ocean and coastal 
policy. All of these Federal agencies also interact in various ways 
with State, territorial, tribal, and local entities.
    A lack of communication and coordination among the various agency 
programs at the national level, and among Federal, State and local 
stakeholders at the regional level, continues to inhibit effective 

action. A new National Ocean Policy Framework is needed to provide 
high-level attention and coordinated implementation of an integrated 
national ocean policy.

National Coordination and Leadership
    A first step in enhancing management, and a central part of the new 
National Ocean Policy Framework, is improved coordination among the 
many Federal programs. A number of attempts have been made to 
coordinate on particular topics, such as coral reefs or marine 
transportation, or within a broad category, such as ocean science and 
technology. Within the Executive Office of the President, three 
entities have specific responsibilities relevant to oceans: the Office 
of Science and Technology Policy that addresses government-wide science 
and technology issues and includes an ocean subcommittee; the Council 
on Environmental Quality (CEQ) that oversees broad Federal 
environmental efforts and implementation of the National Environmental 
Policy Act; and the National Security Council's Policy Coordinating 
Committee that addresses international issues and also includes a 
subcommittee on international ocean issues.
    While all these coordinating bodies are helpful in their designated 
areas of interest, they do not constitute a high-level interagency 
mechanism able to deal with all of the interconnected ocean and coastal 
challenges facing the nation, including not only science and 
technology, the environment, and international matters, but the many 
other economic, social, and technical issues that affect the ocean.
    The value of the ocean to American society also cries out for 
greater visibility and leaderships. Only the Executive Office of the 
President can transcend traditional conflicts among departments and 
agencies, make recommendations for broad Federal agency reorganization, 
and provide guidance on funding priorities, making it the appropriate 
venue for coordinating an integrated national ocean policy.

            National Ocean Council
    Congress should establish a National Ocean Council within the 
Executive Office of the President to provide high-level level attention 
to ocean and coastal issues, develop and guide the implementation of 
appropriate national policies, and coordinate the many Federal 
departments and agencies with ocean and coastal responsibilities. The 
National Ocean Council, or NOC, should be composed of cabinet 
secretaries of departments and directors of independent agencies with 
relevant ocean- and coastal-related responsibilities and should carry 
out a variety of functions including the following: developing broad 
principles and national goals for ocean and coastal governance; making 
recommendations to the President on national ocean policy; coordinating 
and integrating activities of ocean-related Federal agencies; 
identifying statutory and regulatory redundancies or omissions and 
developing strategies to resolve conflicts, fill gaps, and address new 
and emerging ocean issues; and developing and supporting partnerships 
between government agencies and nongovernmental organizations, the 
private sector, academia, and the public.

            Presidential Council of Advisors on Ocean Policy
    A Presidential Council of Advisors on Ocean Policy, co-chaired by 
the chair of the National Ocean Council and a non-Federal member, 
should advise the President on ocean and coastal policy matters and 
serve as a formal structure for input from non-Federal individuals and 
organizations. It should be composed of a representative selection of 
individuals appointed by the President, including governors of coastal 
states, other appropriate State, territorial, tribal and local 
government representatives, and individuals from the private sector, 
research and education communities, nongovernmental organizations, 
watershed organizations and other non-Federal bodies with ocean 
interests. The members should be knowledgeable about and experienced in 
ocean and coastal issues.

            Need for Presidential Action--the Assistant to the 
                    President
    Although Congress should establish the National Ocean Council and 
the Presidential Council of Advisors on Ocean Policy in law to ensure 
their long-term future, the Commission is cognizant of the complex and 
often lengthy nature of the legislative process. While awaiting 
congressional action, the President should immediately establish these 
entities through Executive Order, and should appoint an Assistant to 
the President to chair the Council. As chair of the NOC and co-chair of 
the Presidential Council of Advisors on Ocean Policy, the Assistant to 
the President should lead the coordination of Federal agency actions 
related to oceans and coasts, make recommendations for Federal agency 
reorganization as needed to improve ocean and coastal management, 
resolve interagency policy disputes, and promote regional approaches. 
The Assistant to the President should also advise OMB and the agencies 
on appropriate funding levels for important ocean- and coastal-related 
activities, and prepare a biennial report as mandated by section 5 of 
the Oceans Act of 2000.

            Office of Ocean Policy
    Because the National Ocean Council will be responsible for planning 
and coordination rather than operational duties, the support of a small 
staff and committees will be required to carry out its functions. An 
Office of Ocean Policy should support the Assistant to the President, 
the National Ocean Council, and the Presidential Council of Advisors on 
Ocean Policy. The Office of Ocean Policy should be composed of a small 
staff that reports to the Assistant to the President, managed by an 
executive director responsible for day-to-day activities. Strong links 
should be maintained among the National Ocean Council, its committees 
and staff, other parts of the Executive Office of the President, and 
ocean-related advisory councils and commissions.

            Committee on Ocean Science, Education, Technology, and 
                    Operations
    A committee under the National Ocean Council will be needed to 
assume the functions of the current National Ocean Research Leadership 
Council (NORLC), a congressionally-established government coordination 
and leadership organization for oceanographic research programs on the 
national level. By placing the NORLC under the NOC and broadening its 
responsibilities to include operational programs and educational 
activities in addition to research, it will become more visible and 
more effective. In recognition of its broader mandate, the NORLC should 
be redesignated as the Committee on Ocean Science, Education, 
Technology, and Operations (COSETO). Strong connections between the 
Office of Science and Technology Policy and the NOC (through COSETO) 
will be essential. To eliminate overlapping functions, the National 
Science and Technology Council's Joint Subcommittee on Oceans, should 
be subsumed into COSETO.

            Committee on Ocean Resource Management
    The National Ocean Council will need a second committee, to 
coordinate Federal resource management policy, including the many 
existing, single-issue coordination efforts such as the Coral Reef Task 
Force, the Interagency Committee on the Marine Transportation System, 
the National Dredging Team, Coastal America, and many others. The NOC 
Committee on Ocean Resource Management (CORM) would perform high-level, 
cross-cutting oversight of these issue-specific efforts to ensure 
consideration of cumulative impacts, minimize conflicting mandates, and 
implement an ecosystem-based management approach. Because of the 
Council on Environmental Quality's role in environmental issues, this 
office should also maintain strong connections with the National Ocean 
Council and its CORM.

A Regional Approach
    In addition to improved coordination at the national level, an 
important component of the new National Ocean Policy Framework is the 
promotion of regional approaches that allow decisionmakers to address 
issues across jurisdictional lines. The nation's ocean and coastal 
resources are affected by human activities that span cities, counties, 
States, and sometimes nations. Federal, State, territorial, tribal, and 
local governments need the ability to respond to ocean and coastal 
issues in a coordinated fashion within regions defined by the 
boundaries of ecosystems rather than somewhat arbitrary government 
jurisdictions. The voluntary establishment of regional ocean councils, 
improved coordination of Federal agency efforts at the regional level, 
and dissemination of regionally significant research and information 
would enhance regional coordination and improve responses to regional 
issues.

            Creating Regional Ocean Councils
    There are many examples where concern for the health of a 
particular ecosystem (such as the Chesapeake Bay, Pacific Northwest, 
Gulf of Mexico, or Mississippi River Basin) has motivated a wide range 
of participants to create new structures for addressing regional 
concerns. There is a growing awareness that existing regional 
approaches can be strengthened and similar approaches can benefit the 
health and productivity of all the nation's ocean and coastal regions.
    Regional ocean councils can serve as mechanisms for a wide range of 
participants to join forces to address issues of regional concern, 
realize regional opportunities, identify regional goals, and promote a 
sense of stewardship for a specific area among all levels of 
government, private interests, and the public. It will be up to the 
participants--including representatives from all levels of government, 
the private sector, nongovernmental organizations, and academia--to 
determine how the council will operate in each region. Possible council 
functions might include: designating ad hoc subcommittees to examine 
specific issues of regional concern; mediating and resolving disputes 
among different interests in the region; monitoring and evaluating the 
state of the region and the effectiveness of management efforts; 
building public awareness about regional ocean and coastal issues; 
facilitating government approvals or permitting processes that involve 
several Federal, State, and local government agencies within the 
region; and helping to link activities located in upstream, coastal, 
and offshore areas within an ecosystem-based management context.
    Regional ocean councils should be created by interested parties at 
the State and local level, rather than mandated by the Federal 
Government. However, to stimulate the process, the National Ocean 
Council should develop flexible guidelines for the voluntary creation 
of regional ocean councils. Initial efforts should be encouraged in 
regions where readiness and support for a regional approach is already 
strong. The first councils can then serve as pilot projects, allowing 
those involved to learn what works in the region, building support to 
implement a regional ocean council, and paving the way for councils in 
other regions. Once established, regional ocean councils will most 
likely evolve, as participants identify the structure and functions 
that best suit their needs. Whether a council has decisionmaking 
authority will be up to the regional participants. National involvement 
may be necessary to implement more formal decisionmaking mechanisms 
such as legislation, interagency agreements, and interstate compacts.
    Regional ocean councils should encompass an area from the inland 
extent of coastal watersheds to the offshore boundary of the nation's 
EEZ. The boundaries of the Regional Fishery Management Councils (RFMCs) 
may be considered as a starting point, although these regions may not 
always be suitable. For example, more than one regional ocean council 
will probably be necessary within California where there is only one 
RFMC. A regional ocean council for the Great Lakes region is also 
desirable.

            Improving Regional Coordination of Federal Agencies
    While the process of planning, establishing, and testing regional 
ocean councils is underway, Federal agencies should be directed to 
immediately improve their own regional coordination and provide 
stronger institutional, technical, and financial support for regional 
issues. Currently, the actions of Federal agencies often overlap, 
conflict, or are inconsistent with one another at the regional and 
State levels. Although several Federal agencies already divide their 
operations into regions, the boundaries of these regions differ from 
one agency to the next, the functions of regional offices vary widely, 
and it is common for the regional office of one agency to operate in 
isolation from the regional offices of other agencies. Improved 
regional coordination should be a first step, followed in time by 
Federal reorganization around common regional boundaries.

            Enhancing Regional Research and Information
    Decisionmakers at all levels need the best available science, 
information, tools, and technology on which to base ocean and coastal 
management decisions. However, research and data collection targeted at 
regional concerns is severely limited. Furthermore, the data that do 
exist are rarely translated into products that are useful to managers. 
Regional ocean information programs should be established to set 
priorities for research, data collection, information products, and 
outreach activities in support of improved regional management. Where 
and when they are established, regional ocean councils will be the 
logical bodies to administer these programs.

Improved Governance of Offshore Waters
    Converging economic, technological, legal, and demographic factors 
make Federal waters an increasingly attractive place for enterprises 
seeking to tap the ocean's resources. The challenge for policymakers 
will be to realize the ocean's potential while minimizing conflicts 
among users, safeguarding human and marine health, and fulfilling the 
Federal Government's obligation to manage public resources for the 
maximum long-term benefit of the entire nation. While institutional 
frameworks exist for managing some ocean uses, increasingly 
unacceptable gaps remain.
    The array of agencies involved, and their frequent lack of 
coordination, can create roadblocks to public participation, discourage 
private investment, cause harmful delays, and generate unnecessary 
costs. This is particularly true for new ocean uses that are subject to 
scattered or ill defined Federal agency authorities and an uncertain 
decisionmaking process. Without an understandable, streamlined, and 
broadly accepted method for reviewing proposed activities, ad hoc 
management approaches will continue, perpetuating uncertainty and 
raising questions about the comprehensiveness and legitimacy of 
decisions.
    To start, each existing or foreseeable activity in Federal waters 
should be overseen by one lead Federal agency, designated by Congress 
to coordinate among all the agencies with applicable authorities while 
ensuring full consideration of the public interest. Pending such 
designations, the NOC should assign agencies to coordinate research, 
assessment, and monitoring of new offshore activities.
    But better management of individual activities is only a first 
step. To move toward an ecosystem-based management approach, the 
Federal Government should develop a broad understanding of offshore 
areas and their resources, prioritize all potential uses, and ensure 
that activities within a given area are compatible. As the pressure for 
offshore uses grows, and before serious conflicts arise, coordination 
should be improved among the management programs for different offshore 
activities. The National Ocean Council should review each single-
purpose program that regulates some offshore activity with the goal of 
determining how all such programs may be better coordinated.
    Ultimately, the nation needs a coordinated offshore management 
regime that encompasses traditional and emerging uses, and is flexible 
enough to incorporate uses not yet foreseen. The new regime will need 
to make decisions and resolve disputes through an open process accepted 
by all parties. Congress, working with the NOC and regional ocean 
councils, should establish such an offshore management regime and 
establish principles for offshore use, including the need to: integrate 
single-purpose programs within the broader offshore regime; create a 
planning process for new and emerging activities; and ensure a 
reasonable return to the public in exchange for allowing private 
interests to profit from public resources.
    Establishing a coordinated offshore management regime will take 
time, and it will not be easy. No regime for governing ocean activities 
will eliminate all conflicts, given the complexity of the problems and 
the diverse perspectives of competing interests. However, the National 
Ocean Council, Presidential Council of Advisors on Ocean Policy, 
regional ocean councils, and other components of the National Ocean 
Policy Framework provide a promising basis for more coordinated, 
participatory management of ocean activities.

Marine Protected Areas
    In contemplating the coordinated, ecosystem-based management of 
both nearshore and offshore areas, marine protected areas can be a 
valuable tool. Marine protected areas can be created for many different 
reasons, including conserving living marine resources and habitat, 
protecting endangered or threatened species, maintaining biological 
diversity, and preserving historically or culturally important 
submerged archaeological resources. These areas have also been 
recognized for their scientific, recreational, and educational values.
    The creation of new MPAs can be a controversial process: supported 
by those who see their benefits, while vigorously opposed by others who 
dislike the limitations MPAs impose on ocean uses. Thus, it is 
important to engage local and regional stakeholders in the design and 
implementation of marine protected areas to build support and ensure 
compliance with any restrictions. Because marine protected areas also 
have national implications, such as possible impacts on freedom of 
navigation, Federal involvement and oversight will still be needed.
    With its multiple use, ecosystem-based perspective, the National 
Ocean Council should oversee the development of a flexible process--
which is adaptive and based on best available science--to design and 
implement marine protected areas. Regional ocean councils, or other 
appropriate entities, can provide a forum for applying the process 
developed by the NOC, with broad stakeholder participation.
Strengthening and Streamlining the Federal Agency Structure
    Although improved coordination is a vital aspect of the new 
National Ocean Policy Framework, changes to the Federal agency 
structure itself will also be needed. The proliferation of Federal 
agencies with some element of responsibility for ocean and coastal 
activities immediately suggests that some consolidation is possible. 
Combining similar ocean and coastal functions and programs could 
improve government performance, reduce unnecessary overlaps, facilitate 
local, State, and regional interactions with the Federal Government, 
and begin to move the nation toward a more ecosystem-based management 
approach.
    However, the complex Legislative and Executive Branch process for 
making such changes compels a cautious, methodical, multi-phased 
approach for improving the Federal structure.

            Strengthening NOAA--Phase I
    NOAA's mission is to understand and predict changes in the Earth's 
environment and to conserve and manage ocean and coastal resources to 
meet the nation's economic, social, and environmental needs. Since its 
creation, NOAA has made significant strides in many areas, despite 
programmatic and functional overlaps and frequent disagreements and 
disconnects among its five line offices. Although the organization has 
evolved over time, including the recent creation of a sixth line office 
to improve integration on specific issues, these changes take time and 
results can be hard to quantify.
    There is widespread agreement that NOAA needs to manage its current 
activities more effectively. Moreover, if the recommendations in the 
Commission's preliminary report are implemented, NOAA will be required 
to handle a number of new responsibilities. A stronger, more effective, 
science-based and service-oriented ocean agency--one that contributes 
to better management of oceans and coasts through an ecosystem-based 
approach--is needed.
    NOAA's three primary functions can be summarized as follows:
    (1) Assessment, prediction, and operations for ocean, coastal, and 
atmospheric environments, including mapping and charting, satellite-
based and in situ data collection, implementation of the Integrated 
Ocean Observing System, data information systems, and weather services 
and products.
    (2) Marine resource and area management, including fisheries, ocean 
and coastal areas, vulnerable species and habitats, and protection from 
pollution and invasive species.
    (3) Scientific research and education, including a focus on applied 
research, the availability of scientifically valid data, and promotion 
of educational activities.
    One of the critical objectives for a strengthened NOAA is improved 
performance within these categories and smoother interactions among 
them. For example, resource management decisions should be based on the 
best available science, research itself should be planned to support 
the agency's management missions, and research in different areas--sea, 
land, and air--should be connected and coordinated. Changes of this 
nature will likely require adjustments to the internal operation of the 
agency, including possible additional changes to the current line 
office structure.
    These changes can be promoted by codifying the establishment and 
functions of the National Oceanic and Atmospheric Administration 
through passage of an organic act for the agency. The act should ensure 
that NOAA's structure is consistent with the principles of ecosystem-
based management and with its primary functions: assessment, 
prediction, and operations; management; and research and education. 
NOAA will require budget support commensurate with its important, 
varied, and growing responsibilities.

            Reviewing NOAA's Budget
    NOAA's placement within the Department of Commerce has an unusual 
history and continues to be questioned by many observers. If nothing 
else, this affiliation has distinct budgetary implications. As part of 
DOC, NOAA's budget is reviewed within the Office of Management and 
Budget's General Government Programs, along with other DOC programs 
with fundamentally different characteristics and missions. NOAA's OMB 
review also fails to consider its ocean and atmospheric programs in 
context with other Federal resource management and science programs. To 
support the move toward a more ecosystem-based management approach, 
NOAA's budget should be reviewed within OMB's Natural Resources 
Programs, along with the budgets of more similar departments and 
agencies.

            Consolidating Ocean and Coastal Programs--Phase II
    As I have said, many agencies across the Federal Government--in 
addition to NOAA--administer ocean- and coastal-related programs. 
Although I have focused on NOAA as the primary ocean agency, the other 
agencies should also be strengthened in similar ways.
    However, even solid performance within each agency will not 
eliminate the many similar or overlapping activities. In some cases, 
programmatic overlap can provide useful checks and balances as agencies 
bring different perspectives and experiences to the table. In other 
cases, the number of separate agencies addressing a similar issue is 
not helpful. Such fragmentation diffuses responsibility, introduces 
unnecessary overlap, raises administrative costs, inhibits 
communication, and interferes with the development of a comprehensive 
management regime that addresses issues within an ecosystem-based 
context.
    The Commission's preliminary report presents specific 
recommendations on program consolidation in areas such as nonpoint 
source pollution, area-based ocean and coastal resource management, 
vessel pollution, invasive species, marine mammals, aquaculture, and 
satellite-based Earth observing. Using these recommendations as a 
starting point, the Assistant to the President, with advice from the 
National Ocean Council and the Presidential Council of Advisors on 
Ocean Policy, should review Federal ocean, coastal and atmospheric 
programs, and recommend further opportunities for consolidation.
    Programs not suitable for consolidation--such as security-related 
programs that cannot be transferred without harm to the overall 
enterprise--should continue to be coordinated through the National 
Ocean Council and the regional ocean councils. However, in most cases, 
judicious consolidation of ocean- and coastal-related functions will 
improve policy integration and program effectiveness.

            Presidential Reorganization Authority
    The recommended program consolidation will not be easy within the 
current legislative process. The creation and reorganization of 
agencies is often contentious, lengthy, and uncertain, involving 
multiple committees in both houses of Congress. Recognizing this 
shortcoming, Congress has several times in the past chosen to give the 
President limited reorganization authority. Renewing this authority by 
allowing the President to propose agency reorganization, with an 
expedited and limited congressional review and approval process, would 
provide an excellent mechanism to achieve reorganization of Federal 
ocean- and coastal-related agencies in a timely fashion.

            Managing all Natural Resources in an Ecosystem-based 
                    Management Context--Phase III
    Strengthening the performance of ocean, coastal, and atmospheric 
programs through coordination and consolidation are important steps in 
moving toward an ecosystem-based management approach. By immediately 
establishing the National Ocean Council and strengthening NOAA, 
followed by the consolidation of suitable ocean and coastal programs 
and functions, the nation will be poised to take a further step in 
strengthening the Federal Government structure.
    Based on a growing understanding of ecosystems, including 
recognition of the inextricable links among the sea, land, air, and all 
living things, a more fundamental reorganization of Federal resource 
agencies will eventually be needed. Consolidation of all natural 
resource functions, including those involving oceans and coasts, would 
enable the Federal Government to move toward true ecosystem-based 
management. This could be implemented through the establishment of a 
Department of Natural Resources or some other structural unification 
that brings together all of the nation's natural resource programs.

   SCIENCE-BASED DECISIONS: ADVANCING OUR UNDERSTANDING OF THE OCEANS

    Ecosystem-based management provides many potential benefits, but 
also imposes new responsibilities on managers. The need to collect good 
information and to improve understanding is perhaps foremost among 
these new responsibilities. Despite considerable progress over the last 
century, the oceans remain one of the least explored and most poorly 
understood environments on the planet.
    Greater knowledge can enable policymakers and managers to make 
wise, science-based decisions at the national, regional, State, and 
local levels. However, existing research and monitoring programs, which 
tend to be agency-specific and single issue oriented, will need to be 
reorganized to support ecosystem-based management. The current mismatch 
between the size and complexity of marine ecosystems and the fragmented 
research and monitoring programs for coastal and ocean ecosystems must 
be resolved.
    The nation also lacks effective mechanisms for incorporating 
scientific information into decisionmaking in a timely manner. As 
knowledge improves, it must be translated into useful terms and 
actively incorporated into policy through an adaptive process. To make 
the translation effective, local, State, regional, and national 
managers need avenues to communicate their information needs and 
priorities to the research community. In addition to these practical 
needs, ocean science and technology will continue to be an integral 
part of the overall U.S. basic research enterprise and future 
discoveries will undoubtedly contribute greatly to society. Fundamental 
knowledge about the oceans is essential to understanding the Earth's 
environment and how it changes over time, assessing and predicting the 
status of marine resources, finding beneficial new uses of ocean 
resources, and protecting national security.
Federal Leadership in Ocean Science and Technology
    Our Commission defines ocean science and technology broadly to 
include: exploration of new ocean environments; basic and applied 
research to increase understanding of the biology, chemistry, physics, 
and geology of the oceans and coasts, their interactions with 
terrestrial, hydrologic, and atmospheric systems, and the interactions 
between ocean and coastal regions and humans; and the development of 
new methodologies and instruments.
    Today, 15 Federal agencies support or conduct diverse activities in 
ocean science, technology, assessment, and management. The heads of 
these agencies direct the National Oceanographic Partnership Program 
(NOPP), which coordinates national oceanographic research and 
education. NOPP has provided a useful venue for agencies to support a 
small number of ocean science and technology projects, but it has not 
realized its full potential as an overarching mechanism for 
coordination among Federal agencies and State, local, academic, and 
private entities.
    Under the proposed National Ocean Policy Framework, the National 
Ocean Council's Committee on Ocean Science, Education, Technology, and 
Operations (COSETO) will assume leadership of NOPP to implement a broad 
national strategy for ocean research, education, observation, 
exploration, and marine operations. NOPP's existing offices and 
committees will be incorporated within this structure. Ocean.US, the 
lead office for planning the Integrated Ocean Observing System (IOOS), 
and the Federal Oceanographic Facilities Committee which provides 
advice on oceanographic facilities, will both report to COSETO.
Creating a National Strategy for Ocean Science and Technology
    The United States needs a national strategy for ocean and coastal 
research, exploration, and marine operations that can help meet the 
ocean resource management challenges of the 21st century and ensure 
that useful products result from Federal investments in ocean research. 
Much more needs to be known about how marine ecosystems function on 
varying spatial scales, how human activities affect marine ecosystems 
and how, in turn, these changes affect human health. Coordinated and 
enhanced research activities and marine operations are needed to: 
understand biological, physical, and chemical processes and 
interactions; maintain overall ecosystem health and biological 
diversity; observe, monitor, assess, and predict environmental events 
and long-term trends; explore the ocean depths for new resources; and 
map ocean and coastal areas for safe navigation and resource 
management.
    Furthermore, the ocean and coastal environment is rife with 
conflicts among competing users and between groups of people applying 
different sets of values to the same issues. To resolve these 
conflicts, information is needed not only about the natural environment 
but also about relevant social, cultural, and economic factors.
    Better coordination and increased support of ocean science and 
technology activities nationwide will help the United States to address 
numerous management challenges, and will position the nation to quickly 
tackle new issues as they emerge.

            Advancing Ocean and Coastal Research
    The United States has a wealth of ocean research expertise spread 
across a network of government and industry laboratories and world-
class universities, colleges, and marine centers. With strong Federal 
support, these institutions made the United States the world leader in 
oceanography during the 20th century. However, a leader cannot stand 
still. Ocean and coastal management issues continue to grow in number 
and complexity, new fields of study have emerged, new interdisciplinary 
approaches are being tried, and there is a growing need to understand 
the ocean on a global and regional scale. All this has created a 
corresponding demand for high-quality scientific information. And while 
the need for increased information continues to grow, the Federal 
investment in ocean research has stagnated in recent decades.
    The current annual Federal investment in marine science is well 
below the level necessary to address adequately the nation's needs for 
coastal and ocean information. Unless funding increases sharply, the 
gap between requirements and resources will continue to grow and the 
United States will lose its position as the world's leader in ocean 
research.
    Congress should double the Federal ocean and coastal research 
budget over the next five years, from the 2004 level of approximately 
$650 million to $1.3 billion per year. As part of this increase, the 
National Ocean Council or Congress should: fund the research component 
of the regional ocean information programs to provide practical, 
management-oriented information at regional, State, and local levels; 
create a national program for social science and economic research to 
examine the human dimensions and economic value of the nation's oceans 
and coasts, with funding of at least $8-$10 million a year; establish a 
joint Oceans and Human Health Initiative funded at $28 million a year; 
and significantly increase the budget of the National Sea Grant College 
Program.
    To ensure that increased investments are used wisely and that 
important research activities continue, Federal agencies will need to 
create long-term strategic plans. A mechanism is required to coordinate 
federally-funded ocean research, support long-term projects, and create 
partnerships throughout all agencies and sectors. Transparent and 
comprehensive research plans would achieve these goals and ensure that 
research results can be translated into operational products in a 
timely manner. The National Ocean Council should develop a national 
ocean research strategy that reflects a long-term vision, promotes 
advances in basic and applied ocean science and technology, and guides 
relevant agencies in developing ten-year science plans and budgets.

            Ocean Exploration
    About 95 percent of the ocean floor remains unexplored, much of it 
located in harsh environments such as the polar latitudes and the 
Southern Ocean. Experience teaches us, however, that these vast and 
remote regions teem with undiscovered species and resources. On 
virtually every expedition, oceanographers discover fascinating new 
creatures. Advances in deep-sea technologies have also made it easier 
to locate shipwrecks and historical artifacts lost in the ocean depths, 
such as the stunning discovery of the RMS Titanic in 1985. The 
continued exploration of marine archaeological sites will help us to 
better understand human history and our global cultural heritage.
    Very little is known about the ocean depths due primarily to the 
lack of a long-term, large-scale national commitment to ocean 
exploration. In 2000, recommendations from the President's Panel on 
Ocean Exploration led to the establishment of the Office of Exploration 
within NOAA, at a modest funding level of $4 million in fiscal year 
2001, and $14 million in each of fiscal years 2002 and 2003. This 
program is helping NOAA to fulfill its applied science, environmental 
assessment, and technology development responsibilities; although the 
program's small budget and agency-specific focus limit its 
effectiveness.
    NOAA and NSF, by virtue of their missions and mandates, are well 
positioned to lead a global U.S. ocean exploration effort. NOAA 
currently runs the Office of Ocean Exploration, but NSF's focus on 
basic research provides an excellent complement to NOAA's more applied 
mission. Working together, the two agencies have the capacity to 
systematically explore and conduct research in previously unexamined 
ocean environments. To succeed, coordination, joint funding, and 
interactions with academia and industry will be essential. Congress 
should appropriate significant funding for an expanded national ocean 
exploration program and the National Oceanic and Atmospheric 
Administration and the National Science Foundation should be designated 
as the lead agencies. An expanded national ocean exploration program 
will require a budget of approximately $110 million annually, plus 
additional funds for required infrastructure.

            Mapping, Charting, and Assessments
    The need for routine mapping, monitoring, and assessment of U.S. 
waters has grown significantly in the past two decades. Accurate, up-
to-date maps and charts of harbors, coastlines, and the open ocean are 
necessary for many activities, including shipping, military operations, 
and scientific research. In addition, expanded regulatory regimes rely 
heavily on routine assessments of living and nonliving marine resources 
and water quality. Modern sensor technologies, which can detect new 
variables in greater detail in the water column and seafloor, have 
improved our ability to follow changing ocean and terrestrial dynamics. 
But as these new technologies are implemented, they need to be 
calibrated against previous methods, as well as with each other, to 
provide useful environmental characterizations and ensure the 
consistency of long-term statistical data sets.
    At least ten Federal agencies, almost all coastal states, and many 
local agencies, academic institutions, and private companies are 
involved in mapping, charting, and assessing living and nonliving 
resources in U.S. waters. However, different organizations use varying 
methods for collecting and presenting these data, leading to disparate 
products that contain gaps in the information they present. Ideally, a 
variety of information (e.g., bathymetry, topography, bottom type, 
habitat, salinity, vulnerability) should be integrated into maps using 
Global Positioning System coordinates and a common geodetic reference 
frame. In addition, these maps should include living marine resources, 
energy resources, and environmental data when available, to create 
complete environmental characterizations necessary for developing and 
implementing science-based ecosystem-based management approaches.
    Coordination of the many existing Federal mapping activities will 
increase efficiency and help ensure that all necessary surveys are 
conducted. Drawing upon the mapping and charting abilities found in the 
private sector and academia will also be necessary to achieve the best 
results at the lowest cost.
    The National Ocean Council should coordinate Federal ocean and 
coastal resource assessment, mapping, and charting activities with the 
goal of creating standardized, easily accessible national maps that 
incorporate living and nonliving marine resource data along with 
bathymetry, topography, and other natural features.
Achieving a Sustained, Integrated Ocean Observing System
    About 150 years ago, this nation set out to create a comprehensive 
weather forecasting and warning network and today most people cannot 
imagine living without constantly updated weather reports. Recognizing 
the enormous national benefits that have accrued from the weather 
observing network, it is time to invest in a similar observational and 
forecasting capability for the oceans. This system would gather 
information on physical, geological, chemical, and biological 
parameters for the oceans and coasts, conditions that affect--and are 
affected by--humans and their activities. The United States currently 
has the scientific and technological capacity to develop a sustained, 
national Integrated Ocean Observing System (IOOS) that will support and 
enhance the nation's efforts for: improving the health of our coasts 
and oceans; protecting human lives and livelihoods from marine hazards; 
supporting national defense and homeland security efforts; measuring, 
explaining, and predicting environmental changes; and providing for the 
sustainable use, protection, and enjoyment of ocean resources.
    The National Ocean Council should make the development and 
implementation of a sustained, national Integrated Ocean Observing 
System a central focus of its leadership and coordination role. The 
United States simply cannot provide the economic, environmental, and 
security benefits listed above, achieve new levels of understanding and 
predictive capability, or generate the information needed by a wide 
range of users, without implementing the IOOS.
    The IOOS is based on two components: (1) open ocean observations 
conducted in cooperation with the international Global Ocean Observing 
System (GOOS) and (2) a national network of coastal observations 
conducted at the regional level. The coastal component will include the 
U.S. exclusive economic zone, the Great Lakes, and coastal and 
estuarine areas.
    A strong national governance structure is required to establish 
policy and provide oversight for all components of the IOOS and to 
ensure strong integration among the regional, national, and global 
levels. Interagency coordination and consensus through the National 
Ocean Council and Ocean.US will be essential. While regional systems 
will retain a level of autonomy, achievement of the IOOS with 
nationwide benefits will require the regional systems to follow some 
national guidelines and standards. In addition, developers of the IOOS 
must ensure that the global component is not minimized and that the 
connectivity with the GOOS, including U.S. funding and leadership, 
remains strong and viable.

            Formalizing Ocean.US
    Ocean.US has made significant progress as the lead organization for 
the design and implementation of the national IOOS. However, a 
fundamental problem current exists in that Ocean.US has a number of 
responsibilities without any real authority or control over budgets. 
Its ephemeral existence under the Memorandum of Agreement which created 
it, its dependence on personnel detailed from the member agencies, and 
its lack of a dedicated budget severely detract from its stature within 
the ocean community and its ability to carry out its responsibilities. 
Congress should formally establish Ocean.US under the National Ocean 
Council structure so that it may effectively advise the NOC and achieve 
its coordination and planning mandates. The office requires consistent 
funding and dedicated full-time staff with the expertise and skills 
needed to ensure professional credibility. In addition, outside experts 
on rotational appointments could help Ocean.US better meet its 
responsibilities.

            Coordinating Regional Observing Systems
    Ocean.US envisions the creation of a nationwide network of regional 
ocean observing systems that will form the backbone of coastal 
observations for the IOOS. Although Ocean.US has proposed the creation 
of Regional Associations, coordinated through a national federation, as 
the governing bodies of the regional systems, this concept is 
unnecessarily narrow. To fully address the needs of coastal managers, 
ocean observations need to be integrated into other information 
gathering activities such as regionally-focused research, outreach and 
education, and regional ecosystem assessments. Thus, the proposed 
regional ocean information programs provide a more comprehensive 
mechanism for developing and implementing regional ocean observing 
systems, in coordination with their broader responsibilities. Regular 
meetings among all the regional ocean information programs and Ocean.US 
will be important for providing regional and local input into 
developing requirements of the national IOOS.

            Reaching Out to the User Community
    The IOOS must meet the needs of a broad suite of users, including 
the general public. To get the most out of the IOOS, resource managers 
at Federal, State, regional, territorial, tribal, and local levels will 
need to supply input about their information needs and operational 
requirements and provide guidance on what output would be most useful. 
Other users, including educators, ocean and coastal industries, 
fishermen, and coastal citizens, must also have a visible avenue for 
providing input. Ocean.US and the regional ocean information programs 
will need to devote significant time and thought to proactively 
approaching users and promoting public awareness of the enormous 
potential of the IOOS.

            Planning Space-based Observations
    An integral part of the national IOOS are the space-borne sensors 
that provide comprehensive, real-time, widespread coverage of ocean 
conditions and features. However, implementing sustained observations 
from space requires intense planning with long lead times. Given the 
cost, the time frame for constructing and launching satellites, and the 
inability to modify satellites once in orbit, five- to ten-year plans 
are required to ensure that satellite observations will be available on 
a continuous basis and employ the most useful and modern sensors. 
Ocean.US and NOAA must work with NASA to ensure that ongoing satellite 
operations are fully integrated into the national IOOS.
    Both NOAA and NASA currently operate civilian, space-based, Earth 
observing programs that measure terrestrial, atmospheric, and oceanic 
variables. NOAA's primary mission in this area is to provide sustained, 
operational observations for monitoring and predicting environmental 
conditions and long-term changes, with a focus on weather and climate. 
In contrast, NASA's mission is to advance research efforts and sensor 
development. A NASA project can last from a few days to a few years, 
and NASA has repeatedly asserted that it is not in the business of 
providing data continuity. In many instances, the lifetime of a NASA 
satellite, and its continued ability to collect and transmit data, 
outlasts its funding, resulting in premature termination at odds with 
the pressing demands for data in the operational context. Thus NASA's 
efforts have not, and will not, result in the sustained capabilities 
needed for the national IOOS. Congress should transfer the operation of 
NASA's Earth environmental observing satellites, along with associated 
resources, to NOAA to achieve continuous data collection. NOAA and NASA 
should work together to plan future missions and then ensure the smooth 
transition of each Earth environmental observing satellite after its 
launch. By consolidating Earth, and particularly ocean, observing 
satellite missions in NOAA, more seamless, long-term planning will be 
possible, resulting in a smooth concept-to-operations data collection 
process.

            Information Product Development
    To justify large Federal investments in the IOOS, the system must 
result in tangible benefits for a broad and diverse user community, 
including the general public, scientists, resource managers, emergency 
responders, policymakers, private industry, educators, and officials 
responsible for homeland security. National Weather Service and 
commercial meteorological products have applications ranging from 
scientific research to human safety, transportation, agriculture, and 
simple daily forecasts. Similarly, IOOS products should be wide-ranging 
and based on the needs of regional and local organizations and 
communities, as well as national needs. The regional ocean information 
programs should help produce information products of benefit to 
regional, State, and local managers and organizations. These regional 
programs will also provide important feedback to national forecasters 
and modelers about ways to make national IOOS products more useful.

            Funding the IOOS
    To fulfill its potential, the IOOS will require stable funding over 
the long haul. The lack of long-term funding for existing regional 
ocean observing systems has contributed to their isolation and 
piecemeal implementation. But consistent funding will help ensure that 
the American public receives the greatest return for its investment in 
the form of useful information, reliable forecasts, and timely 
warnings. The estimated start-up costs for the implementation of the 
national IOOS over the first five years is close to $2 billion.
    Continuous improvements to IOOS observation and prediction 
capabilities will also require sustained investments in technology 
development. Considering the costs of sensor development, 
telecommunications, computer systems, and improvements in modeling and 
prediction capabilities, annual costs for operating, maintaining, and 
upgrading the national IOOS are estimated to be $650-$750 million a 
year.

            Whole Earth Observations
    The IOOS cannot exist as a stand-alone system, developed without 
considering associated observations. Rather, it should be integrated 
with other environmental observing systems to link weather, climate, 
terrestrial, biological, watershed, and ocean observations into a 
unified Earth Observing System. The National Ocean Council should 
oversee coordination of the IOOS with other existing and planned 
terrestrial, watershed, atmospheric, and biological observation and 
information collection systems, with the ultimate goal of developing a 
national Earth Observing System. Such a system would improve 
understanding of environmental changes, processes, and interactions, 
making ecosystem-based management possible.
Enhancing Ocean Infrastructure and Technology Development
    A robust infrastructure with cutting-edge technology forms the 
backbone of modern ocean science. It supports scientific discovery and 
facilitates application of those discoveries to the management of ocean 
resources. The nation has long relied on technological innovation, 
including satellites, early-warning systems, broadband 
telecommunications, and pollution control devices to advance economic 
prosperity, protect life and property, and conserve natural resources. 
Ocean research, exploration, mapping, and assessment activities will 
continue to rely on modern facilities and new technologies to acquire 
data in the open ocean, along the coasts, in polar regions, on the 
seafloor, and even from space.
    The three major components of the nation's scientific 
infrastructure for oceans and coasts are:
  --Facilities--land-based laboratories and ocean platforms, including 
        ships, airplanes, satellites, and submersibles, where research 
        and observations are conducted;
  --Hardware--research equipment, instrumentation, sensors, and 
        information technology systems used in the facilities; and
  --Technical Support--the expert human resources needed to operate and 
        maintain the facilities and hardware as well as participating 
        in data collection, assimilation, analysis, modeling, and 
        dissemination.
    The number and types of assets included in the national ocean 
science infrastructure are extensive and cover a wide range of Federal, 
State, academic, institutional, and private-sector entities.
    Together, they represent a substantial public and private 
investment that has made possible great strides in modern oceanography 
over the last 50 years. But a recent assessment of these assets 
revealed that significant components of the U.S. ocean infrastructure 
are aged or obsolete and that, in some cases, current capacity is 
insufficient to meet the needs of the ocean science and operational 
community. The National Ocean Council's Committee on Ocean Science, 
Education, Technology, and Operations should develop a national ocean 
and coastal infrastructure and technology strategy to achieve and 
maintain an appropriate mix of federally-supported, modern ocean 
facilities that meet the nation's needs for quality resource 
management, science, and assessment.

            Funding Needed Assets
    There are currently several critically needed components of the 
ocean science and technology infrastructure, including: Surface 
vessels, such as new University National Oceanographic Laboratory 
System vessels and fishery research ships; undersea vehicles, including 
an array of manned, remotely operated, and autonomous submersibles; 
aircraft, both manned and unmanned; modern laboratories and 
instrumentation; dedicated ocean exploration platforms; 
telecommunications technology; and environmental and biological 
sensors.
    Congress should establish a modernization fund to support these 
critical ocean infrastructure and technology needs. Such a fund would 
be used to build or upgrade facilities and acquire related 
instrumentation and equipment. It would also provide a mechanism to 
coordinate similar equipment purchases across agencies, where feasible, 
creating significant economies of scale. Current and future spending 
priorities for the fund should be based on the National Ocean Council's 
ocean and coastal infrastructure and technology strategy.

            Transferring Technology
    The development of needed ocean technologies--whether identified by 
the national strategy or through interagency communication--requires 
directed funding and coordination. Federal agency programs will benefit 
by having a centralized office responsible for accelerating the 
transition of technological advances made by Federal and academic 
laboratories into routine operations.
    NOAA should create, and Congress should fund, an Office of 
Technology to expedite the transition of experimental technologies into 
operational applications. This office should work closely with academic 
institutions, the regional ocean information programs, the National 
Science Foundation, the U.S. Navy, the National Aeronautics and Space 
Administration, and other relevant agencies to achieve this mission.
Modernizing Ocean Data and Information Products
    Ocean and coastal data are essential for understanding marine 
processes and resources. They are the foundation for the science-based 
information on which resource managers depend. But storing and 
processing large amounts of data, and converting them into information 
products useful to a broad community of end users, remains a huge 
challenge.
    There are two major challenges facing data managers today: the 
exponentially growing volume of data, which continually strains data 
ingestion, storage, and assimilation capabilities; and the need for 
timely access to these data by the user community in a variety of 
useful formats. Meeting these challenges will require a concerted 
effort to integrate and modernize the current data management system. 
The ultimate goal of improved ocean data management should be to 
effectively store, access, integrate, and utilize a wide and disparate 
range of data needed to better understand the environment and to 
translate and deliver scientific results and information products in a 
timely way.

            Interagency Coordination
    An interagency group, dedicated to ocean data and information 
planning, is needed to enhance coordination, effectively use existing 
resources for joint projects, schedule future software and hardware 
acquisitions and upgrades, and oversee strategic funding.
    Congress should amend the National Oceanographic Partnership Act to 
create and fund Ocean.IT as the lead Federal interagency planning 
organization for ocean and coastal data and information management. 
Ocean.IT should consist of representatives from all Federal agencies 
involved in ocean data and information management, be supported by a 
small office, and report to the National Ocean Council's Committee on 
Ocean Science, Education, Technology, and Operations.
    Ocean.IT should coordinate the development of a viable, long-term 
data management strategy which includes:
  --The implementation of an interagency plan to improve access to data 
        at the national data centers, Distributed Active Archive 
        Centers, and other discipline-based centers. This plan will 
        need to be appropriately integrated with other national and 
        international data management plans, including those for the 
        Integrated Ocean Observing System and Global Ocean Observing 
        System.
  --Opportunities to partner with the private sector to enhance 
        environmental data and information management capabilities.
    This organization should not have an operational role, but instead 
should be responsible solely for interagency planning and coordination, 
similar to the role of Ocean.US for the IOOS.

            Informational Product Development
    Compared to a few decades ago, an impressive array of data and 
information products for forecasting ocean and coastal conditions is 
now available from a wide range of sources. A mechanism is now needed 
to bring these data together, including the enormous amounts of 
information that will be generated by the national IOOS, and use these 
data to generate and disseminate products beneficial to large and 
diverse audiences.
    The National Oceanic and Atmospheric Administration and the U.S. 
Navy should establish a joint ocean and coastal information management 
and communications program to generate information products relevant to 
national, regional, State, and local needs on an operational basis. 
This program should build on the Navy's model for operational 
oceanography and take advantage of the strengths of both agencies to 
reduce duplication and more effectively meet the nation's information 
needs. This partnership will also allow for the prompt incorporation of 
classified military data into informational products without publicly 
releasing the raw data. A NOAA-Navy joint program would rapidly advance 
U.S. coastal and ocean analyses and forecasting capabilities using all 
available physical, biological, chemical, and socioeconomic data.
    Interactions between private companies and the NOAA-Navy national 
ocean and coastal information management and communications program 
could lead to the production of a wide range of general and tailored 
forecast and warning products. An interface between national 
forecasters at the NOAA-Navy program and the regional ocean information 
programs would also help identify ocean and coastal informational 
products of particular value at the regional and local levels.

                   PROMOTING LIFELONG OCEAN EDUCATION

    Education has provided the skilled and knowledgeable workforce that 
made America a world leader in technology, productivity, prosperity, 
and security. However, the emergence of rampant illiteracy about 
science, mathematics, and the environment now threaten the future of 
America, its people, and the oceans on which we rely.
    Testing results suggest that, after getting off to a good start in 
elementary school, by the time U.S. students graduate from high school 
their achievement in math and science falls well below the 
international average. Ocean-related topics offer an effective tool to 
keep students interested in science, increase their awareness of the 
natural world, and boost their academic achievement in many areas. In 
addition, the links between the marine environment and human experience 
make the oceans a powerful vehicle for teaching history, culture, 
economics, and other social sciences. Yet teachers receive little 
guidance on how they might use exciting ocean subjects to engage 
students, while adhering to the national and State science and other 
education standards that prescribe their curricula.
    In addition, a 1999 study indicated that just 32 percent of the 
nation's adults grasp simple environmental concepts, and even fewer 
understand more complex issues, such as ecosystem decline, loss of 
biodiversity, or watershed degradation. It is not generally understood 
that nonpoint source pollution threatens the health of our coastal 
waters, or that mercury in fish comes from human activities via the 
atmosphere. Few people understand the tangible value of the ocean to 
the nation or that their own actions can have an impact on that 
resource. From excess applications of fertilizers, pesticides, and 
herbicides on lawns, to the trash washed off city streets into rivers 
and coastal waters, ordinary activities contribute significantly to the 
degradation of the marine environment. Without an acknowledgement of 
the impacts associated with ordinary behavior and a willingness to take 
the necessary action--which may incur additional costs--achieving a 
collective commitment to more responsible lifestyles and new policies 
will be difficult.
    Excellent lifelong education in marine affairs and sciences is 
essential to raising public awareness of the close connection between 
the oceans and humans, including our history and culture. This 
awareness will result in better public understanding of the connections 
among the ocean, land, and atmosphere, the potential benefits and costs 
inherent in resource use, and the roles of government and citizens as 
ocean stewards.

            Ocean Stewardship
    To successfully address complex ocean- and coastal-related issues, 
balance the use and conservation of marine resources, and realize 
future benefits from the ocean, an interested, engaged public will be 
needed. The public should be armed not only with the knowledge and 
skills needed to make informed choices, but also with a sense of 
excitement about the marine environment. Individuals should understand 
the importance of the ocean to their lives and should realize how 
individual actions affect the marine environment. Public understanding 
of human impacts on the marine environment should be balanced with 
recognition of the benefits to be derived from well-managed ocean 
resources. Because of the connection among the ocean, the atmosphere, 
and the land, inland communities need to be just as informed as seaside 
communities.

            Science Literacy
    Ocean-related education has the potential to stem the tide of 
science illiteracy threatening to undermine the nation's health, 
safety, and security. Children have a natural curiosity about the world 
around them and this allure could be parlayed into higher achievement 
in other subjects as well. The influence of the ocean on nearly every 
aspect of daily life, and the central role it plays in the development 
of the nation, make ocean-based studies ideal for enhancing student 
performance in areas such as geography, history, economics, policy, and 
law. Strengthening science literacy, therefore, encompasses not only 
natural sciences, but a full suite of social sciences.

            Future Ocean Leaders
    The nation needs a diverse, knowledgeable, and adequately prepared 
workforce to enhance understanding of the marine environment and make 
decisions regarding complex ocean- and coastal-related issues. The 
education of the 21st century ocean-related workforce will require not 
only a strong understanding of oceanography and other disciplines, but 
an ability to integrate science concepts, engineering methods, and 
sociopolitical considerations. Resolving complex ocean issues related 
to economic stability, environmental health, and national security will 
require a workforce with diverse skills and backgrounds. Developing and 
maintaining such a workforce will rely, in turn, on programs of higher 
education that prepare future ocean professionals at a variety of 
levels and in a variety of marine-related fields.

Coordinating Ocean Education
    Although not all ocean-related Federal agencies have a specific 
education mission, most have made efforts to reach out to students, 
teachers, and the public to inform them about ocean issues, sometimes 
by adding ocean-related components to larger science and environmental 
education efforts. And while it is valuable for ocean-related 
information to be included as part of broader environmental and science 
education efforts, it is also important to support educational efforts 
that focus specifically on oceans, coasts, and the human relationship 
with them.
    Federal programs can provide many opportunities for ocean-related 
education, but ultimately education is a State responsibility, and 
control is exerted primarily at the local level. Therefore, the 
interaction between education administrators at the State, district, 
and individual school levels and Federal agencies will be fundamental 
to the success of any effort to use ocean-based examples to enhance 
student achievement. Aquariums, zoos, and other informal education 
centers also provide the public with opportunities to learn about the 
marine environment and should be integral components of a national 
effort to increase ocean-related education.
    Despite the existence of many positive efforts, ocean education 
remains a patchwork of independently conceived and implemented programs 
and activities. These efforts cannot provide the nationwide momentum 
and visibility needed to promote sustained ocean education for 
students, teachers, and the general public. Within the Federal 
Government, there is little discussion of ocean education, even among 
those agencies with the greatest responsibility for ocean issues. 
Different programs and funding mechanisms are not coordinated and 
resources are seldom leveraged. Even within individual agencies, 
offices that have education components often do not collaborate or 
communicate.
    To strengthen ocean education and coordinate Federal education 
efforts, the National Ocean Council should establish a national ocean 
education office (Ocean.ED) under its Committee on Ocean Science, 
Education, Technology, and Operations. This office should coordinate 
and integrate Federal agency programs and leverage resources; serve as 
a central, visible point of contact for K-12, university-level, and 
informal education partners; and work with all parties to develop 
coherent, comprehensive planning for ocean education efforts.
    To fulfill its coordination activities, Congress should provide 
dedicated funding for Ocean.ED operations and program implementation. 
However, this national effort is not meant to replace other successful 
programs and activities, but rather provide a mechanism for 
communication, coordination, and joining of forces.

            Developing Ocean Curricula
    The value of ocean-based learning must be recognized within local 
school districts to create a demand for ocean-related education 
products. Federal, regional, State, and local education professionals 
need to advocate for the inclusion of ocean-based examples in State and 
local education requirements and testing. Collaborative efforts will be 
needed to develop research-based, ocean-related curricular materials 
that are aligned with State and national educational standards and meet 
the needs of teachers. Ocean.ED, working with State and local education 
authorities and the research community, should coordinate the 
development and adoption of ocean-related materials and examples that 
meet existing education standards.

            Teaching the Teachers
    Higher expectations for our youth mean higher expectations for 
teachers as well. Students cannot achieve without instruction by 
capable teachers who are knowledgeable in the topics being presented. 
Thus, improving the quality of science and math education must begin 
with improving preparation of undergraduates studying to be teachers 
(referred to as pre-service teachers) and professional development for 
certified teachers in the classroom (referred to as in-service 
teachers).
    The ocean research community is brimming with potential for 
engaging K-12 educators in the excitement and satisfaction of the 
scientific enterprise, and the nation's research infrastructure 
provides significant opportunities for formal preparation, hands-on 
involvement, and teacher certification. Although several public and 
private sector programs can provide teachers with research experience 
in ocean-related topics, access to these programs is quite limited, 
very few have long-term, stable funding, and the different efforts are 
poorly coordinated. Ocean.ED, working with academic institutions and 
local school districts, should help establish stronger and more 
effective relationships between the research and education communities 
to expand professional development opportunities for teachers and 
teacher educators.

            Bringing Oceans Education to All Students
    Through field and laboratory experiments, oceans offer a natural 
avenue for students to gain first-hand exposure to science while 
developing an awareness of the importance of the ocean. Not all 
students are near, or able to travel to, the shore, but new ocean 
research technologies represent a tremendous and virtually untapped 
avenue to overcome this limitation, allowing students anywhere to be 
involved in real oceanographic investigations. The same remote-access 
technologies that make advanced ocean research possible can also help 
students and teachers participate in collecting, analyzing, and 
distributing ocean data. Enabling students to interact with practicing 
scientists, even if they are thousands of miles away, can help create a 
lifelong affinity for learning.
    Social, economic, and cultural factors can also play an influential 
role in inhibiting a student's access to education opportunities, 
especially science-based opportunities. These factors are unusually 
strong among minority students and other groups that have been 
traditionally underrepresented and underserved in scientific fields, 
including marine sciences. Repairing this broken link will depend on 
exposing minority students to ocean-related studies early in their 
education, continuing that exposure throughout their school years, and 
demonstrating the possibilities and rewards of a career in ocean-
related fields.
    Federal agencies and academic institutions should find ways to 
provide all students with opportunities to participate in ocean 
research and exploration, virtually or in person, including summer 
programs, field trips, remote participation in ocean expeditions, and, 
most important, after-school activities. Mentoring, especially near-
peer guidance, is critical and should be a component of any student-
oriented program. Ocean.ED should promote partnerships among school 
districts, institutions of higher learning, aquariums, science centers, 
museums, and private laboratories to develop more opportunities for 
students to explore the marine environment, both through virtual means 
and hands-on field, laboratory, and at-sea experiences. Ocean.ED should 
also ensure that ocean-based educational programs and materials 
acknowledge cultural differences and other aspects of human diversity, 
resulting in programs that expose students and teachers from all 
cultures and backgrounds to ocean issues.

            Drawing Students into the Field of Ocean Science and 
                    Management
    The ocean community must compete with countless other professions 
in attracting the talent it needs. Success lies, in part, in promoting 
marine-related career opportunities among undergraduate students from a 
broad range of disciplines. First-hand experiences in marine fields can 
be influential in demonstrating the possibilities and rewards of an 
ocean-related career.
    Intellectually stimulating and financially attractive options for 
pursuing graduate studies in an ocean-related field must follow, so a 
student's developing interest in ocean studies is not overshadowed by 
other professions that actively pursue, encourage, and support their 
future leaders. Ocean sciences have another potentially important role 
to play at the undergraduate level. Marine science courses can be 
attractive options for non-science majors who need to fulfill science 
requirements for graduation, presenting an excellent opportunity to 
raise general ocean awareness.
    The National Oceanic and Atmospheric Administration, National 
Science Foundation, and Office of Naval Research should support 
colleges and universities in promoting introductory marine science 
courses to expose students, including non-science majors, to these 
subjects.

            Training Ocean Professionals
    Because ocean science is fundamentally interdisciplinary, well-
trained ocean professionals can find excellent careers in many areas 
including engineering, economics, education, law, management, policy, 
science, and technology. Individuals considering or pursuing graduate 
studies in a marine field should be aware of these options, and 
exploration of nontraditional marine areas should be encouraged. 
Equally important, professionals educated and trained in other fields 
should be made aware of the exciting opportunities available to them in 
marine-related fields.
    Ocean.ED should guide and promote the development of the nation's 
ocean-related workforce by: promoting student support, diversified 
educational opportunities, and investment in innovative approaches to 
graduate education that prepare students for a broad range of careers 
in academia, government, and industry; and encouraging graduate 
departments of ocean sciences and engineering to experiment with new or 
redesigned programs that emphasize cross-disciplinary courses of study.
    Complementing the need to create an adequate workforce is the need 
to sustain and enhance that workforce through professional development 
and continuing education opportunities. Learning does not stop once the 
formal education process is complete; ocean professionals in all fields 
must be provided the means and liberty to continually build upon their 
knowledge and skills throughout their careers.

            Informing the Public
    Public information needs are as varied as our population is 
diverse. Some individuals will benefit from detailed information on how 
specific issues directly affect their jobs or business. Others may need 
information presented in a language and media tailored to their culture 
and community. Still others seek advice on how to alter their own 
activities to support responsible ocean stewardship. This information 
is as critical for those who live in the heartland as for those who 
live near the shore.
    Informal education requires outreach programs, in partnership with 
local communities, to make contact with individuals where they live and 
work, regarding issues that affect how they live and work, in a style 
that speaks to them. Information supplied to the public should be 
timely and accurate. It should also be supported by a system that 
allows for follow-up and the acquisition of additional information or 
guidance. Ocean.ED, working with other appropriate entities, should 
enhance existing and establish new mechanisms for developing and 
delivering relevant, accessible information and outreach programs to 
enhance community education.

Regional Outreach--Connecting the Research and Education Communities
    Collaboration between the research and education communities must 
be improved if ocean-based information, including ocean data and new 
discoveries, is to be transformed into exciting and accessible 
materials to stimulate student achievement and enhance public 
awareness. Some efforts do exist to make these connections, most 
notably through the Centers for Ocean Sciences Education Excellence 
(COSEE) and National Sea Grant College Program.

            COSEE
    The COSEE network, supported primarily through NSF, includes 
regional centers and a central coordinating office that work to 
integrate oceanographic data and information into high-quality 
curricular materials, to provide ocean scientists with opportunities to 
learn more about educational needs and requirements, to provide K-12 
teachers with the knowledge and skills they need to effectively 
incorporate ocean-related information into their lessons, and to 
deliver ocean-related information to the public. Though recognized as a 
model for enhancing education and bringing accessible ocean-related 
information to the public, COSEE currently has only seven regional 
centers, each serving a limited number of schools in its area. The 
program does not have the level of committed, long-term support 
required to fully realize its potential.
    While COSEE is currently a National Science Foundation program, 
placing it within the National Ocean Council (NOC) structure would 
capitalize on the tremendous potential to enhance and expand the 
program. The NOC and the NSF should relocate COSEE within the larger 
NOC structure as a program to be organized, overseen, and funded 
through Ocean.ED. In addition, the number of COSEE regional offices 
should be tripled to 21 with each center receiving at least $1.5 
million a year for an initial five-year period.

            National Sea Grant College Program
    The National Sea Grant College Program was created by Congress in 
1966 as a partnership between the nation's universities and NOAA. Sea 
Grant programs sponsor research, education, outreach, and technology 
transfer through a network of Sea Grant Colleges and research 
institutions.
    Sea Grant has forged connections between the research and education 
communities since its inception. Its programs provide K-12 teacher 
preparation and professional development programs consistent with State 
education standards, offer hands-on educational experiences for 
students, and develop research-based curricular and communications 
materials for students and the public. The Sea Grant network relies on 
longstanding local partnerships, with many connections to populations 
that have been traditionally underrepresented and underserved by the 
ocean community.
    Despite its successes, however, Sea Grant is currently an 
underutilized resource. The existing Sea Grant network requires 
increased funding to expand its roles and responsibilities, 
particularly in education and outreach. In particular, Sea Grant 
extension and communications programs, familiar to many resource 
managers and others in coastal communities, should become the primary 
mechanisms for delivering and interpreting information products 
developed through the regional ocean information programs.

Specific Federal Responsibilities
    Each Federal agency with ocean-related responsibilities--most 
notably NOAA, NSF, and Office of Naval Research--has a responsibility 
to help ensure a vibrant ocean-related workforce. These agencies need 
to develop interrelated and crosscutting educational opportunities at 
the undergraduate, graduate, and postdoctoral levels.

            National Oceanic and Atmospheric Administration
    NOAA should be particularly concerned with creating a pipeline of 
students in areas it identifies to be of critical importance to the 
agency. Opportunities should include both research experiences, 
especially exposure to mission-oriented research, and experiences 
beyond the research arena. Student exposure can begin as early as the 
junior or senior level in high school, continuing through postdoctoral 
education. A range of programs will help identify and recruit the best 
and brightest to careers in marine-related fields and ensure a 
continuing source of essential human capital. At the graduate and 
postdoctoral levels, NOAA should support fellowships and traineeships 
that emphasize interdisciplinary approaches and real-world experiences 
beyond the university setting.
    NOAA should establish a national ocean education and training 
program, patterned after the National Institutes of Health model, 
within its Office of Education and Sustainable Development to provide 
diverse, innovative ocean-related education opportunities at the 
undergraduate, graduate, and postdoctoral levels.
    In addition, NOAA should establish competitive ``Distinguished 
Professorships in Marine Studies'' within Sea Grant Colleges or other 
leading institutions of higher education with a demonstrated commitment 
to marine programs. Disciplines of interest to NOAA for such 
professorships could include fisheries science, climate research, 
atmospheric studies, and marine resource economics, policy, 
aquaculture, genomics, education, and ecosystem studies. The intent 
would be to create a cadre of distinguished NOAA endowed chairs at 
universities around the nation.

            National Science Foundation
    At the undergraduate level, NSF's Research Experience for 
Undergraduates program could be expanded to include more marine-related 
experiences. At the graduate and postdoctoral levels, opportunities 
could include fellowships that encourage cross-disciplinary research, 
interdisciplinary traineeships, and master's degree fellowships. 
Programs such as NSF's Integrative Graduate Education and Research 
Training program, Centers for Learning and Teaching, and Graduate 
Teaching Fellows in K-12 Education should be supported and enhanced 
both within NSF and adopted by other Federal ocean agencies. The 
National Science Foundation's Directorates of Geosciences, Biological 
Sciences, and Education and Human Resources should develop cooperative 
programs to provide diverse educational opportunities at the 
undergraduate, graduate, and postdoctoral levels in a range of ocean-
related fields.

            Office of Naval Research
    The success of the Navy depends on a well-developed understanding 
of the environment in which it operates. Understanding the ocean 
environment--including the atmosphere above it, the seafloor beneath 
it, and the coastlines that encircle it--will always be a core naval 
requirement. Thus the Navy should play a central role in ensuring 
support for the education of future generations of ocean professionals. 
The Office of Naval Research should reinvigorate its support of 
graduate education in ocean sciences and engineering. This could be 
partly accomplished by increasing the number of ocean-related awards 
made under ONR's National Defense Science and Engineering Graduate 
Fellowship Program.

                     SPECIFIC MANAGEMENT CHALLENGES

    Although the areas I discussed--improved governance through a new 
National Ocean Policy Framework, the incorporation of scientific 
information in decisionmaking, and broad public education--represent 
the overarching areas that this nation must address using the guiding 
principles I mentioned earlier, the U.S. Commission on Ocean Policy did 
not stop there in its deliberations and recommendations. The Commission 
also addressed a wide range of specific ocean management challenges--
challenges that will continue to be addressed individually, but which 
now must also become part of more ecosystem based management approach, 
applying the guiding principles throughout the management process. 
These individual ocean and coastal management challenges include: 
Linking the management of coasts and watersheds; Protecting life and 
property from natural hazards; Restoring and conserving habitat; Better 
managing sediments and shorelines; Supporting marine commerce and 
transportation; Reducing water pollution from all sources, including 
from vessels and through the introduction of marine debris; Preventing 
the introduction of invasive species; Sustainably managing our 
fisheries; Protecting marine mammals and other marine species; 
Conserving corals and corals reefs; Enabling the environmentally-sound 
development of marine aquaculture; Understanding and safeguarding 
Oceans and Human Health; and, developing offshore energy resources and 
marine minerals.

             IMPROVING MANAGEMENT OF COASTS AND WATERSHEDS

    Let me begin by addressing some of the issues in our coastal areas. 
While coastal counties (located entirely or partially within coastal 
watersheds) comprise only 17 percent of the land area in the contiguous 
United States, they are home to more than 53 percent of the total U.S. 
population. Coastal population trends indicate average increases of 
3,600 people a day moving to coastal counties, reaching a total 
population of 165 million by 2015. These figures do not include the 180 
million people who visit the coast every year.
    Population growth and tourism bring many benefits to coastal 
communities, including new jobs and businesses and enhanced educational 
opportunities. The popularity of ocean and coastal areas increases 
pressures on these environments, creating a number of challenges for 
managers and decisionmakers. Increased development puts more people and 
property at risk from coastal hazards, reduces and fragments fish and 
wildlife habitat, alters sedimentation rates and flows, and contributes 
to coastal water pollution.
    The pattern of coastal growth--often in scattered and unplanned 
clusters of homes and businesses--is also significant. Urban sprawl 
increases the need for infrastructure such as roads, bridges, and 
sewers, degrading the coastal environment while making fragile or 
hazard-prone areas ever more accessible to development. Because of the 
connections between coastal and upland areas, development and sprawl 
that occur deep within the nation's watersheds also affect coastal 
resources.
    To reap economic benefits and mitigate pressures associated with 
growing coastal development, State and local governments needs more 
Federal support to enhance their capacity to plan for and guide growth, 
and to employ watershed management approaches. A complex combination of 
individuals and institutions at all levels of government make decisions 
that cumulatively affect the nation's ocean and coastal areas. These 
institutional processes determine where to build infrastructure, 
encourage commerce, extract natural resources, dispose of wastes, and 
protect or restore environmental attributes.
    Although most coastal management activities take place at State and 
local levels, coastal decisionmaking is also influenced by Federal 
actions, including funding decisions and standard setting. Of the many 
Federal programs that provide guidance and support for State and local 
decisionmaking, some address the management of activities and resources 
within designated geographic areas, while others address the management 
of specific resources, such as fisheries or marine mammals.
    The Coastal Zone Management Act (CZMA) is the Federal Government's 
principal tool for fostering comprehensive coastal management. The CZMA 
created the Coastal Zone Management Program CZM Program, a unique 
partnership between the Federal and coastal state governments, whose 
goal is to balance the conservation of the coastal environment with the 
responsible development of economic and cultural interests. The tools, 
assistance, and resources provided by the CZMA have enabled States and 
territories to increase their management capacity and improve 
decisionmaking to enhance the condition of their coastal areas.
    However, the CZM Program can be strengthened in a number of ways, 
including by developing strong, specific, measurable goals and 
performance standards that reflect a growing understanding of the ocean 
and coastal environments and the need to manage growth in regions under 
pressure from coastal development. A large portion of Federal funding 
should be linked to program performance with additional incentives 
offered to States that perform exceptionally well. In addition, a 
fallback mechanism is needed to ensure that national goals are realized 
when a State does not adequately participate or perform. Finally, the 
landside boundaries of State coastal management programs should also be 
reconsidered. At a minimum, each State should set the inland extent of 
its coastal zone based on the boundaries of coastal watersheds.
    In addition to the CZM Program, other Federal area-based coastal 
programs include NOAA's National Estuarine Research Reserve System and 
National Marine Sanctuaries Program; EPA's National Estuary Program; 
and Fish and Wildlife Service's Coastal Program and Coastal Barrier 
Resources System. These programs have made significant progress in 
managing coastal resources in particular locations, working with 
communities and decisionmakers in those areas, and fostering improved 
coordination between different levels of government. However, because 
these programs generally operate in isolation from one another, they 
cannot ensure effective management of all ocean and coastal resources 
or achievement of broad national goals. As NOAA is strengthened through 
the multi-phased approach described earlier, consolidation of area-
based coastal resource management programs will result in more 
effective, unified strategies for managing these areas, an improved 
understanding of the ocean and coastal environment, and a basis for 
moving toward an ecosystem-based management approach.
    Federal programs related to transportation, flood insurance, 
disaster relief, wetlands permitting, dredging, beach nourishment, 
shoreline protection, and taxation also exert a profound influence on 
the coast. While these laws and policies address specific issues, and 
have each provided societal benefits, in many cases Federal activities 
under their purview have inadvertently led to degradation of coastal 
environments. For this reason, policies should be re-evaluated to 
ensure consistency with national, regional, and State goals aimed at 
achieving economically and environmentally sustainable development.

Linking Coastal and Watershed Management
    For well over a decade there has been a growing interest in 
watershed management. This approach addresses water quality and 
quantity issues by acknowledging the hydrologic connections between 
upstream and downstream areas and considering the cumulative impacts of 
all activities that take place throughout a watershed. Watersheds are 
optimal organizing units for dealing with the management of water and 
closely related resources. The benefits of a watershed focus have also 
been recognized at the state, regional, national, and international 
levels through successful efforts such as the Chesapeake Bay Program, 
the Delaware River Basin Commission, and the bi-national Great Lakes 
Commission. At the Federal level, EPA has supported efforts to address 
a variety of problems at the watershed level.
    Many watershed groups are formed at the local level by community 
members concerned about water quality or the health of fish and 
wildlife populations. Often, these groups work to improve watershed 
health through partnerships among citizens, industry, interest groups, 
and government. However, the environmental and political 
characteristics of the nation's watersheds vary tremendously, and 
watershed management initiatives can differ widely in size and scope. 
As interest in watershed management continues to grow, so does the need 
for a framework to guide such initiatives and evaluate their 
effectiveness.
    The Federal Government can play an important role by helping to 
develop this framework and by providing assistance to States and 
communities for watershed initiatives. Congress should amend the 
Coastal Zone Management Act, the Clean Water Act, and other Federal 
laws where appropriate, to provide better financial, technical, and 
institutional support for watershed initiatives and better integration 
of these initiatives into coastal management.

Assessing the Growing Cost of Natural Hazards
    The nation has experienced enormous and growing losses from natural 
hazards. Conservative estimates, including only direct costs such as 
those for structural replacement and repair, put the nationwide losses 
from all natural hazards at more than $50 billion a year, though some 
experts believe this figure represents only half or less of the true 
costs. More accurate figures for national losses due to natural hazards 
are unavailable because the United States does not consistently collect 
and compile such data, let alone focus on specific losses in coastal 
areas. Additionally, there are no estimates of the costs associated 
with destruction of natural environments.
    Many Federal agencies have explicit operational responsibilities 
related to hazards management, while numerous others provide technical 
information or deliver disaster assistance. The nation's lead agencies 
for disaster response, recovery, mitigation, and planning are the 
Federal Emergency Management Agency (FEMA) and the U.S. Army Corps of 
Engineers (USACE). These agencies implement programs that specifically 
target the reduction of risks from natural hazards. NOAA and USFWS also 
have a significant influence on natural hazards management.
    Opportunities for improving Federal natural hazards management, 
include: Amending Federal infrastructure policies that encourage 
inappropriate development; Augmenting hazards information collection 
and dissemination; Improving the National Flood Insurance Program 
(NFIP); and Undertaking effective and universal hazards mitigation 
planning.

Conserving and Restoring Coastal Habitat
    The diverse habitats that comprise the ocean and coastal 
environment provide tangible benefits such as buffering coastal 
communities against the effects of storms, filtering pollutants from 
runoff, and providing a basis for booming recreation and tourism 
industries. These habitats also provide spawning grounds, nurseries, 
shelter, and food for marine life, including a disproportionate number 
of rare and endangered species.
    As more people come to the coast to live, work, and visit, coastal 
habitats face increasing pressures. Most human activities in coastal 
areas provide distinct societal benefits, such as dredging rivers and 
harbors to facilitate navigation, converting forests and wetlands for 
agriculture and development, and building dams for flood control and 
hydropower. But these activities can also degrade coastal habitats and 
compromise their ability to adapt to environmental changes.
    Conserving valuable ocean and coastal areas protects significant 
habitat and other natural resources. Millions of coastal acres have 
been designated for conservation by various levels of government, and 
the tools for implementing conservation programs are found in a 
multitude of statutes. A number of Federal programs aim to preserve the 
natural attributes of specific areas while providing varying levels of 
access to the public for educational, recreational, and commercial 
purposes. In addition, nonregulatory conservation techniques--including 
fee simple land acquisition, the purchase or donation of easements, tax 
incentives and disincentives, and tradable development rights--play a 
special role in enabling willing landowners to limit future development 
on their land for conservation purposes. Land acquisition and easements 
are often implemented through partnerships among governments, 
nongovernmental organizations such as land trusts, and the private 
sector. Funding and support for continued conservation of coastal and 
estuarine lands is important to ensure the ability to maintain critical 
habitats and the benefits they provide.
    Conservation is cost-effective, avoiding the much larger expense 
and scientific uncertainties associated with attempting to restore 
habitats that have been degraded or lost. Even so, once critical 
habitat has been lost, or the functioning of those areas diminished, 
restoration is often needed. Habitat restoration efforts are 
proliferating in response to heightened public awareness of and concern 
for the health of the nation's oceans and coasts.
    Restoration efforts, particularly large-scale projects, are 
challenging in a number of ways. First, the success of these efforts 
requires an understanding about how to recreate natural systems and 
restore historical ecosystem functions, a field still in its infancy. 
Second, these efforts cross political boundaries and affect a broad 
range of human activities, requiring support and intense coordination 
among a wide range of governmental and nongovernmental stakeholders. 
While some restoration projects have been successful, continued 
progress will depend on sustained funding, government leadership and 
coordination, scientific research, and stakeholder support.
    In addition to the large-scale, regional restoration efforts, there 
are numerous small-scale efforts that collectively make significant 
contributions. These activities often demonstrate the power of public-
private partnerships, bringing together community members, government 
agencies, and businesses to solve common problems. However, as long as 
each project continues to be planned and implemented in isolation, its 
overall impact will be constrained.
    Currently the many entities that administer conservation and 
restoration activities operate largely independently of one another, 
with no framework for assessing overall benefits in an ecosystem-based 
context. The multitude of disjointed programs prohibits a comprehensive 
assessment of the progress of conservation and restoration efforts and 
makes it difficult to ensure the most effective use of limited 
resources. An overarching national strategy that sets goals and 
priorities can also enhance the effectiveness of individual efforts and 
provide a basis for coordinating measures and evaluating progress of 
both habitat conservation and restoration activities.

Managing Sediment and Shorelines
    Sediment in Great Lakes, coastal, and ocean waters is composed of 
inorganic and organic particles created through erosion, decomposition 
of plants and animals, and human activities. Sediment may be carried by 
wind or water from upland areas down to coastal areas, or may originate 
in the marine environment. Once sediment arrives at the ocean, it is 
transported by wind, waves, and currents in dynamic processes that 
constantly build up and wear away cliffs, beaches, sandbars, inlets, 
and other natural features.
    From a human perspective, sediment has a dual nature--desirable in 
some locations and unwanted in others. Sediment can be used to create 
or restore beaches and to renew wetlands and other coastal habitats. 
Such activities are referred to as beneficial uses. Undesirable 
sediment can cloud water and degrade wildlife habitat, form barriers to 
navigation, and contaminate the food chain for marine plants, animals 
and humans.
    The dual nature of sediment as both a threat and a resource to 
humans and the environment makes its management particularly 
challenging. To complicate matters further, the natural processes that 
create, move, and deposit sediment operate on regional scales, while 
management tends to focus on discrete locations--a single beach, 
wetland, or port. In addition, the policies that affect sediment 
location, transport, and quality fall under the jurisdiction of diverse 
programs within multiple agencies at all levels of government. This 
complex governance approach makes it difficult to manage sediment at 
the appropriate scale and in consonance, rather than in conflict, with 
natural processes.
    Coastal stakeholders have increasingly recognized the need to 
develop more proactive and preventive strategies. However, their 
absence from broad watershed planning efforts--where decisions about 
land use and water management could reduce excess and contaminated 
sediments at their source--makes such change difficult to realize. The 
nation needs both a better understanding of the interactions between 
human activities and sediment flows, and a better mechanism for 
involving all potentially affected parties.
    Moving toward an ecosystem-based management approach is a critical 
step. Participation by Federal, State, and local entities in watershed 
management efforts, along with key stakeholders such as coastal 
planners and port managers, is one way to diminish upland sources of 
excess and contaminated sediment that harm the marine environment. 
Ecosystem considerations should be included in the process for 
permitting any activity that alters sediment flows.
    Dredged materials have long been used to create new land for 
commercial, residential, and infrastructure developments, as well as to 
bolster beaches and barrier islands to protect against storm and 
erosion hazards and enhance tourism and recreation. Since the 1970s, 
these beneficial uses of dredged materials have also included 
environmental enhancement, such as restoration of wetlands, creation of 
wildlife habitat, and improvement of fish habitat. Surprisingly, 
navigation-related dredged materials do not find their way into 
beneficial use projects as often as perhaps they should. This is due in 
part to sediment contamination, but also to USACE policies that favor 
disposal in open waters or in upland dump sites. These policies may be 
unnecessarily foregoing opportunities to support economic growth or 
environmental protection and may have serious unintentional 
consequences for aquatic ecosystems. A more accurate system for 
selecting and ranking projects would be based on a comparative net 
economic and environmental return for the United States rather than a 
narrow cost-benefit analysis for a specific project.
    Finally, the characterization, containment, removal, and treatment 
of contaminated sediment continue to be technically difficult and 
prohibitively expensive, and point to the importance of adopting an 
adaptive management approach to the problem. Scientifically sound 
methods for identifying contaminated sediment and developing innovative 
technologies to improve dredging and treatment of this material are 
critical steps toward improving the economic and ecological health of 
coastal areas. To be successful, these efforts will require new 
resources and effective regional planning.

Supporting Marine Commerce and Transportation
    As the world's largest trading nation, the United States imports 
and exports more merchandise than any other country and has one of the 
most extensive marine transportation systems in the world. U.S. marine 
import-export trade is an essential and growing component of the 
national economy, accounting for nearly seven percent of the nation's 
gross domestic product. Domestically, coastal and inland marine trade 
amounts to roughly one billion tons of cargo, worth more than $220 
billion a year. The marine transportation system itself is a highly 
complex public-private sector partnership consisting of an 
interconnected mix of waterways, ports and terminals, water-based and 
land-based intermodal connections, vessels, vehicles, equipment, 
personnel, support service industries, and users.
    For the nation's marine transportation system to meet current and 
future demands, ongoing maintenance, improvement, and expansion will be 
required. A key prerequisite for a robust system is better 
coordination, planning, decisionmaking and allocation of resources at 
the Federal level. In particular it will be essential to enhance the 
connections between this system and other modes of transportation, such 
as highways, railways, and airports. At the same time, in moving toward 
an ecosystem-based management approach, planning for the movement of 
cargo and passengers should be coordinated with the management of many 
other ocean and coastal uses and activities, and with efforts to 
protect the marine environment.
    Within the Federal Government, responsibilities for marine commerce 
and transportation are spread among numerous agencies, primarily the 
U.S. Department of Transportation (DOT), U.S. Coast Guard, USACE, NOAA, 
U.S. Customs Service, and EPA. These agencies have many roles, 
including vessel traffic management, national security, marine safety, 
waterway maintenance, environmental protection, and customs. These 
responsibilities are poorly coordinated and do not mesh well with the 
structure and function of such system. Statutory, regulatory, and 
policy differences among Federal agencies with roles in marine 
transportation lead to fragmentation, competition, and in some cases, 
an inability to work collaboratively due to conflicting mandates. 
National leadership and support will be needed to achieve better 
integration within the Federal government, better links with the rest 
of the nation's transportation infrastructure, and coordination between 
marine transportation and other important ocean and coastal uses and 
activities. The logical agency to assume this responsibility, as it 
does for the highway, aviation, and railway systems, is DOT.
    Even with one clearly mandated lead Federal agency, coordination 
will be needed among the Federal and non-Federal participants in the 
marine transportation system. Given the significance of domestic and 
international trade to the nation and the complexity of the components 
that make up the system the Interagency Committee for the Marine 
Transportation System (ICMTS) should be strengthened, codified and 
placed under the oversight of the National Ocean Council. And because 
marine transportation involves many actors outside the Federal 
Government, the Marine Transportation System National Advisory Council 
should be maintained to coordinate among non-Federal participants in 
the marine transportation system and a venue for providing input to the 
Federal Government on important national issues.
    An important step in allowing the U.S. marine transportation system 
to grow, while minimizing increased congestion, delays, and costs to 
U.S. businesses and consumers, is to improve the movement of cargo into 
and out of ports. Existing intermodal connections are inadequate to 
meet the expected increase in foreign and domestic trade. The nation's 
transportation infrastructure is largely an agglomeration of competing 
transportation modes, each focusing on its own priorities. While this 
approach has produced an extensive infrastructure, a national strategy 
is needed to enhance the connections among these modes, including the 
nation's ports, and ensure greater overall effectiveness.
    DOT, working with the ICMTS, should draft a new national freight 
transportation strategy to support continued growth of the nation's 
economy and international and domestic trade. Based on the new 
strategy, investments should be directed toward planning and 
implementation of intermodal projects of national significance. In 
developing the national freight transportation strategy, DOT should 
emphasize strategic planning with States, regions, and the public 
sector as is already being carried out for the U.S. highway system.
    Planning for the future of the U.S. marine transportation system 
requires accurate and timely information, including estimates of the 
volume of current and future cargo transportation, their origins and 
destinations, and the capacity of the various transportation modes. 
Such information is essential to understand the strengths and 
weaknesses of the current system and the challenges and opportunities 
for improving its effectiveness. DOT, working with other appropriate 
entities, should establish a national data collection, research, and 
analysis program to provide a comprehensive picture of freight flows in 
the United States and to enhance the performance of the nation's 
intermodal transportation system. DOT should periodically assess and 
prioritize the nation's future needs for ports and intermodal 
transportation capacity to meet expected growth in marine commerce.
    Finally, natural disasters, labor disputes, terrorist attacks, ship 
collisions, spills of hazardous materials, and many other human and 
naturally caused events can disrupt the flow of marine cargo and 
passenger services, causing severe economic and social ramifications 
nationally and internationally. Diminished port capacity could also 
affect vital military operations. In developing a national freight 
transportation strategy, DOT should work closely with the U.S. 
Department of Homeland Security and the FEMA to incorporate port 
security and other emergency preparedness requirements. The strategy 
should focus on preventing threats to national security and port 
operations and on response and recovery practices that limit the 
impacts of such events, including an assessment of the availability of 
alternative port capacity.

                    COASTAL AND OCEAN WATER QUALITY

    Coastal and ocean water quality is threatened by multiple sources 
of pollution, including point and nonpoint source pollution, 
atmospheric deposition of pollutants, vessel pollution, invasive 
species, and trash being washed into the ocean and onto beaches. 
Addressing these multiple pollutants will require development of an 
ecosystem-based and watershed management approach that includes a 
variety of management tools, coordination, and ongoing monitoring.

Addressing Coastal Water Pollution
    Coastal waters are one of the nation's greatest assets, yet they 
are being bombarded with pollution from all directions. The heavy 
concentration of activity in coastal areas, combined with pollutants 
flowing from streams far inland and others carried through the air 
great distances from their source, are the primary causes of nutrient 
enrichment, hypoxia, toxic contamination, sedimentation, and other 
problems that plague coastal waters.
    Any solution must be founded on an ecosystem-based and watershed 
management approach involving a broad range of agencies, programs, and 
individuals. The complex array of laws, agencies, and programs that 
address water pollution, and the number of parties involved, will 
require greatly enhanced coordination among Federal agencies, primarily 
EPA, NOAA, USDA, and USACE. Greater coordination is also needed between 
the Federal Government and managers at the State, territorial, tribal, 
and local levels, watershed groups, nongovernmental organizations, 
private stakeholders, and the academic and research communities. 
Solutions will also require a substantial financial investment and will 
take time.

            Reducing Point Sources of Pollution
    Over the last few decades, great strides have been made in 
controlling water pollution from point sources, although further 
improvements could be realized through increased funding, strengthened 
enforcement, and promotion of innovative approaches such as market-
based incentives. The Commission also addresses several specific point 
sources of pollution, including wastewater treatment plants, sewer 
system overflows, septic systems, industrial facilities, and animal 
feeding operations.

            Increasing the Focus on Nonpoint Sources of Pollution
    While considerable progress has been made in reducing point sources 
of pollution, further progress toward improving coastal water quality 
will require significant reductions in nonpoint sources as well. This 
pollution occurs when rainfall and snowmelt carry pollutants over land, 
into streams and groundwater, and down to coastal waters. Ninety 
percent of impaired water bodies do not meet water quality standards at 
least in part because of nonpoint source pollution. The majority of the 
nonpoint source pollution entering rivers, estuaries, coastal waters, 
and ultimately the oceans is from agricultural and stormwater runoff.
    To address nonpoint source pollution, the NOC should establish 
significant reduction of nonpoint source pollution in all impaired 
coastal watersheds as a national goal, and set measurable objectives to 
meet water quality standards. The nation has a number of opportunities 
to reduce the impacts of nonpoint sources of pollution on coastal 
waters. Because agricultural runoff contributes substantially to 
nonpoint source pollution, USDA should align its conservation programs 
and funding with other programs aimed at reducing nonpoint source 
pollution, such as those of EPA and NOAA. Other opportunities for the 
nation to reduce nonpoint source pollution include coordination of 
Federal nonpoint programs so they are mutually supportive, more 
targeted and aggressive use of state revolving loan funds, broader 
implementation of incentives and disincentives, and improved monitoring 
to assess compliance and overall progress. State and local governments 
also have important roles to play in land use planning and stormwater 
management decisions.
    Watersheds are often the appropriate geographic unit for addressing 
water-related problems and collaborative watershed groups have had 
significant successes in addressing nonpoint source pollution. 
Therefore, the NOC and regional ocean councils should strengthen the 
ability of collaborative watershed groups to address problems 
associated with nonpoint source pollution by developing and 
implementing strategies to provide them with adequate technical, 
institutional, and financial support.

            Addressing Atmospheric Sources of Pollution
    Atmospheric deposition of pollutants can also harm water quality, 
aquatic resources, and human health. To address atmospheric deposition, 
EPA, States, and watershed groups should explore regional approaches 
for managing atmospheric deposition, particularly when it affects water 
bodies in states far from the source.

Creating a National Water Quality Monitoring Network
    Pollution of the nation's coastal waters has led to beach closures, 
oxygen depletion, health impacts from toxic contamination, and many 
other problems. Despite these threats to coastal waters, there is no 
national network in place to monitor water quality changes and their 
causes, facilitate estimates of their economic impact, and measure the 
success of management efforts. Increased monitoring is needed not only 
along the nation's coasts, but also inland where pollutants make their 
way downstream, ultimately impacting coastal waters. A national water 
quality monitoring network is essential to support the move toward an 
ecosystem-based management approach that considers human activities, 
their benefits, and their potential impacts within the context of the 
broader biological and physical environment. An essential step toward 
controlling pollution will be to strengthen and coordinate monitoring 
efforts to provide decision makers with necessary information.
    A number of monitoring efforts are currently conducted by Federal 
agencies, State governments, research institutions and academia, 
nongovernmental organizations, and individual volunteers. Existing 
monitoring programs vary in many respects, including sampling design 
and intensity, parameters tested, analytical methodology, data 
management protocols, and funding. Even when the same properties are 
measured, different data management protocols may make the integration 
of that information difficult. Consequently, while a number of 
monitoring programs exist, they are not designed to support a 
comprehensive and coordinated national monitoring network.

            Ensuring Comprehensive, Coordinated Coverage
    The nation's coastal margin is the most densely populated and 
developed region of the nation, and its waters have been significantly 
degraded by pollution. Yet in recent years, due largely to lack of 
funding, monitoring has been extremely sparse along the coasts. Much 
remains unknown about the status of coastal waters, and increased 
monitoring will be required to make informed management decisions about 
this economically and ecologically valuable region. Yet the close 
connections between coastal and upstream waters dictate that any water 
quality monitoring network must be national in scope. NOAA, EPA, and 
USGS should lead the effort to develop a national water quality 
monitoring network that coordinates existing and planned monitoring 
efforts, including Federal, State, local, and private efforts. The 
network should include a federally-funded backbone of critical stations 
and measurements needed to assess long-term water quality trends and 
conditions.
    Because of the inherent overlap between inland, coastal, and open-
ocean monitoring and observing, the national water quality monitoring 
network should be closely linked with the Integrated Ocean Observing 
System (IOOS) and ultimately with a broad Earth observing system. NOAA 
should ensure that the water quality monitoring network includes 
adequate coverage in both coastal areas and the upland areas that 
affect them, and that the network is linked to the IOOS, to be 
incorporated eventually into a comprehensive Earth observing system.

            Creating an Effective Monitoring Network and Making Data 
                    Accessible and Useful
    In addition to coordinating existing monitoring efforts, an 
effective national water quality monitoring network should have 
specific goals and objectives, reflect user needs, and be helpful in 
assessing the effectiveness of management approaches. The overall 
system design should determine what and where to monitor, including 
definition of a set of core variables. Technical expertise will be 
needed to standardize procedures and establish quality control and data 
management protocols. The network should be periodically assessed and 
modified as necessary. Most important, the data collected through the 
national monitoring network should be useful to managers and 
stakeholders in evaluating management measures, determining best 
management practices, and making continual improvements in reaching 
ecosystem goals. This data should also be translated into timely and 
useful information products that are readily accessible to decision 
makers and the public. The design and implementation of the national 
monitoring network will require not only Federal coordination, but also 
significant input from the States.

Limiting Vessel Pollution and Improving Vessel Safety
    The benefits from vessel activities are significant--ships carry 
more than 95 percent of the nation's overseas cargo--but these 
operations also present safety, security and environmental risks that 
must be effectively addressed.
    Success in addressing these concerns will depend on a broad 
domestic and international framework comprised of three key components. 
The first component is a strong voluntary commitment on the part of 
vessel owners and operators to build a workplace ethic that 
incorporates safety, security, and environmental protection as 
important and valued aspects of everyday vessel operations. Reliable 
means of measuring the success of these efforts, as reflected in crew 
and company performance, are essential and should include extensive use 
of third-party audits. The U.S. Coast Guard, through incentives and 
partnership programs, should encourage industry partners to develop 
stronger voluntary measures, particularly those that reward crew member 
contributions, as part of a continuing long-term effort that focuses on 
building a culture of safety, security, and environmental compliance.
    The second key component is effective oversight and control by the 
primary vessel regulator, the vessel's flag state. Foreign flag 
vessels, subject primarily to the jurisdiction and control of other 
governments, carry more than 90 percent of international commercial 
freight entering and departing the United States and account for 95 
percent of passenger ships and 75 percent of cargo ships operating in 
U.S. waters. Although many flag states take their responsibilities 
seriously, oversight and enforcement vary dramatically. Over the past 
decade, the International Maritime Organization has developed 
guidelines to improve flag state oversight and enforcement. However, 
implementation of these measures has met with mixed results. Mounting 
international security concerns have made effective flag state 
oversight and control more urgent today than ever before. The United 
States should work with other nations to accelerate efforts at the 
International Maritime Organization to enhance flag state oversight and 
enforcement. Initiatives should include expeditious promulgation of a 
code outlining flag state responsibilities, and development of a 
mandatory external audit regime to evaluate performance and identify 
areas where additional technical assistance can be used to best 
advantage.
    The third key framework component is effective control over vessels 
visiting U.S. ports. The Coast Guard currently carries out a port state 
control program that allocates limited inspection resources to the 
highest-risk vessels, based on an assessment of the vessel owner, flag 
state, classification society, performance history, and vessel type. 
Performance-based vessel inspections, while the most effective means of 
verifying compliance, are resource intensive. These inspections have 
played a critical role in identifying and correcting potential 
problems, and in assessing the effectiveness of overall efforts to 
improve safety and environmental compliance. Concerns have been 
expressed in Congress and elsewhere about the adequacy of Coast Guard 
resources to meet new security demands while fulfilling other important 
responsibilities. Congress should provide the U.S. Coast Guard with the 
resources necessary to sustain and strengthen the performance-based 
inspection program for marine safety and environmental protection while 
also meeting new vessel security inspection and other maritime security 
requirements. In addition, the Coast Guard should work at the regional 
and international levels to increase effective coordination and vessel 
information sharing among concerned port states.
    In addition to outlining a framework to address vessel safety, 
security and environmental concerns, our report also recommends more 
comprehensive approaches to address waste stream, oil and air pollution 
from commercial and recreational vessels. Recommendations include: 
establishing a uniform national regime to deal with cruise ship waste 
streams; ratifying and working to strengthen MARPOL Annex V1 air 
emission standards; developing comprehensive policy guidance and 
contingency plans for vessels seeking places of refuge in the United 
States; developing a long-term plan that identifies and addresses the 
greatest risks associated with marine oil transportation systems; and 
updating and accelerating efforts to reduce recreational vessel 
pollution. We also place particular emphasis on the use of market-based 
mechanisms and incentives to reduce pollution and encourage appropriate 
voluntary actions.

Preventing the Spread of Invasive Species
    The introduction of non-native marine organisms into ports, coastal 
areas, and watersheds has damaged marine ecosystems around the world, 
costing millions of dollars in remediation, monitoring, and ecosystem 
damage. Invasive species policies are not keeping pace with the problem 
primarily because of inadequate funding, a lack of coordination among 
Federal agencies, redundant programs, and outdated technologies.

            Making Prevention the First Line of Defense
    The discharge of ballast water is considered a primary pathway for 
introduction of non-native aquatic species. Exchanging ballast water in 
the middle of the ocean to reduce the risk of transferring organisms 
from one ecosystem to another is the primary management tool currently 
available for ships to control the introduction of invasive species.
    To better control the introduction of invasive species, the U.S. 
Coast Guard's national ballast water management program should: apply 
uniform, mandatory national standards; incorporate sound science in the 
development of a biologically meaningful and enforceable ballast water 
treatment standard; include a process for revising the standard to 
incorporate new technologies; ensure full consultation with EPA; and 
include an interagency review, through the NOC, of the policy for ships 
that declare they have no ballast on board.
    While ballast water is considered a primary pathway, there are also 
other important ship-related sources of non-native aquatic species, 
including ships' hulls, anchors, navigational buoys, drilling 
platforms, and floating marine debris. Other pathways include 
intentional and unintentional human introductions of fish and 
shellfish, and illegally released organisms from the aquaculture, 
aquarium, horticulture, and pet industries. There is increasing concern 
that an expanding trade through the Internet and dealers of exotic pets 
is exacerbating the invasive species problem.
    To address these pathways of introduction, the NOC, working with 
the Aquatic Nuisance Species Task Force and the National Invasive 
Species Council, should coordinate public education and outreach 
efforts on aquatic invasive species, with the aim of increasing public 
awareness about the importance of prevention.

            Accelerating Detection and Response
    Only the most draconian prevention strategy could hope to eliminate 
all introductions of non-native species and thus prevent the 
possibility of an invasion. Yet no effective mechanism is in place for 
rapidly responding to newly discovered aquatic invasions when they do 
occur. Therefore, the National Invasive Species Council and the Aquatic 
Nuisance Species Task Force, working with other appropriate entities, 
should establish a national plan for early detection of invasive 
species and a system for prompt notification and rapid response.

            Improving the Control of Invasive Species
    As biological invasions continue, there is a pressing need to 
improve the control of invasive species by reducing the overlaps and 
redundancies caused by the involvement of so many agencies with 
insufficient interagency coordination. The NOC should review and 
streamline the current proliferation of Federal and regional programs 
for managing marine invasive species, and coordinate Federal, regional 
and State efforts.
    The study of marine biological invasions is a relatively new 
research area and little is understood about how or why certain species 
become invasive, what pathways of introduction are most important, and 
whether certain factors make an ecosystem more susceptible to 
invasions. To better understand marine biological invasions, the NOC 
should coordinate the development and implementation of an interagency 
plan for research and monitoring to understand and prevent aquatic 
species invasions.
Reducing Marine Debris
    The trash and other waste that drifts around the global ocean and 
washes up on the nation's shores poses a serious threat to fishery 
resources, wildlife, and habitat, as well as human health and safety. 
Approximately 80 percent of debris is washed off the land, blown by 
winds, or intentionally dumped from shore, while 20 percent comes from 
vessels and offshore platforms.
    NOAA currently addresses marine debris as a part of several other 
efforts, but there is a need to coordinate, strengthen, and increase 
the visibility of the marine debris efforts within NOAA by creating a 
centralized marine debris program within the agency. This program 
should be coordinated with EPA's marine debris activities, as well as 
with the significant efforts conducted by private citizens, state, 
local, and nongovernmental organizations.

            Interagency Coordination
    Although strengthening NOAA's work on marine debris through 
establishment of an office within the agency is an important step, an 
interagency committee under the NOC is needed to unite all appropriate 
Federal agencies around the issue. Such a committee could support 
existing marine debris efforts by agencies and nongovernmental 
organizations, and should expand and better coordinate national and 
international marine debris efforts, including: public outreach and 
education; partnerships with state and local governments, community 
groups, nongovernmental organizations, and industry; and monitoring, 
identification and research.

            Eliminating Derelict Fishing Gear
    Whether intentionally discarded or unintentionally lost during 
storms or fishing operations, derelict fishing gear poses serious 
threats, entrapping marine life, destroying coral reefs and other 
habitat, and even posing danger to humans. Although derelict fishing 
gear is a worldwide problem, currently no international treaties or 
plans of action address it. A strong need exists for the U.S. 
Department of State and NOAA, working with the United Nations Food and 
Agriculture Organization, to develop a plan of action to address 
derelict fishing gear, to be implemented on a regional, multi-national 
basis. In addition, within the United States, a public-private 
partnership program is needed to prevent, remove, and dispose of 
derelict fishing gear.

            Ensuring Appropriate Port Reception Facilities
    Under requirements for port reception facilities in Annex V of 
MARPOL, member nations must provide waste disposal facilities in their 
ports to receive waste from ships. Despite this requirement, many ports 
do not have adequate facilities. In addition, Annex V calls for the 
designation of Special Areas that receive a higher level of protection 
than is required in other ocean areas. Special Areas have been 
designated for many parts of the world, however, for a Special Area to 
receive extra protection, there must first be a demonstration of 
adequate port reception facilities. Some important Special Areas, such 
as the Wider Caribbean, are not yet eligible to receive extra 
protection because of inadequate port reception facilities. Therefore, 
the U.S. Department of State should increase efforts to ensure that all 
port reception facilities meet the criteria necessary to allow 
implementation of Special Areas protections.

          ENHANCING THE USE AND PROTECTION OF OCEAN RESOURCES

    The ocean's biological and mineral resources are of enormous value 
to the nation, not only for their direct economic output, but also for 
their incalculable aesthetic importance.
    The commercial fishing industry's total value exceeds $28 billion 
annually, with the recreational saltwater fishing industry valued at 
around $20 billion. NOAA estimates that U.S. coral reefs cover 
approximately 7,600 square miles. In 2001, coral reefs in the Florida 
Keys alone supported $105 million in income and more than 8,000 jobs. 
Further, approximately one-half of all federally managed commercial 
fish species depend on coral reefs for at least part of their life 
cycle. Currently, energy development in Federal waters accounts for 
more than 30 percent of domestic oil production and 25 percent of 
natural gas, with a total annual value of between $25-$40 billion, and 
a contribution of about $5 billion in royalties to the U.S. Treasury.
    In order to provide for sustainable use, management needs to be 
strengthened in a broader context that looks at impacts of management 
decisions on the ecosystem as a whole.
Fisheries Management
    The last 30 years has seen the evolution of an industry from being 
largely unregulated but with seemingly boundless potential, to one that 
is highly regulated and struggling to regain its potential as we move 
toward a sustainable, ecosystem-based fisheries management regime.
    In 1976, based in part on the recommendations of the Stratton 
Commission, Congress approved the Magnuson-Stevens Fishery Conservation 
and Management Act to manage and assert U.S. control over fishery 
resources within 200 nautical miles of the coast. Eight Regional 
Fishery Management Councils (RFMCs) were created to develop management 
plans for fisheries in Federal waters. The Act required regional plans 
to be consistent with broad national guidelines, but otherwise granted 
considerable flexibility to the RFMCs. The regional flexibility that 
had been seen as a great strength of the new law now showed its 
downside as some RFMCs set unsustainable harvest levels, leading to the 
collapse or near-collapse of several important fisheries.
    In the over 30 years since the Stratton report, some fishery 
management bodies have revealed fundamental weaknesses in the system 
that led to overexploited stocks and ecosystem degradation in some 
regions. However, the management practices in some regions, 
particularly the North Pacific, protected fisheries from over 
exploitation and served as a model for many of the Commission's 
fisheries recommendations. The Commission fishery recommendations can 
be grouped into six areas: strengthening the link between science and 
management, clarifying jurisdiction representation, expanding the use 
of dedicated access privileges, improving enforcement, and 
strengthening international management.
    The link between fishery management decisions and peer-reviewed 
scientific info must be strengthened, including developing an expanded 
research program that is more responsive to managers' needs. To 
accomplish this, a number of management improvements are needed. RFMCs 
should be required to rely on the advice of their Scientific and 
Statistical Committees (SSCs), especially when setting harvest levels. 
RFMCs should not be allowed to approve measures less conservative than 
recommended by the SSC. SSC members should be nominated by the RFMCs 
and appointed by the NOAA Administrator. To ensure that SSC members are 
of the highest quality, their credentials and potential conflicts of 
interest should be reviewed by an external organization. To ensure 
sufficient external review of the scientific advice of the SSCs, NOAA 
should develop a standardized, independent peer-review process for 
implementation by all RFMCs. To ensure that needed conservation 
measures are implemented in a timely manner, default measures should be 
developed that would go into effect with a lack of action on the part 
of the RFMCs. Finally, to ensure that manager's have the information 
they require, NOAA's process for developing research plans should 
incorporate manager's priorities to the extent practicable. An expanded 
cooperative research program and increased emphasis on in-season 
recreational fishery data collection should be an important component 
of this effort.
    Responsibilities and jurisdiction of the various Federal and 
interstate fishery management entities need to be clarified, and the 
representation on the Federal regional fishery management councils need 
to be broadened. To ensure that jurisdictional confusion does not lead 
to delaying conservation measures, Congress should assign a lead 
management authority among the various Federal and interstate 
management authorities, based primarily on proportion of catch 
occurring within each entities jurisdiction. To ensure that the RFMCs 
have appropriate representation, particularly as we move toward 
ecosystem-based management, the governors should be required to submit 
a broader slate of candidates to be appointed by the NOAA 
Administrator. To ensure that RFMCs members have the necessary 
knowledge to properly manage fisheries, members should be required to 
take a training course. Finally, to ensure that all interstate fishery 
commissions have the necessary means to manage the fisheries under 
their jurisdiction, Congress should grant authority similar to the 
Atlantic Coastal Fisheries Cooperative Management Act to the Gulf and 
Pacific States Commissions.
    To reverse existing incentives that create an unsustainable ``race 
for the fish,'' fishery managers should explore widespread adoption of 
dedicated access privileges to promote conservation and help reduce 
overcapitalization. Congress should amend the Magnuson-Stevens Fishery 
Conservation and Management Act to affirm that fishery managers are 
authorized to institute dedicated access privileges, subject to meeting 
national guidelines; and every Federal, interstate, and State fishery 
management entity should consider the potential benefits of adopting 
dedicated access programs. In addition, Congress should directly 
address overcapitalization by revising Federal programs that subsidize 
overcapitalization, as well as work with NOAA to develop programs that 
permanently address overcapitalization in fisheries.
    Fishery enforcement must be improved through adoption of better 
technology, such as Vessel Monitoring Systems (VMS) and better 
cooperation among Federal agencies and States. Funding should be 
increased for Joint Enforcement Agreements between NOAA's National 
Marine Fisheries Service and coastal states as the best method of 
restoring the enforcement presence of the Coast Guard diminished 
because of the increased need for maritime security following the 9/11 
terrorist attacks. The expanded use of VMS is another cost effective 
way of increasing enforcement capabilities.
    Fishery management needs to continue the move toward ecosystem-
based management in order to improve management, reduce conflicts 
between socio-economic impacts and biological sustainability, and 
provide a proper forum to address difficult management issues. In 
particular, issues such as habitat damage and bycatch should be 
approached from an ecosystem basis and management plans should be 
designed to reduce impacts from these factors.
    Because many of the stocks targeted by U.S. fishermen traverse 
international waters, it will be impossible to conserve some stocks 
without the aid of other countries. In addition, many endangered 
species such as sea turtles and whales travel the high seas. To promote 
international cooperation to conserve living marine resources, the 
Commission makes the following recommendations. The United States 
should work to encourage other countries to adopt and enforce existing 
international agreements to promote worldwide adoption of sustainable 
fisheries practices, in particular the Fish Stocks Agreement and the 
United Nations Food and Agriculture Organization's Compliance 
Agreement. The National Ocean Council should recommend effective 
methods to promote adoption of other important international 
conservation agreements, such as the Code of Conduct for responsible 
fisheries. In addition, the United States should continue to press for 
the inclusion of environmental objectives--particularly those specified 
in international environmental agreements--as legitimate elements of 
trade policy.

Marine Mammals and Endangered Species
    Because of their intelligence, visibility and frequent interactions 
with humans, marine mammals hold a special place in the minds of most 
people and are afforded a higher level of protection than fish or other 
marine organisms. The American public has also consistently been 
supportive of efforts to prevent species from becoming endangered or 
extinct from human-caused activities. Because of the concern that the 
American public has shown for marine mammals and endangered species, 
specific legislation was enacted to provide them greater protection. 
The Marine Mammal Protection Act and the Endangered Species Act are 
landmark laws that have protected marine mammals and populations in 
danger of extinction since their passage. However, both Acts need to 
move toward a more ecosystem-based regime to improve protections for 
these populations.
    The biggest threat to marine mammals worldwide today is their 
accidental capture or entanglement in fishing gear (known as 
``bycatch''), killing hundreds of thousands of animals a year. 
Commercial harvesting contributed to major declines in the populations 
of marine mammals but only a few nations still allow hunting for 
purposes other than subsistence. Hunters from those nations continue to 
kill hundreds of thousands of seals, whales, dolphins, and other marine 
mammals each year while legal subsistence hunting accounts for 
thousands more. Other potential causes of death and injury to marine 
mammals, such as ships strikes, pollution and toxic substances, and 
noise from ships and sonar, cause many fewer deaths than bycatch and 
hunting.
    The threats to endangered marine species such as sea turtles and 
sea birds are myriad and not easily categorized. One factor that is 
common to declines in many species is the destruction or degradation of 
their natural habitat. Thus the successful recovery of a species 
depends to a large degree on protection or restoration of this habitat.
    One of the critical components to improving protections for 
protected species is expanding the knowledge base. We know very little 
about the basic biology for these species, particularly marine mammals. 
The lack of basic scientific information has perhaps contributed to the 
frequent mismatch between causes of impacts to marine mammal 
populations and the amount of management attention paid to them. For 
example, the top two impacts to marine mammals by orders of magnitude 
are bycatch and hunting, yet most recent attention is being paid to 
other causes. Under ecosystem-based management, the most critical 
impacts should be addressed first. However, our overwhelming lack of 
knowledge of marine mammal and endangered species makes it difficult to 
properly rank and address impacts to these species. As the foundation 
to improving management, the Commission recommends an expanded 
research, technology, and engineering program, coordinated through the 
National Ocean Council, to examine and mitigate the effects of human 
activities on marine mammals and endangered species. In particular, 
Congress should expand Federal funding for research into ocean 
acoustics and the potential impacts of noise on marine mammals. The 
United States should increase efforts to extend the benefits of the 
expanded research program to other countries.
    Another important component to improving protections for protected 
species will be to clarify and coordinate Federal agency actions. The 
Commission recommends that jurisdiction for marine mammals be 
consolidated within NOAA, and that the NOC improve coordination between 
NOAA and the Fish and Wildlife Service with respect to the 
implementation of the Endangered Species Act, particularly for 
anadromous species or when land-based activities have significant 
impacts on marine species.
    The MMPA, with limited exceptions, prohibits the hunting, killing, 
or harassment of marine mammals. One of the exceptions authorizes the 
issuance of permits for the unintentional and incidental taking of 
small numbers of marine mammals provided it has only a negligible 
impact on the species. This provision has been problematic because 
terms such as small numbers and negligible impact are not defined in 
the Act, resulting in a lack of clarity about when a permit is 
necessary and under what circumstances it should be granted. Congress 
should amend the Marine Mammal Protection Act to require the NOAA to 
more clearly specify categories of activities that are allowed without 
a permit, those that require a permit, and those that are prohibited. 
Specifically, Congress should amend the Marine Mammal Protection Act to 
revise the definition of harassment to cover only activities that 
meaningfully disrupt behaviors that are significant to the survival and 
reproduction of marine mammals.
    As an adjunct to clarifying allowed and permitted activities, the 
permitting process itself should be streamlined. Specifically, 
programmatic permitting should be used where possible to simplify 
agency permitting.

Coral Communities
    Tropical and deepwater coral communities are among the oldest and 
most diverse ecosystems, rivaling tropical rainforests in biodiversity 
and economic value. But, tropical coral reef health is rapidly 
declining, with pristine reefs being rare or nonexistent and possibly 
one-third of the world's reefs severely damaged. The existing 
management structure is inadequate and agencies and laws overseeing 
coral reef management have made little progress in actually protecting 
corals. Immediate action is needed to avoid irreversible harm.
    In the short-term, the Coral Reef Task Force (CRTF) should be 
strengthened by placing it under the NOC, and adding the U.S. 
Department of Energy and the U.S. Army Corps of Engineers. The 
strengthened CRTF should begin immediate development of actions to 
reverse impacts of coastal pollution and fishing on coral communities. 
The EPA and USDA, at the minimum, should be charged with implementing 
the coastal pollution reduction plan and NOAA should be charged with 
implementing the plan for reversing impacts from fishing. In addition, 
the CRTF's area of responsibility should be expanded to include 
deepwater coral communities as well.
    In the long-term, the Congress should enact a ``Coral Protection 
and Management Act'' that provides direct authority to protect and 
manage corals, and provides a framework for research and cooperation 
with international protections efforts. This legislation should include 
the following elements: support for mapping, monitoring, and research 
programs; support for new research and assessment activities to fill 
critical information gaps; liability provisions for damages to coral 
reefs similar to those in the Marine Protection, Research, and 
Sanctuaries Act; support for outreach activities to educate the public 
about coral conservation and reduce human impacts; and, support for 
U.S. involvement, particularly through the sharing of scientific and 
management expertise, in bilateral, regional, and international coral 
reef management programs.
    As the world's largest importer of ornamental coral reef resources, 
the United States has a particular responsibility to help eliminate 
destructive harvesting practices and ensure the sustainable use of 
these resources. Many of these resources are harvested by methods that 
destroy reefs and overexploit ornamental species. A balance is needed 
between sustaining the legitimate trade in ornamental resources and 
sustaining the health and survival of the world's coral reef resources. 
The United States should develop domestic standards for the importation 
of coral species, to ensure that U.S. citizens do not indirectly 
promote unsustainable practices in coral harvesting countries.

Aquaculture
    Marine aquaculture has the potential to supply part of the ever 
increasing domestic and worldwide demand for seafood. However, there 
are two major concerns that need to be addressed: environmental 
problems with existing aquaculture operations, particularly net-pen 
facilities, and a confusing, inconsistent array of State and Federal 
regulations that hinder private sector investment.
    To oversee a comprehensive and environmentally sound management 
regime, Congress should amend the National Aquaculture Act to designate 
NOAA as the lead Federal agency for implementing a national policy for 
environmentally and economically sustainable marine aquaculture and 
create an Office of Sustainable Marine Aquaculture in NOAA.
    This new NOAA office should develop a single, multi-agency Federal 
permit for the aquaculture industry and ensure aquaculture facilities 
meet State and national environmental standards to lessen impacts from 
escapement and disease and protect the sustainability and diversity of 
wild stocks.
    Furthermore, the permitting and leasing system and implementing 
regulations should: reflect a balance between economic and 
environmental objectives consistent with national and regional goals; 
be coordinated with guidelines and regulations developed at the State 
level; include a system for the assessment and collection of a 
reasonable portion of the resource rent generated from marine 
aquaculture projects that use ocean resources held in public trust; 
require applicants to post a bond to ensure that any later performance 
problems will be remedied and that abandoned facilities will be safely 
removed at no additional cost to the taxpayers; and, require the 
development, dissemination, and adoption by industry of best management 
practices that are adaptable to new research and technology advances.
    Enhanced investments in research, demonstration projects, and 
technical assistance can help the industry address environmental 
issues, conduct risk assessments, develop technology, select species, 
and improve best management practices. It is also vital for developing 
fair and reasonable policies, regulations, and management measures. 
Most of the Federal research to support marine aquaculture has been 
carried out under the auspices of NOAA's National Sea Grant College 
Program, which funds primarily university-based research. Congress 
should increase funding for expanded marine aquaculture research, 
development, training, extension, and technology transfer programs in 
NOAA. The Office of Sustainable Marine Aquaculture should set 
priorities for the research and technology programs, in close 
collaboration with academic, business, and other stakeholders.
    Because the U.S. market for seafood is one of the largest in the 
world, we can use our market power as a positive force for promoting 
sustainable, environmentally sound aquaculture practices not only in 
the United States, but the world as well. The United States should work 
to ensure that all countries adhere to aquaculture standards such as 
are in the UN FAO Code of Conduct for Responsible Fisheries.

Oceans and Human Health
    Beneficial and harmful links between human health and ocean health 
exist. While several important medical treatments are based on 
chemicals discovered in marine animals, increasingly common phenomena 
such as harmful algal blooms have demonstrated ability to negatively 
impact human health. The health of marine ecosystems is affected by 
human activities such as pollution, global warming, and fishing. But in 
addition, human health depends on thriving ocean ecosystems. A better 
understanding about the many ways marine organisms affect human health, 
both for good by providing drugs and bioproducts, and for bad by 
causing human ailments, is needed.
    Congress should establish an oceans and human health initiative to 
create a competitive grant program and coordinate Federal activities. 
Existing programs at NOAA, NSF and the National Institute of 
Environmental Health Sciences should be coalesced in this initiative. 
This initiative should be expanded to include other pertinent agencies 
such as the EPA and FDA.
    New knowledge and technologies are needed to detect and mitigate 
microbial pathogens. These methods must be quick and accurate so that 
information can be communicated to resource managers and the coastal 
community in a timely manner. As they are developed, technologies need 
to be integrated into biological and biochemical sensors that can 
continuously monitor high-risk sites. It is important that site-
specific sensor data and satellite sensor data be incorporated into the 
IOOS. To accomplish this task, the National Oceanic and Atmospheric 
Administration, National Science Foundation, National Institute of 
Environmental Health Sciences, and other appropriate entities should 
support the development and implementation of improved methods for 
monitoring and identifying pathogens and chemical toxins in ocean 
waters and organisms.

Offshore Energy and Mineral Resources
    Oil and gas development on the Outer Continental Shelf (OCS) 
provides over a quarter of our domestic oil and gas reserves, and 
contributes thousands of jobs and billions of dollars to our economy. 
In addition to its responsibilities for living marine resources, the 
Federal Government also exercises jurisdiction over nonliving 
resources, energy and other minerals located in the waters and seabed 
of the more than 1.7 billion acres of OCS. Offshore oil and gas 
development has the most mature and broadest management structure of 
all such resources. Although controversial in many areas, the process 
for oil and gas leasing and production is well institutionalized, 
reasonably comprehensive, and could be a model for new ocean-based 
renewable energy projects as part of a coordinated offshore management 
regime.
    MMS's Environmental Studies Program (ESP) is a major source of 
information about the impacts of OCS oil and gas activities on the 
human, marine, and coastal environments. Since 1986, annual funding for 
the program has decreased, in real dollars, from a high of $56 million 
to approximately $18 million in 2003. The erosion in ESP funding has 
occurred at a time when more and better information, not less, is 
needed. There continues to be a need to better understand the 
cumulative and long-term impacts of OCS oil and gas development, 
especially in the area of low levels of persistent organic and 
inorganic chemicals, and their cumulative or synergistic effects.
    The U.S. Department of the Interior should reverse recent budgetary 
trends and increase funding for the Minerals Management Service's 
Environmental Studies Program. The development of technologies and 
exploratory activities moving into very deep waters requires an 
increase in the MMS environmental studies program to keep track of new 
and emerging environmental issues. In addition to this program, the 
development of the IOOS could provide better information that can 
improve management of offshore resources. Industry and Federal agency 
partnerships should allow use of industry facilities to be incorporated 
into the IOOS.
    To make certain that the Federal-State partnership is strengthened 
and that critical marine ecosystems are protected, more investment of 
the resource rents generated from OCS energy leasing and production 
into the sustainability of ocean and coastal resources is necessary. 
Specifically, some portion of the revenues received by the Federal 
Government annually for the leasing and extraction of nonrenewable 
offshore resources need to be allocated to all coastal states for 
programs and efforts to enhance the conservation and sustainable 
development of renewable ocean and coastal resources. Congress should 
ensure that revenues received from leasing and extraction of oil and 
gas and other new offshore uses are used to promote sustainable 
development of renewable ocean and coastal resources through creation 
of a grant program to all coastal states, with a larger share going to 
OCS producing States.
    Conventional oil and gas are not the only fossil-based fuel sources 
located beneath ocean floors. Methane hydrates are solid, ice-like 
structures composed of water and natural gas. They occur naturally in 
areas of the world where methane and water can combine at appropriate 
conditions of temperature and pressure, such as in thick sediments of 
deep ocean basins, at water depths greater than 500 meters. The 
estimated amount of natural gas in the gas hydrate accumulations of the 
world greatly exceeds the volume of all known conventional gas 
resources. Conservative estimates reveal the quantity is enough to 
supply all of the nation's energy needs for more than 2,000 years at 
current rates of use. However, there is still no known practical and 
safe way to develop the gas and it is clear that much more information 
is needed to determine if methane hydrates can become a commercially 
viable and environmentally acceptable source of energy. The National 
Ocean Council (NOC), working with the U.S. Department of Energy and 
other appropriate entities, should determine whether methane hydrates 
can contribute significantly to meeting the nation's long-term energy 
needs. If such contribution looks promising, the NOC should determine 
how much the current investment in research and development efforts 
should be increased.
    There is continued interest in offshore renewable technologies as a 
means of reducing U.S. reliance on potentially unstable supplies of 
foreign oil, diversifying the nation's energy mix, and providing more 
environmentally benign sources of energy. As long as Federal agencies 
are forced to bootstrap their authorities to address these activities, 
the nation runs the risk of unresolved conflicts, unnecessary delays, 
and uncertain procedures. What is urgently needed is a comprehensive 
offshore management regime, developed by the National Ocean Council, 
which is designed to review all offshore uses in a greater planning 
context. A coherent and predictable federal management process for 
offshore renewable resources that is able to weigh the benefits to the 
nation's energy future against the potential adverse effects on other 
ocean users, marine life, and the ocean's natural processes, should be 
fully integrated into the broader management regime. Congress, with 
input from the National Ocean Council, should enact legislation 
providing for the comprehensive management of offshore renewable energy 
development as part of a coordinated offshore management regime. 
Specifically, this legislation should: streamline the process for 
licensing, leasing, and permitting renewable energy facilities in U.S. 
waters; subsume existing statutes, such as the Ocean Thermal Energy 
Conversion Act, and should be based on the premise that the oceans are 
a public resource; and, ensure that the public receives a fair return 
from the use of that resource and development rights are allocated 
through an open, transparent process that takes into account State, 
local, and public concerns.

            ADVANCING INTERNATIONAL OCEAN SCIENCE AND POLICY

    The United States has traditionally been a leader in international 
ocean policymaking and has participated in the development of many 
international agreements that govern the world's ocean areas and 
resources. That leadership must be maintained and reinvigorated. The 
international ocean challenges of the 21st century will require 
improved collaboration among domestic and international policymakers to 
establish ambitious objectives and take the actions necessary to 
achieve them.
    The United States can best advance its own ocean interests and 
positively contribute to the health of the world's oceans by first 
ensuring that U.S. domestic policies and actions embody exemplary 
standards of wise, sustainable ocean management. The new national ocean 
policy framework will be instrumental in setting this positive tone for 
the international ocean community. The Commission also recommends 
several specific actions to maintain and reinvigorate the leadership of 
United States in global ocean issues:

U.S. Accession to the United Nations Convention on the Law of the Sea
    The United States should accede to the United Nations Convention on 
the Law of the Sea--the preeminent legal framework for addressing 
international ocean issues. Until that step is taken, the nation will 
not be able to fully participate in bodies established under the 
Convention that make decisions on issues of importance to all coastal 
and seafaring nations, or to assume its important leadership role and 
protect United States interests as the law of the sea evolves.

Enhanced Coordination Among U.S. Ocean-Related Federal Agencies
    Within the U.S. Government, the U.S. Department of State is the 
lead agency for most ocean-related international negotiations. However, 
the role of more specialized agencies is extremely important due to the 
science and resource focus of many multilateral ocean issues. 
Consistent involvement of a wide range of experts is essential both to 
establish international standards that reflect U.S. interests, and to 
ensure that subsequent actions by the United States and others are in 
accordance with those standards.
    A new mechanism is needed to provide the optimum degree of 
coordination among U.S. agencies sharing responsibility and knowledge 
of international ocean issues. An interagency committee should be 
established under the auspices of the National Ocean Council to enhance 
coordination and collaboration among U.S. Government agencies, 
strengthening U.S performance at international negotiations and 
improving implementation of international ocean policy.
    Successful national and international ocean policy depends on sound 
scientific information. It is essential, therefore, to ensure that U.S. 
policymakers benefit from timely advice and guidance from the U.S. 
marine scientific community. This, in turn, requires procedures that 
both give scientists the opportunity to provide input and policy makers 
the chance to carefully consider their recommendations. The State 
Department should increase its internal training and scientific support 
to ensure better integration of ocean-related scientific expertise in 
policy and program development and implementation. In addition, the 
Department should develop more effective mechanisms to facilitate input 
from other government agencies and the broader scientific community.

Building International Capacity in Ocean Science and Management
    Implementation of international ocean policy and improved 
management of ocean and coastal resources worldwide are affected by the 
adequacy of the science and management capacity of every coastal 
nation. To maintain progress on a global scale, the United States and 
other capable nations must assist coastal nations of more limited 
means. To be most effective, assistance should be science-based and 
developed within the context of an ecosystem-based approach. The U.S. 
Department of State should offer strong support for U.S. scientists 
conducting research programs around the world. Existing international 
partnerships should be strengthened and new partnerships promoted to 
facilitate the conduct of international research.
    Capacity-building efforts should be concentrated on issues that 
have been identified as particularly critical for the health of an 
ecosystem or marine species, and have the greatest potential for 
positive impacts. In most instances, effective capacity-building will 
require long-term efforts to change detrimental practices and build 
support for new, sustainable management approaches. These efforts will 
require a funding commitment sufficient to make the changes needed to 
preserve or rebuild healthy ecosystems. As part of its international 
leadership role, the United States should increase its efforts to 
enhance long-term ocean science and management capacity in other 
nations through funding, education and training, technical assistance, 
and sharing best practices, management techniques, and lessons learned.

                IMPLEMENTING A NEW NATIONAL OCEAN POLICY

    To implement the blueprint for a new national ocean policy outlined 
in our report, several key elements are required: the will to move 
forward, the actors to carry out the changes, and the resources to 
support sustainable management of our oceans and coasts. Congress and 
the President have already demonstrated political will by enacting the 
Oceans Act of 2000 and appointing the U.S. Commission on Ocean Policy. 
Our preliminary report specifies who should carry out each 
recommendation and discusses what the costs will be and how they can be 
covered.

Who Should Take Action
    In our report, we make 198 specific recommendations to implement a 
more coordinated and comprehensive national ocean policy. One of our 
goals was to ensure that every recommendation was aimed at a clear 
responsible party who could take action and be held accountable over 
time. As you read the report, you will see the recommendations grouped 
according to subject area. However, to highlight the assignment of 
responsibility, we also present a summary of all 198 recommendations, 
organized by the primary actors, in Chapter 31.
    In brief:
  --We include 54 recommendations for Congress, 69 for Executive Branch 
        leaders, and 125 for Federal Government agencies.
  --Of the 69 recommendations for Executive Branch leaders, 8 
        recommendations are for the President, 45 for the new National 
        Ocean Council, 13 for the offices under the NOC's Committee on 
        Ocean Science, Education, Technology, and Operations, 2 for the 
        Assistant to the President, and 1 for the Presidential Council 
        of Advisors on Ocean Policy.
  --Of the 125 recommendations aimed at Federal Government agencies, 44 
        are for NOAA, 20 for EPA, 10 for the U.S. Coast Guard, 9 for 
        NSF, 9 for the Department of the Interior, 8 for the U.S. Navy, 
        8 for the Department of State, 6 for the Department of 
        Transportation, 5 for NASA, 3 for the National Institute of 
        Environmental Health Sciences, 2 for the U.S. Army Corps of 
        Engineers, 2 for the Department of Agriculture, and 1 for the 
        Department of Labor.
    (Note that some recommendations include more than one actor. As a 
result, the breakdown by organization adds up to more than 198.)
    Although we have avoided targeting States (and local, territorial, 
and tribal governments) as the primary actors in our recommendations, 
they have a critically important role to play in the new National Ocean 
Policy Framework--through establishment of regional ocean councils, and 
in areas such as coastal development, water quality, education, natural 
hazards planning, fishery management, habitat conservation, and much 
more. States should also participate in the design and implementation 
of regional ocean observing systems and their integration into the 
national IOOS, as well as other research and monitoring activities.

How Can the Needed Changes be Achieved: Costs and Revenues
    The recommendations I've just alluded to outline a series of 
ambitious proposals for improving the use and protection of the 
nation's oceans and coasts. But meaningful change requires meaningful 
investments. In the case of the ocean, such investments are easy to 
justify.
    As I explained earlier and as we discuss in more detail in the 
preliminary report, more than $1 trillion, or one-tenth of the nation's 
annual gross domestic product, is generated each year within 
communities immediately adjacent to the coast. By including the 
economic contribution from all coastal watershed counties, that number 
jumps to around $5 trillion, or fully one-half of our nation's economy. 
Those contributions are threatened by continued degradation of ocean 
and coastal environments and resources.
    Modest levels of new funding will reap substantial dividends by 
supporting new management strategies to sustain our ocean and coastal 
resources and maximize their long-term value.

            Costs
    From the start, this Commission pledged to be clear about the costs 
of its recommendations. In keeping with that goal, the final report 
will include a complete accounting of the startup, short-term, and 
continuing costs associated with each issue area, including an analysis 
of Federal, State, and local budget implications to the extent 
possible.
    At this stage, I am able to provide a rough estimate of overall new 
Federal spending associated with the Commission's preliminary 
recommendations. The Commission continues to refine its calculations 
and the information on which they are based, and will have more 
detailed costs and revenue estimates in the final report to the 
Congress and the President.
    The total estimated additional cost for initiatives outlined in our 
report will be approximately: $1.2 billion in the first year, $2.4 
billion in the second year, and $3.2 billion per year in ongoing costs 
thereafter.
    A few special investments are worth highlighting:
  --Creation of the National Ocean Council and related elements, with 
        first-year costs of $1 million and ongoing annual costs of $2 
        million.
  --Expansion of ocean education programs, with first-year costs of $7 
        million, second year costs of $251 million, and ongoing annual 
        costs of $246 million.
  --Establishment of an integrated ocean observing system, with first-
        year costs of $290 million, second-year costs of $312 million, 
        and ongoing annual costs of $652 million.
  --Increased ocean science and exploration, with first-year costs of 
        $230 million, second-year costs of $395 million, and ongoing 
        annual costs of $760 million.
  --Dedicated Federal support for needed State actions, with first-year 
        costs of $500 million, second-year costs of $750 million, and 
        ongoing annual costs of $1 billion.
    In view of the value generated by the ocean and coastal economy, we 
believe these are very reasonable investments.
Revenue: Creation of an Ocean Policy Trust Fund
    Mindful of intense budgetary pressures at both Federal and State 
levels--and sensitive to the hardship associated with unfunded Federal 
mandates--the Commission set out to identify appropriate sources of 
revenue to cover the cost of its recommendations. A logical, 
responsible funding strategy is outlined in the preliminary report and 
will be developed further in the final report.
    The Commission proposes creation of an Ocean Policy Trust Fund 
composed of rents generated from permitted uses in Federal waters. The 
Fund would include Outer Continental Shelf oil and gas revenues that 
are not currently committed. It would support the additional 
responsibilities we suggest for Federal agencies and prevent the 
creation of unfunded mandates to states.
    The critical nature of the nation's oceans assets and the 
challenges faced in managing them make it clear that the time has come 
to establish an Ocean Policy Trust Fund in the U.S. Treasury to assist 
Federal agencies and State governments in carrying out the 
comprehensive ocean policy recommended by this Commission.
    The Fund would include Federal revenues from Outer Continental 
Shelf oil and gas development that are not currently committed to other 
funds. The Land and Water Conservation Fund, the National Historic 
Preservation Fund, and the OCS oil and gas revenues given to coastal 
states from the three mile area seaward of their submerged lands would 
not be affected. After those programs were funded, in accordance with 
law, the remaining OCS monies would be deposited into the Ocean Policy 
Trust Fund.
    Additional funds may also become available based on new offshore 
activities. In several sections of the preliminary report we discuss 
revenues that may be generated from permitted uses of Federal waters. 
In general, when a resource is publicly-owned, its use by private 
profit-making entities should be contingent on a reasonable return to 
taxpayers. Creating a link between permitted activities in Federal 
waters and the cost of associated regulatory and management 
responsibilities is logical and well justified by precedents in Federal 
land management.
    Approximately $5 billion is generated annually from OCS oil and gas 
revenues. Protecting the three programs noted above would remove about 
$1 billion. Thus, some $4 billion would remain available for the Ocean 
Policy Trust Fund each year under current projections. At this time it 
is not possible to specify the amount of revenue that might be produced 
by emerging uses in Federal waters, nor predict when they may begin to 
flow.
    The report recommends that a portion of the revenues received from 
the use of offshore resources be granted to States for the conservation 
and sustainable development of renewable ocean and coastal resources. 
OCS oil and gas producing States should receive a larger portion of 
such revenues to address the impacts on their States from extraction 
activities in adjacent Federal offshore waters.
    In the Commission's view, Trust Fund monies should be used 
exclusively to support improved ocean and coastal management consistent 
with the nation's new coordinated and comprehensive national ocean 
policy. Such funds would be used to supplement--not replace--existing 
appropriations for ocean and coastal programs, and to fund new or 
expanded duties.

                           CLOSING STATEMENT

    What I have presented to you today is a broad overview of the 
Commission's preliminary report--the culmination of 2\1/2\ years of 
work by 16 dedicated commissioners, 26 world-class science advisors, 
and a tireless staff of experts. To create this report, the Commission 
heard testimony and collected other information that shaped our 
understanding of the most pressing issues facing our nation's oceans 
and coasts.
    The Commission balanced environmental, technical, economic, and 
scientific factors in making its recommendations. These bold 
recommendations for reform call for immediate implementation, while it 
is still possible to reverse distressing declines, seize exciting 
opportunities, and sustain the oceans and their valuable assets for 
future generations. Clearly, the Commission's recommendations will 
require some new investments. However, without major change, the 
tremendous potential of our oceans and coasts to American prosperity 
will continue to deteriorate.
    It has taken more than 35 years for the nation to refocus its 
attention on these vital resources. Our report provides a blueprint for 
the 21st century to achieve a future where our oceans and coasts are 
clean, safe, and sustainably managed and continue to contribute 
significantly to the well being of all the nation's citizens. The time 
to act is now and everyone who cares about the oceans and coasts must 
play a part. Leadership from this Committee and others in Congress, and 
from the White House, will be essential and we look forward to working 
closely with all of you in the months and years to come.

    Senator Gregg. Senator Stevens.
    Chairman Stevens. Mr. Chairman, I would be interested if 
other members of the panel would like to make comments before 
we begin asking questions.
    Mr. Sandifer, do you have any questions, any comments? Ed? 
Mr. Rosenberg?
    Admiral Watkins. We have another commissioner, Professor 
Marc Hershman, sitting right here in the corner.
    Marc, do you have anything?
    Chairman Stevens. Thank you very much.
    I am interested, to begin with, in the integrated ocean 
observing system. Is there a cost factor associated with that? 
Has that been costed out?
    Admiral Watkins. Yes, there is, Senator. In our report we 
list it as the first year, $290 million, second year, $310 
million, and a continuing cost over time of $652 million. And 
in our report we go further than that. We have a whole host of 
other things that are independent but somewhat related in ocean 
science and exploration, in support for the States. We have 
another category called all over recommendations, which 
includes the estimated cost of a whole host of small issues, 
such as organizational change costs, the cost of running a 
national ocean council, about $1 million a year, that kind of 
thing.
    But the answer to your question is costed out in our table 
30.1, estimated cost of recommendations, and the cost of the 
integrated ocean observing system is pretty well flushed out 
with all the Federal agencies through the National Ocean 
Partnership Program. We actually have an office called Ocean.US 
that is supposed to be managing the program, getting the 
architectural design, and so forth. They have not been given 
the support they need. This is one of the hopes we have and one 
of the recommendations in the report, that we establish that 
office officially, that it comes under the National Ocean 
Council's purview, and that we get on with building the system 
as a component of the Earth observing system endorsed at the G-
8 meeting in Tokyo and prior to that in France.
    Chairman Stevens. What is the IOC for that, Admiral?
    Admiral Watkins. Pardon me?
    Chairman Stevens. How long would it be before it was up and 
running?
    Admiral Watkins. Pieces of it are up and running now, as 
you know. We have a research set of buoys in the Pacific that 
tell us about the advances of El Nino, so they will be part of 
it. But I would say it is probably going to take 5 to 10 years 
to get this thing going, but it ought to be on a track that you 
all can watch up here and not just sit giving money to the 
researchers. We are not asking for that. We are saying no, we 
want to get applied research, we want to get funding for the 
system to actually field this. A lot of this can be fielded now 
if we put the resources behind it, and we know how to do that 
internationally. We know how to connect with the international 
community that also wants the United States to take a 
leadership role in this area.
    So I think that we are ready to move. We know what the 
research ought to be. We know what the applied research ought 
to be, we know what instruments we ought to have today, and we 
know that we do not have adequate instruments in the whole area 
of living marine resources, for example, biological 
instruments. They are being developed by our researchers as 
best they can but those things need funding and need focus and 
each region should make demands on us to say here is what we 
need for products coming out of your database. We need these 
products in the Southeast, these in Alaska, these in the 
Northeast, these in the Great Lakes region. They are different, 
yet we can help coordinate all that and provide it.
    So I would say if you had one recommendation that could 
pull all these communities together, it is probably going to be 
integrated ocean observing systems. That includes a major and 
very underfunded coastal ocean observing system. Currently, our 
biggest observations are in the middle of the oceans, not 
ashore, and the nearshore area is the most complicated to 
observe and monitor.
    Chairman Stevens. Well, years ago we financed dropping some 
similar sensors that were floating. They just floated with the 
currents. This recommendation includes ships, airplanes, 
satellites, buoys, and drifters that are used for mounting or 
deploying instruments, sensors, or other components.
    The architecture of that, we need to get some details about 
ships. Are we to borrow ships from the Navy? Are we supposed to 
put these on Navy ships or on Coast Guard ships? Has someone 
got a layout of that, what it will take to really say it is up 
and running?
    Admiral Watkins. There is a whole different set of issues 
connected with funding the marine facilities. Oceans Act 2000 
asked us to do a marine facility review, both public and 
private. It is an appendix to our report that is about 1\1/2\ 
inches thick. It is huge and it says these resources are 
getting old, they are inadequate to the task. We need to put 
some infrastructure monies back into these and get these things 
going. Okay, so we have that.
    We have the UNOLS fleet, the University Ocean Laboratory 
fleet. It is getting old. It is going to have to be replaced, 
or pieces of it have to be replaced. We are looking at modern 
technology and development of new technologies in the future 
that may minimize the number of ships we have to put out there, 
but we have to put ships out there.
    In fact, one of the expenditures we are asking for in the 
research area is a $70 million research vessel and submersible 
dedicated to ocean exploration. So in the ocean exploration 
initiative up here in the Senate we are saying we need that as 
part of this whole program.
    We have $445 million over 20 years for the academic fleet, 
the Federal ocean facilities program.
    These costs are different from those associated with 
implementation of an integrated ocean observing system. That is 
why you add up to $1.27 billion in the first year, and these 
are funds that can be sent now. There are plans available but 
there is no money to support the modernization of the research 
vessels that are essential over the next, say, 20 years.
    Chairman Stevens. I have just been told I have not been 
speaking loud enough. You know, that is not a normal comment 
for me.
    Admiral, this IOOS, you gave us the money for it. Is there 
any item in your report that would have priority over that from 
the point of view of funding?
    Admiral Watkins. Well, you are asking somebody, Chairman 
Stevens, that believes that it is going to be very difficult 
for us to say that is more important than some of the things 
that we are recommending to keep from eliminating certain fish 
stocks, for example. I cannot put a priority on it that says 
that is so important that you can give up all of these other 
areas. That is my problem.
    We are going to do the best we can in the final report and 
we have made a note in this section, the funding section of 
chapter 30, that we have to do a better job of laying out some 
of these issues in a way that perhaps is in more detail than we 
have in here today. Some of these costs are solid, they are 
hard; some are soft. We are going to try to harden those up and 
to try to give you more of a sense of priorities, but I am just 
worried that the IOOS alone is not going to solve all the 
problems.
    It is terrifically important, it is absolutely essential to 
the game, but so are a lot of other things that we are 
mentioning in here in the interim before we can build that 
system over the next 5 years. There are things we can do out 
there today over the next couple of years and they should be 
funded, too.
    So I cannot give you a much better answer. I know that is 
not as clean as you would like to hear it, but I cannot do much 
better than that.
    Chairman Stevens. I will just tell you our problem. We 
already have a budget, not only the President's budget but we 
almost have the congressional budget, and there is no money in 
there for any of this. So we are going to have to see if we can 
find any money this year to try to get started. Now this is 
money for 2005, so if you want money for 2005 we have to find 
some and we have to find some in an amount that is doable 
within this subcommittee that my friends here are the cardinals 
of. I am not the pope but they are cardinals.
    We must find some portion of this this year. We cannot run 
over $1 billion on this in 2005. I am sure you understand that.
    Admiral Watkins. I understand that.
    Chairman Stevens. So what we need to do is have some 
priorities. What could we do now to start certain portions of 
this budget off for this proposal by saying if we had this 
money, this money and this money in 2005, we could be on our 
way toward implementation of this report?
    Admiral Watkins. Well, of course, we have recommended a 
National Ocean Council. If the Congress believes that that is 
important--and we do--and establishes that council, you could 
say all right, we only have, against your total needs of $1.27 
billion, we can give you $400 million in 2005 but you cannot 
spend any of those dollars until you come back to us with a 
priority plan to integrate all these things and do the best you 
can with these recommendations and then tell us what you are 
going to do to start submitting these things in 2006 and out-
years so that we have some feeling that you are committed to 
this.
    And if the administration is committed to it, at least they 
can take those and come back to you with a plan, and then you 
authorize them to go ahead with outlay toward that plan.
    So I think there are ways to get around it if you can find 
any dough at all, and I understand that. This morning we were 
kind of chastised, saying, ``You are not going to get the 
money.'' It is not us. I am not getting anything out of this. I 
love the subject. It is the American people who are not going 
to get it. That is the tragedy.
    I am just saying as much as you can squeeze out of the 
system and demand that the administration come back with their 
plan, their integrated plan to carry out the priorities here. 
That is for the National Ocean Council to determine what those 
priorities are, along with consultation with the Congress.
    Chairman Stevens. I like that approach. Thank you very 
much, Mr. Chairman.
    Senator Gregg. I also like that approach and think it is 
doable.
    In your opinion, how much of what you are talking about is 
going to require authorization language? That would have to be 
in place before we could appropriate for it.
    Admiral Watkins. Let me ask the Executive Director to pick 
that up.
    Mr. Kitsos. Well, we think that the establishment of the 
National Ocean Council would require codification at some 
point. Our report does note that the President could probably 
establish this by Executive order, but we suggest that if, in 
fact, he does that quickly, Congress could come along shortly 
after that and codify it. That would require authorization and 
also the trust fund that we spoke about would require 
legislative action by Congress.
    Senator Gregg. Well, the trust fund has some problematic 
points to it which are obvious, which is that it is deemed 
general fund revenue, so you are not enlarging the pie. You are 
simply grabbing a part of the pie that is going somewhere else 
and saying it belongs with the oceans, and that is always a 
difficult exercise because whoever you took it from is going to 
say no, it does not. We all recognize that, I think.
    You did mention, Admiral, and your report mentions you are 
basically, for lack of a better characterization, suggesting 
that we set up something to deal with wind farms and fish 
farms. Some might call zoning for the ocean. Is that right?
    Admiral Watkins. No, it is not. We are not zoning 
enthusiasts. Let me ask--who would like to take that--Dr. 
Rosenberg.
    Mr. Rosenberg. Senator, I think the idea is not that you 
decide in advance what areas you allow particular activities in 
but right now we have no structure by which you can determine 
that, for example, an exclusive use of a piece of the ocean can 
be allowed for a particular activity, except for offshore oil 
and gas. So if you wanted to establish an offshore aquaculture 
facility in Federal waters right now, what is the mechanism by 
which you would actually lease to some business or entity that 
area because it would preclude other uses, such as commercial 
fishing, in that particular geographic location. Certainly they 
would need some protections.
    You also have a rather incomplete and not very clear 
structure for making the determination on whether it is 
appropriate to actually license a particular proposal. Of 
course you have National Environmental Policy Act kinds of 
considerations but the principal authorities are discharge 
permits from the Environmental Protection Agency and the Rivers 
and Harbors Act. In other words, do not put it in a place where 
you are going to run a boat into it. And, of course, there are 
other considerations, whether it be a wind farm or 
bioprospecting site or aquaculture facility.
    So what we are suggesting is that we establish a clear set 
of policies by which those activities can move forward that 
also provides the opportunity for somebody who wants to propose 
such an activity to have both a point of contact and a clear 
process so that they could say okay, this is what I need to do 
if I want to establish my aquaculture facility or wind farm or 
whatever. Right now there is no regulatory or policy structure 
to do that in any clear fashion.
    So we are not suggesting anything related to zoning. We are 
suggesting that there be a management system that allows these 
things to be considered in an appropriate fashion and be 
established, of course, if they meet those criteria, and I do 
not think that exists----
    Senator Gregg. If you want to put a fish farm off of New 
Hampshire, which I think has already occurred, there is no 
permitting process?
    Mr. Rosenberg. There is but, of course, the offshore 
aquaculture research farm that you are very familiar with at 
the University of New Hampshire is in State waters, not in 
Federal waters. And second, the permitting process for 
commercial facilities would relate to again the Rivers and 
Harbors Act and a discharge permit, with commenting authority 
from the resource agencies--National Marine Fisheries Service 
and potentially the Fish and Wildlife Service--who could say 
well, we have these concerns. Then locally you would go for a 
permit and statewide you would go for a permit.
    There can be in some cases for aquaculture facilities 25 
different places you need to get a permit from before you can 
establish the facility. There is no comprehensive structure on 
aquaculture.
    The same thing is true for bioprospecting. If some company 
wants to be able to investigate the biological resources that 
they might develop, for example, pharmaceuticals from in an 
exclusive piece of the ocean bottom, they have no way by which 
they can say all right, we are going to have the rights to look 
in this area for a period of time and we agree to do the 
following things when we do that. There is no management 
structure.
    Senator Gregg. Do you see this as preempting State law, 
then?
    Mr. Rosenberg. No, certainly not, because we are talking 
about Federal waters now. We hope that it would help the States 
by providing a point of contact, but the States have authority 
certainly within 3 miles.
    Senator Gregg. We now have a vote and we are 5 minutes into 
the vote. We can either recess and come back or if somebody 
wants to ask questions? Senator Burns is next.
    Senator Burns. I just want to make a comment as far as 
appropriators and where we find this money. Right now we are 
recommending the expenditure of quite a lot of revenue but not 
finding any more revenue coming into the Treasury with which to 
pay for that. And I guess that is where I will be coming from, 
how we look at that and how we fund this thing and your 
recommendations here, how they mesh with what else we have to 
do with that particular fund, like the offshore funds that come 
in, the OCS funds. I will be looking at that more than anything 
else. That falls under my purview. So we will probably have 
quite a lot of discussions with regard to that.
    But your report, this is as aggressive a report and idea as 
we have seen since I have been in the Congress with regard to 
policy toward our oceans and I thank you for that because I 
think we have to go one step beyond before we get anybody's 
attention, before we really start moving on some of the 
problems that we see with our oceans. So I thank you for your 
work.
    Admiral Watkins. Thank you, Senator Burns.
    Senator Leahy. Mr. Chairman?
    Chairman Stevens. I got your message.
    Senator Leahy. I am just glad to see here that you are 
going to be the pope. I sent to Senator Stevens a note that my 
mother always wished I might make it as far as bishop. Bless 
her sweet immigrant soul, I never got quite as high as Senator 
Stevens. But I want to thank him for holding the hearing. I 
want to congratulate Senator Hollings for his vision, helping 
to launch the Ocean Commission and the development of this 
important report.
    Admiral Watkins, it is nice to see you. It has been a 
couple of years. It is good to have you and all your colleagues 
here.
    I am going to miss Senator Hollings' championship of the 
oceans and sponsoring and supporting programs that protect this 
valuable resource. What he has done for our ecosystem is 
amazing.
    I also want to acknowledge the Ocean Commission for a very 
thorough, very thoughtful report. I hope it gets a lot of 
coverage. Take that report and the Pew Ocean Report and they 
are the first real comprehensive reviews of ocean policies in 
35 years, before I even came to the Senate. The recommendations 
in the two reports are somewhat different but they both do one 
thing; they ring the alarm bells very, very clearly. They 
highlight some of the changes I have been witnessing over the 
years, not from a scientific point of view but just as an 
individual.
    I started exploring coral reefs and other ocean ecosystems 
over 30 years ago. I am an avid diver and beginning about 10 or 
15 years ago I began to notice that some of these same reefs 
that we used to snorkel on were gone. They were gone and the 
fish around them were gone. The ecosystem had been destroyed. 
Because of these changes, over the years I dove more with the 
idea of seeing what the changes are, again not as a scientist 
but just as an individual. Except in rare instances, the 
changes have not been for the better.
    So I am glad we are having this hearing on the anniversary 
of Earth Day. Although Congress enacted the pivotal 
environmental protection acts of our Nation so that we have 
clean air, safe drinking water, and cleaner rivers and streams, 
the report shows our oceans and coastal resources have fallen 
between the gaps in our environmental and natural resource 
policy webs. I think our ocean policies have not kept pace with 
the demands we have put on this.
    Admiral, you and the others know the oceans look very, very 
big and look inexhaustible. You also know they are not. We 
cannot treat the oceans as bottomless pits and harvest their 
fisheries at will or pollute them or plunder them or grab what 
we want for this year's harvest, irrespective of next year's 
harvest and the year after and the year after that.
    Just like we needed in the environmental acts of the early 
1970s to reverse the course of the polluting of our lakes, 
rivers, and air, we have to do something similar for our 
oceans--create policies geared toward restoration and 
sustainable things.
    I am not saying anything to you that you do not know but I 
think about the coral reefs I saw 30 years ago versus what I 
see now. I think what my children might see or my three, or 
soon to be three grandchildren might see. I am afraid they are 
not going to see the things that we saw and maybe their 
children never will. It is really our responsibility to make 
sure something is done to protect the oceans.
    I will submit, because of the vote, Mr. Chairman, some 
questions for the record. I know we need money, we need vision. 
These people have given us some vision and it is up to us to 
get the money and I think on this topic maybe the cardinals in 
this committee might find some of that money.
    Admiral Watkins. Mr. Chairman, Ed Rasmuson has a comment.
    Mr. Rasmuson. Senator Leahy, I thank you for those 
comments. Briefly, 3\1/2\ years ago this Commission was 
constituted. We spent a lot of hard work on it. We have come up 
with what we think are concrete recommendations.
    You knew when you put this Commission together it was going 
to cost us money and I submit that we cannot afford not to 
start. We have done the best we can with first, second and 
third years of costs and the worst thing that I would fear is 
if this thing that we have worked on is shelved and nothing was 
done and what have I wasted all my time for?
    None of us here, all 16 of us worked hard, plus the staff, 
and we are submitting to you that we would like to get some 
money in the 2005 appropriation and then be allowed to flesh 
out, as the Admiral said, the real priorities for the second 
and third year. And I submit in these priorities that our 
cornerstone of what we have come up with is the necessary 
dollars for research and education. Without that, nothing is 
going to happen. Thank you.
    Senator Leahy. Well, this Senator is not going to put the 
report on the shelf, I can assure you, and I expect to be on 
this committee for years to come. Thank you.
    Chairman Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Admiral Watkins, thank you. We appreciate the fine work 
that you and the members of this Commission have done. It is 
very impressive. This is an overview of 2\1/2\ years' work that 
we are getting today and I am glad that we have an opportunity 
to see what some of your recommendations are.
    Just a few weeks ago I had the pleasure of visiting the 
National Data Buoy Center at Stennis Space Center on the 
Mississippi gulf coast and I was impressed with the worldwide 
reach and effect that that center has and the responsibilities 
that it has. I am curious to know whether you make any 
recommendations about the continuation of the work of the 
National Data Buoy Center or some new incarnation of that 
center. Is there a specific proposal that you have come up with 
at this point to make with respect to the center?
    Admiral Watkins. God bless you, Senator Cochran. I am the 
one that started out 2\1/2\ years ago saying data collection, 
data assimilation, conversion of that data to useful products 
for the good of the country is one of our highest priorities. 
If we do not do that, I do not see how we are going to 
understand things like climate change, nonpoint source 
pollution, the decay of our reefs, the loss of the fisheries. 
We are not going to do it unless we bring all of these 
databases together. And where best to do it than at Stennis. 
They have the Center for Excellence for the Department of 
Defense. They know how to take disparate databases and bring 
them together. They know how to produce products out of those 
data that does not boggle the mind.
    We are not talking about scientific information coming out 
of there, except for the researchers. We are talking about 
conversion of those data to useful decisionmaking products. 
That is in our recommendations.
    So when we went down to Stennis we were impressed by the 
defense capability, and they are probably the only one in the 
Nation that can do the kinds of things we are talking about 
here, to assimilate large volumes of data, the NOAA database, 
the Navy database, the local database, the fisherman database, 
and databases on socioeconomic aspects. We cannot forget that 
human beings are out there and we do not want to destroy 
communities. We want to understand who they are, where they 
are, what their needs are and at least listen to them, and we 
are not doing that today.
    So the data assimilation and use is vital to this and it is 
one of our strong recommendations, that the National Ocean 
Council make sure that that is set up, that it is funded, and 
that people can begin to play in that game. And that gets back 
to the locals, the counties and the States. They need to have 
access to that information, converted to useful products, and 
they need to make a contribution to it, and we have called that 
the regional ocean information program. We want the regions to 
set up those programs because they know they need the 
information the programs would produce.
    And I do not see any outfit in the country that can do what 
you can do in the Defense Department at Stennis for this 
purpose, with a lot of consultation with people like the Navy, 
who are ready to do this kind of work for us.
    Senator Cochran. Thank you very much. I hate to have to go 
vote but I have to do it.
    Do you want me to vote for you?
    Chairman Stevens. Yes. Someone did vote for me once. They 
are going to hold the vote until we get there and when Senator 
Gregg comes back we will leave, and I think we will wind up the 
hearing when he comes back, very frankly. I do appreciate your 
help.
    I did introduce a bill that deals with national ocean 
exploration and I do hope that we can get it considered each 
year. I do not know if you are familiar with it. It tracks 
considerably what you have recommended. But I still am very 
worried about the funding stream that we need for this. There 
is no question that the funding stream is there. Two-thirds of 
the Outer Continental Shelf off Alaska and not one well drilled 
in it yet. We ought to find some way to find new revenue 
streams to meet this need and I would hope that you would work 
with us, the people you talk to.
    We only need two votes to pass the energy program and there 
is such a fund already in the energy bill. We really need money 
to meet your needs.
    I want to close my part of this by thanking each of you for 
your work. Senator Hollings and I have dreamed of getting such 
a commission going and you have fulfilled our dreams because 
you have worked hard and produced something I think is salable 
and financable and practical and attainable if we only can get 
the revenue streams established that will sustain it.
    So I do believe you have done a great service for the 
country and I hope to work with you in years to come and see 
that your report is fulfilled.
    Admiral Watkins. Thank you very much, Mr. Chairman.
    Chairman Stevens. I think we will have to stand in recess 
now and wait for Senator Gregg's return.
    Do you have a timeframe, Admiral?
    Admiral Watkins. Yes, sir, we do.
    Chairman Stevens. It has passed already?
    Admiral Watkins. No, no, no. We are ready to do work. This 
is pretty important to us.
    Chairman Stevens. I cannot say that Senator Gregg does not 
have any more questions but I do not have any more, obviously, 
but I do appreciate what you have done. Thank you.
    Admiral Watkins. Thank you.
    Senator Gregg. Okay, I appreciate everybody's patience. 
This happens when we have votes, which is part of our job.
    I understand that Senator Stevens, Senator Cochran, Senator 
Burns and Senator Leahy all had an opportunity to at least 
briefly inquire and I certainly appreciate your willingness to 
go through two hearings today, the Commerce Committee and the 
Appropriations Committee.
    I did have a couple of other quick questions I wanted to 
get addressed. One is the division in the fisheries area 
between research and managing the fisheries. That seems to be 
an artificial division you are proposing because there is a 
fair amount of overlap of those two exercises, is there not?
    Admiral Watkins. Dr. Sandifer.
    Mr. Sandifer. Thank you, Mr. Chairman. Within the fisheries 
management side we are suggesting that the science part of the 
management decision be separated from the allocation decision 
so as to ensure that the allocation decision is based on the 
best science and there is no potential for any conflicts of 
interest.
    Within the agency as a whole, we also make some 
recommendations that NOAA has three principal missions. One of 
those missions is the assessment, prediction and operation, 
including things like the Weather Service, would include the 
integrated ocean observing system, charting, and all of those 
kinds of things. Then there is resource management that is far 
more than just fisheries but also includes coastal zone 
management, protected area management, like the sanctuaries and 
estuarine research reserves. And the third area obviously is 
the science, research and education function that could be 
organized probably in a way that would better support the 
overall mission of the agency.
    It is much broader than fisheries because we are 
recommending throughout this report that we take an ecosystem 
approach to all resource management related to the oceans, not 
just for fisheries. And the science structure then should be 
organized to better reflect that ecosystem basis, we believe.
    Senator Gregg. Okay. Well, how much pressure do you think 
the fisheries are under and to what extent are we funding the 
correct areas? We spend a lot of money on fisheries. Did you 
take a look at whether the money we are spending is addressing 
the fisheries that are in need or is it more arbitrary?
    Admiral Watkins. Dr. Rosenberg will take that.
    Mr. Rosenberg. Senator, I think that yes, we do spend a lot 
of money on fisheries but there are some major both research 
and science advice questions, as well as management problems 
within fisheries. By and large, I do think that we spend the 
money well, if you like, although we certainly struggle 
particularly with things such as social and economic data in 
the fisheries area, and fisheries information systems I would 
have to say on the research side.
    On the management side, the council system struggles with 
their funding needs. They have a very large mandate in terms of 
developing fishery management plans and frankly do it with not 
very much money. I do not know the total budget for fisheries 
management councils but I am going to guess the last I knew it 
was about $13 million or something like that. And, at the same 
time, they are being asked and the Fisheries Service is being 
asked to be more comprehensive in their analysis of impacts, 
both on communities as well as on biological resources.
    So part of the push here for additional funding for 
research and for integration of management within our proposals 
do, I think, help that fisheries picture, particularly on the 
social and economic side.
    To add a little bit to what Paul said on the separation 
between the science and allocation, we are suggesting that 
within the council process--it is a somewhat different matter 
within the agency per se because, of course, it is the councils 
that recommend allocation decisions, not the agency. And we 
talked with the council chairs yesterday, the Fishery 
Management Council chairs yesterday in a briefing and I think 
came to a fairly clear understanding of what the recommendation 
was. It is really furthering what they are trying to do in 
terms of regularizing peer review processes for developing the 
science within the system. So that part of it, I think, is 
fairly clear.
    Mr. Rasmuson. Senator Gregg, one of the things, as Andy 
pointed out, the councils themselves--there are eight 
councils--have about a $13.5 or $14 million budget but what 
they really need is more dollars going into research and 
science and this would help all the councils, as well as NMFS, 
so that we have better science in order to make our decisions 
and, as a result, we will have, I think, less environmental 
suits brought on by various interest groups because we will all 
be able to share in the same science and we will have a better 
idea of what we are doing. That is one of the mandates you gave 
us 3\1/2\ years ago.
    Senator Gregg. I agree, so I am glad you addressed that.
    On a separate issue, I know you discussed this at 
considerable length this morning but just for the record, I am 
equally interested in whether NOAA should be an independent 
agency and whether it should be raised in its visibility.
    Certainly your suggestion, Admiral, that we are going to 
incrementally move into better ocean policy and as part of that 
incremental movement we will learn to walk before we run makes 
a lot of sense as a way to approach things, rather than just a 
massive reorganization. But I think the end product will be or 
should be considered to be a NOAA that has much more strength 
and stamina and probably is a free-standing vehicle, a free-
standing entity.
    Admiral Watkins. I think, Senator Gregg, we have debated 
this at great length and we have communicated back and forth 
with key membership on the Hill here about this. We believe 
that there is so much to be done here within the existing 
structure that if we move out too aggressively on 
organizational restructuring of the Federal Government, our 
energies are going to be so devoted to that that we are going 
to lose the forest for the trees.
    We have a lot of things to do here----
    Senator Gregg. I agree with that.
    Admiral Watkins [continuing]. Within the existing system, 
so we are saying let us strengthen NOAA, let us give it a new 
underpinning from the Congress, let us give NOAA new 
responsibilities, like being the lead agency for running the 
integrated ocean observing system. They are not ready to do 
that now in an ecosystem management context. Their fiefdoms are 
set up in ways that are isolated from each other and we need to 
break that and go back to a whole new way of doing things.
    We have recommended principles under which an organic act 
for NOAA would make a lot of sense. Once we do that, then we 
have a functional NOAA set up with an ecosystem-based approach 
and into that we can begin to take out those elements of 
redundancy that should be in NOAA that are now in Interior, in 
EPA, and so forth, and one section of the Corps of Engineers.
    Pretty soon now we have built a Department called NOAA that 
is operating under an ecosystem approach, that is bringing in 
the functions from other agencies that ought to be in the 
oceans and atmosphere department, and somebody is going to look 
around and if they are running an integrated ocean observing 
system, which by the way, includes inputs from upland watershed 
monitoring. We cannot predict climate unless we monitor the 
land side, as well. What have we done? That is a natural 
resource department.
    So 5 to 7 years from now if we do this and get serious 
about it, the Congress can stand up and say hey, we have done 
it and we have not lost any stitch in time here. We keep going 
with all of the programs we have and we can keep building on 
it.
    Also I think there is another thing that we have done in 
this report that I think will make a lot of sense right in the 
near term. NOAA's budget is reviewed under the General 
Government Directorate of OMB. We want the NOAA budget to be 
reviewed under the Natural Resources Directorate, which does 
the EPA and the Interior Department, and all of the other 
resource agencies. So that is where NOAA ought to be.
    Now pretty soon, with a budget examiner in natural 
resources and with a new NOAA under an organic act passed by 
the Congress, have you not built the equivalent of an 
independent agency without the unrest and upset that would 
otherwise be there if you tried to have some kind of a 
guillotine action, just as we were forced to do for Homeland 
Security? I think that this logical step approach, three-step 
approach, maybe it is too logical for this town but it is a 
right way to go, to step it up in a logical fashion so that we 
can do the other recommendations in here and carry them out in 
the near term.
    There is no reason why we cannot do that. We are not doing 
it today because we do not have the formal structure. We are 
still going after individual species. We are still going after 
individual items. Are we going to solve the reef problem with a 
task force on reefs. No, we are not. We are kidding ourselves. 
The Department of Energy was set up and was very controversial. 
What do you need an Energy Department for? But we did it. We 
did it because we were so scared because of the oil embargoes 
of the 1970s.
    We do not want to get into that game. We do not think it is 
productive. We are not against an independent NOAA. We are 
against moving so quickly and so fast that we do not know what 
we are doing and we are going to stumble on the way and who 
gets hurt? The fisheries, the estuarine areas, the productivity 
of the country, and so forth. So that is why we have taken this 
approach to it.
    Senator Gregg. Well, I think it is the right approach. I 
think the end product, I hope, will develop the way you see it. 
It is a logical and excellent road map for us to follow, and I 
will certainly do all I can to see that we do follow it.
    On the issue of how we fund this with the trust fund, that 
is a problem. I am thinking just prematurely that maybe it is a 
prospective event, versus looking backwards, and if you were to 
do this prospectively you would have much more chance of 
getting those funds allocated. It would build up fairly 
quickly, depending on what the sources were, rather than to try 
to grab money that is already being allocated places.

                            COMMITTEE RECESS

    But in any event, we very much appreciate your work. We 
know you put thousands of hours into this. Your staff did an 
excellent job. You folks did an excellent job. You have really 
given us, as I have said a number of times, a road map. It is 
our job to follow it. We look forward to trying to do that, 
working with you. Thank you very much.
    The hearing is recessed.
    [Whereupon, at 3:05 p.m., Thursday, April 22, the committee 
was recessed, to reconvene subject to the call of the Chair.]


             REPORT OF THE U.S. COMMISSION ON OCEAN POLICY

                              ----------                              


                       MONDAY, SEPTEMBER 27, 2004

                           U.S. Senate,    
    Subcommittee on Commerce, Justice, and 
                                     State,
               the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                        Durham, NH.
    The subcommittee met at 10 a.m., in the Courtyard Reading 
Room, Diamond Library, University of New Hampshire, Durham, New 
Hampshire, Hon. Judd Gregg (chairman) presiding.
    Present: Senator Gregg.

STATEMENT OF ANN WEAVER HART, PRESIDENT, UNIVERSITY OF 
            NEW HAMPSHIRE
    Ms. Hart. Welcome all of you, especially welcome Senator 
Gregg and our panelists, Dr. Ballard, Dr. Rosenberg and Dr. 
Sandifer, and members of our audience, to this very important 
U.S. Senate hearing on the U.S. Commission on Ocean Policy.
    The University of New Hampshire has played a significant 
and direct role in the Ocean Commission report with the 
involvement of our own Dr. Rosenberg and hosting earlier 
Commission field hearing.
    UNH is also nationally known for its exploration of the 
oceans, coastal areas, and ocean-based management, all areas of 
important inquiry in the report; And of course, through our 
strong partnership with NOAA.
    While this hearing will be conducted under the official 
rules of the U.S. Senate, it is also an educational event, 
especially for our students. And I want to take this 
opportunity to welcome all the UNH students who were able to 
come here this morning and thank you for participating in this 
very important process of making national policy.
    It addresses issues of importance to the future of our 
oceans and has a direct impact on our continuing involvement in 
the forefront of marine research and education.
    I am proud that the University of New Hampshire has been 
chosen to host this event. And I now turn to our very own 
Senator Judd Gregg to begin the official U.S. Senate hearing.
    Senator Gregg. Thank you. Thank you, President Hart. And 
thank you for making the university's facilities available to 
us today. And it is a great pleasure to be here at UNH, which 
has been such a leader in the area of marine biology and 
biology generally, atmospherics and marine, nationally and 
internationally, and is certainly the appropriate forum for us 
to hold this hearing.
    We are doing it a little different than the typical Senate 
hearing in that I have always found Senate hearings to be 
fairly stilted and I wanted to have more of a discussion, 
especially between the panelists, who are such experts on how 
we approach the implementation of the U.S. Commission on Ocean 
Policy report, which some of you have had the chance to study 
in classes.
    This is a fairly significant report and fairly long, also. 
And it is really a blueprint for how we propose to address what 
is one of the critical needs of the world, which is protecting 
and making sure that we continue to have a viable ocean policy 
protecting our oceans and the ecosystems which support them.
    My role in this is that as chairman of the Commerce, State, 
Justice Subcommittee, which is a subcommittee of the 
Appropriations Committee--some of you who are familiar with 
Washington know that there are two sides to the process of 
Washington Government. One is the authorizing side and one is 
the appropriating side. Those of us who are appropriators tend 
to think there is really only one side, the appropriating side. 
But as a practical matter, the Appropriations Committee mirrors 
the authorizing committees, but has the responsibility for 
allocating and distributing funds. And the committee that I 
chair has the responsibility over NOAA, which obviously has the 
prime responsibility for oceans policy and programs. And so we 
do have direct responsibility for implementing, to the extent 
there is a role for the Federal Government, which is fairly 
significant in the proposals in the Commission report.
    And the Commission report is actually an outgrowth of very 
much needed legislation which was introduced and championed by 
my ranking member, Senator Fritz Hollings from South Carolina. 
I participated with him, as did a number of other Senators, 
Senator Ted Stevens from Alaska being a major role player here. 
And that is why the Commission was set up and was asked to put 
this report forward, because there was a belief that we needed 
to focus on oceans and have a very independent and thoughtful 
group of people do that.
    That brings us to today, which is to review the report and 
get ideas from the members of the Commission as to how we can 
best implement elements of the report.
    The university's role in this is also obviously critical. 
Andy Rosenberg, of course, was a member of the Commission and 
played a major role in the Commission's findings. But more 
importantly than that, UNH has a unique niche as being one of 
the leading universities in the world in the area of marine 
biology, marine science; and therefore, has a very critical 
role in making sure that the interplay between the academic 
community and the people who have the hands-on responsibility, 
such as policymakers like myself, making sure that there is a 
tremendous flow back and forth of information and ideas. And so 
UNH's role in implementing the policies of the Commission's 
report is absolutely critical.
    The planet, of course, is covered 70 percent by oceans, as 
all of you know. And there was a fellow named Arthur C. Clarke, 
who said instead of being called planet Earth, it should be 
called ``planet ocean,'' which is a pretty accurate statement 
of the implications of oceans relative to our lifestyle here as 
a Nation.
    And this Commission has put forward 212 different 
recommendations as to how we can better address the issues of 
ocean policy. And we will discuss many of them here today, 
probably not all 212, but a few of them, anyway.
    My subcommittee, the Commerce, State, Justice, has taken a 
very serious look at the Commission's report so far. We still 
have a lot of work to do, but we have been able, as a result of 
taking that serious look, do some funding activity that has 
been creative and been able to put approximately $414 million 
into initiatives which this Commission has asked for. It is not 
as much as the Commission wanted, I have to be honest about 
that, but it is a significant step in the right direction and 
quite a bit more than the House was able to do; and hopefully 
in conference, we will end up at the same place.
    We are very fortunate today to have as part of our panel 
here three people who are true leaders in the area of ocean 
policy and were members of the U.S. Commission on Ocean Policy. 
And we are going to hear from all three. Let me start and work 
our way to the person we are going to hear from first.
    We begin with Dr. Paul Sandifer, who is a senior scientist 
at NOAA for the National Center for Coastal and Ocean Science. 
Now, Dr. Sandifer has a very long history here in New England 
of being involved in a lot of issues. He is based out of South 
Carolina right now, but he was very active during some of our 
fish issues here in New Hampshire and we worked together on 
those. And he has a tremendous history and expertise in the 
area of ocean policy. And we are very fortunate to have him 
here today as one of our expert witnesses.
    Of course, Andy Rosenberg needs no introduction here at 
UNH. He is a huge force, not only here at the university, but 
across the Nation, on ocean policy. And his leadership has been 
critical to getting good ideas put into the national agenda.
    And our first witness who is going to talk to us today and 
give us some thoughts is Dr. Ballard, of course, who is sort of 
the successor to Jacques Cousteau in his ability to communicate 
with the world the importance of the ocean and to bring it into 
perspective that is exciting and vibrant and especially excites 
kids who are studying and thinking about what they are going to 
do with their lives about the opportunity of maybe getting 
involved in ocean policies.
    His discovery obviously of the Titanic and the Bismark are 
classic, and we have all watched with great fascination the 
films he has made.
    He is about to embark on a whole new exercise as he has 
gotten a new ship, and he is going to talk to us about that, 
that is going to give him the ability to reach out to literally 
tens of thousands of children across the United States and 
probably across the world and bring to them the importance of 
the ocean, but excite them about ocean policy and how we 
preserve these unique assets and resources.
    So it is a great pleasure to have you here, Dr. Ballard, 
and we will turn it over to you.

STATEMENT OF ROBERT BALLARD, Ph.D., MEMBER, U.S. 
            COMMISSION ON OCEAN POLICY; AND PROFESSOR, 
            UNIVERSITY OF RHODE ISLAND
    Mr. Ballard. Thank you, Senator. And thank you, President 
Hart.
    It is indeed an honor to be here. And I must say that it 
was an honor to serve on the President's Commission and I want 
to thank you for doing this historic thing.
    It has only been twice in the history of our country that 
we have had an ocean commission. And the reports that we have 
submitted to the President and Congress is, as you said, sort 
of the blueprint that we hope our Nation will follow.
    When we had a press interview a few minutes ago, the 
question was, well, how do you do it? And it is sort of like a 
500-pound cake, a bite at a time. I think that the critical 
thing is the process has begun.
    I was lucky as a commissioner to be put on the committee 
that dealt with my two passions: Ocean exploration and ocean 
education. In fact, for me, they are one and the same. We were 
able to come up with a wonderful new program. You will see it 
in the Commission deliberations. But not only did we come up 
with a wonderful plan, thanks to the Senator and his 
colleagues, we have begun implementing that plan.
    The area of ocean exploration, just to calibrate it, NOAA's 
present program in ocean exploration is one-tenth of 1 percent 
of NASA's budget. I believe in space exploration. My father was 
an aerospace engineer. I lived with the Apollo program, as he 
helped build that system. So I am not adverse to space 
exploration. But I have to have, must say, I have a bias toward 
our own planet. In fact, as we sit here today, the maps we have 
of Mars are 250 times more accurate than the topographic maps 
of the southern hemisphere.
    So clearly, we have just begun the age of exploration. I 
think we tend to think that exploration is in our history 
books. It is not in our rearview mirror; it is in front of us. 
And in fact, I like to point out to young people that their 
generation, the kids that are in middle school right now, their 
generation will explore more of Earth than all previous 
generations combined, thanks to the new advance technology of 
mapping and exploration.
    We haven't even done the Lewis and Clark Expeditions--I 
should say Lois and Clark Expeditions in the southern 
hemisphere. And that is where I hope this new ship of 
exploration will concentrate its time, to go, in Star Trek 
terms, ``to go where no one has gone before,'' and that is 
primarily the southern hemisphere, which is 85 percent of the 
southern hemisphere is oceans, far more than the northern 
hemisphere. Certainly the western Pacific, there are vast polar 
regions; there is so much of our planet that remains 
unexplored.
    And yet, in the initial phases of exploration of even that 
small percentage that we have looked at, we have come to 
realize that the ocean held the key to an understanding, and 
the fundamental understanding, of how our Earth works.
    It was really the explorations of the mid-ocean ridge that 
really led to a fundamental rethinking about global geology and 
the emergence of the new concepts of plate tectonics; that came 
out of explorations of the land beneath the sea.
    We also, in our early explorations of the mid-ocean ridge 
realized that there are more active volcanos beneath the sea 
than on land by orders of magnitude.
    We also made discoveries, important mineral discoveries. 
And Karen VonDamm, who is here at the university, has been a 
pioneer in the exploration of high temperature hydrothermal 
vents that have helped explain--I can remember when I was a 
kid, I had a simple question for my teacher: Why was the ocean 
salty? You would have thought that they would have known; and 
yet, they didn't know.
    And it wasn't until the discovery of these high temperature 
hydrothermal vents and we realized that the entire volume of 
the world's oceans is going inside of our planet and out every 
6 to 8 million years. And when we took that second circulation 
system--we knew about the hydraulic system, but we did not know 
about the hydrothermal system--we finally were able to balance 
the equations and finally be able to answer that question, why 
is the ocean salty.
    But also associated with that was the discovery of 
important mineral deposits. I think that when people talk about 
how are we going to pay for the ocean initiatives that are in 
our recommendation; by increasing the economic wealth of our 
Nation. And I think that when you look at the oceans of our 
planet that are unexplored, their economic potential has to be 
vast. The Easter bunny did not just put all the mineral 
resources on our land. There are vast mineral resources beneath 
the sea that have yet to be found and exploited.
    Also, the discovery of whole new life systems on our 
planet. Discovering new life systems led us to realize that the 
way in which life may have evolved on our planet was 
fundamentally different than what we were being taught in our 
classrooms.
    It has also greatly increased the probability of finding 
life elsewhere within our own solar system, all coming from 
explorations of the oceans.
    And by the way, all of those things were not in our 
research grants to the National Science Foundation; all of 
those discoveries were serendipity, being in the right place at 
the right time.
    Now, when you look at that, not only did we discover these 
new chemosynthetic life forms that are the driving engine of 
life in the vent systems, we also began to discover that the 
deep sea was an undersea museum.
    Our discovery of the Titanic and the Bismark and the 
Yorktown, all of a sudden we realized that the deep sea was a 
preserver of history. More recently, we did a recent expedition 
back to the Titanic, where we are beginning to look at how one 
can conserve sites beneath the sea as sites for future 
memorials, future battlefields, future marine sanctuaries, just 
as we have on land.
    But we have also begun to discover that the deep sea holds 
a history of ancient civilizations. We now think that over the 
course of time, the human race has lost over 1 million ships of 
antiquity, 1 million ships of antiquity that have gone to the 
bottom. Here is a ship just sitting on the bottom of the ocean 
that sank at the time of Homer, 750 B.C., the first Phoenician 
ship ever discovered in the deep sea, just sitting there.
    There are 1 million time capsules of human history in the 
ocean and yet, there is no major program to understand and find 
those pieces of human history, and more importantly, to protect 
them.
    The deep sea is a giant museum. The question before our 
society is whether we are going through the doors of that 
museum to appreciate human history or to plunder it. And the 
jury is out. We have no legal regimes in the high seas to 
protect antiquity.
    But what is important, though, is to begin this process. I 
happen to think that we may think we are pretty good, but all 
those discoveries I showed you was based upon looking at less 
than one-tenth of 1 percent of the world's oceans. I think we 
are pretty good, but I can't believe that in our explorations 
of one-tenth of 1 percent, we found everything. Absolutely not. 
There is no way that we found everything.
    So people always say what are you going to find? Well, I 
think of when President Roosevelt assembled the National 
Academy when he became President, and he asked the National 
Academy, you are the great minds of our Nation, please tell me 
what the next 20, 30 years are going to bring, they missed 
everything. They missed computers, they missed rockets, they 
missed Salk vaccines.
    I am a member of the scientific estate, but I also know our 
track record in predicting the future is not necessarily the 
greatest. So do not ask us what we are going to discover, just 
let us discover, let us explore.
    And a giant step has been taken now with the creation of a 
new ship of exploration. Just think about it. Our Nation, for 
the first time in its history, has a ship of exploration. 
Thanks to the Senator and his colleagues, I want to thank you 
for that, because this is an historic moment I think we are 
going to be looking back upon. Future generations are going to 
be looking back upon the date when this new ship comes online 
and begins exploring with the phenomenal technology.
    Because our assumption and our exploration paradigm is that 
the experts will not be on the ship. They have never been on 
the ship when we have made fundamental discoveries. Once in a 
while we got lucky; Lost City was a discovery where they 
happened to have the right people on the ship, but generally 
not. When we found hydrothermal vents, biggest biological 
discovery ever made, we didn't have any biologists on the 
expedition.
    But due to this new concept of telepresent technology, we 
are going to be able to outfit this new ship with an incredible 
technology. Right now, we are using the Brown as our 
experimental laboratory for the development of this new 
exploratory technology that will come online in 2007.
    But it has incredible vehicle systems that will be able to 
have round-the-clock communications with the bottom, up to the 
surface, in high band width. This is today's command control 
center aboard these research ships, a high fidelity, high 
definition plasma displays.
    But then they are put on a satellite and they go up on a Ku 
band satellite, gyrostabilized; the ship can roll 15 degrees 
without loss of lock, can spin on its access without loss of 
lock.
    We then downlink it up just north of here, in Maine, and we 
put it on Internet II. Internet II is the new kid on the block. 
Internet I is, to me, compare Internet I, the one we are all 
using now, to Internet II, it is a dirt road on the information 
highway compared to what we have on Internet II. Internet II's 
bandwidth is 10 gigabits; that is a pipe. It's like drinking 
information from a fire hydrant. And that permits it possible 
to create a telepresence at various sites.
    We have been successful, just down south at the University 
of Rhode Island, where I am a professor of oceanography, we are 
on the ballot in the State of Rhode Island for a $14 million 
bond issue to build an Inner Space Center to link to the ship 
of exploration. We have built a prototype for our recent 
expedition on the Titanic.
    We are able to send the entire experience ashore. So to 
scientists, our vision is that the ship of exploration will be 
out doing its thing, which mostly is surveying, it is mostly 
boring. What they say, what's it like to go to sea and search? 
Well, it is 99 percent boring with 1 percent of sheer terror 
and sheer excitement when you make that discovery.
    When we make that discovery, we will be able to replicate 
the command center at the universities. And the beauty of this 
new system is to completely replicate the command center at sea 
is $25,000 because everything is front-end loaded. So it means 
that every university that's participating in a cruise can have 
that in their lab and be monitoring the expedition.
    But the beauty of telepresence is having separated the 
physical body from the experience and put them in a telepresent 
environment is you can also put kids there. You can take--right 
next to the Inner Space Center that we are building is a full-
up television production facility to be able to take the 
excitement of exploration, the excitement of discovery and send 
it right into the classrooms.
    Fortunately, in the State of Rhode Island, all schools in 
the State of Rhode Island from kindergarten up are on Internet 
II right now. We have already wired all the schools in Rhode 
Island to Internet II, which means we can replicate the command 
centers in any school. And it is starting to creep into other 
schools. And I hope that New Hampshire, all their schools are 
on Internet II, because then they will be able to follow these 
explorations. Because our job is to take the future generation 
of explorers and get what we call a jaw drop. When you can get 
a jaw drop like that, then you know you have got them. And we 
hope through our allegiance with the Jason Project, through our 
important program with the Boys and Girls Clubs of America, 
that we are able to not only take these journeys of exploration 
and take them to the academic world for their realtime 
participation, but to get future explorers. Because if we can 
get a child to drop their jaw, we can put information into 
their mind. Thank you very much.

                           PREPARED STATEMENT

    Senator Gregg. Thank you. Thank you very much. You can see 
that enthusiasm makes a big difference and really has an 
impact, obviously.
    And we wouldn't have the Explorer unless it were for Dr. 
Ballard, quite honestly. It was his energy that caused the 
people to be willing to put up the money and make the decision 
to go forward with it. And obviously, it's going to be a huge 
plus for the country and for the world.
    [The statement follows:]

                  Prepared Statement of Robert Ballard

    Webster defines the act of exploring as follows: ``to penetrate 
into or range over for purposes of geographical discovery'' ``to make 
or conduct a systematic search''.
    Webster, on the other hand, defines the scientific method as 
follows: ``principles and procedures for the systematic pursuit of 
knowledge involving the recognition and formulation of a problem, the 
collection of data through observation and experiment, and the 
formulation and testing of hypotheses.''
    In other words, exploration results in the discovery of phenomenon 
that scientists then seek to explain. Our understanding of the 
chemistry of the world's oceans and the potential origin of life on 
earth, for example, came after the discovery of hydrothermal vents by 
others looking for something else.
    As we begin to shape America's emerging program in Ocean 
Exploration it is critical that we seize this opportunity to explore 
the uncharted regions of our planet for the purpose of making new 
discoveries that scientists will then seek to explain ``through 
observation, experimentation, and the formulation and testing of 
hypotheses.''
    Ocean Exploration should not just create a new source of funding 
for traditional oceanographic research. The budget for ocean 
exploration is small compared to that for oceanographic research. It 
must be spent wisely or the program will fail.
    If one simply looks back into time, there are numerous successful 
examples of the exploration model. The voyages of Captain Cooke as well 
as Lewis and Clark's exploration of the Louisiana Purchase are 
excellent examples as are the more recent Challenger and Meteor 
Expeditions of the 19th and 20th Centuries, even the most recent Deep 
Sea Drilling Program of the 20th and 21st Centuries.
    In all cases, these were not a series of scientific legs cobbled 
together, each having its own purpose, each involving a different group 
of scientists with their own particular research focus.
    These were ``systematic'' search/survey programs conducted in large 
part by non-scientists. Instead, they were led by disciplined military 
officers willing to endure hardships while conducting systematic and at 
times boring survey efforts.
    If one looks at the recent recommendations of the President's Ocean 
Policy Commission on Ocean Exploration, one sees that they clearly make 
the distinction between exploration and science. They further recommend 
that the initial phase of exploration should be conducted by NOAA not 
NSF and there are clearly reasons for this.
    Before there was a NOAA, there was a U.S. Coast and Geodetic Survey 
that, like the Lewis and Clark Expedition, can trace its origins back 
to the exploratory mind of President Thomas Jefferson who in 1807 
signed a bill for the ``Survey of the Coast.''
    The Survey charted the nation's waterways, producing topographic 
maps of our shorelines, an effort that expanded with the acquisition of 
Alaska, the Philippines, Puerto Rico and the military needs associated 
with our Nation's global wars.
    As a result of this long history, NOAA is ideally suited to be the 
lead agency for America's Ocean Exploration Program. But NOAA needs to 
return to its roots.
    There is a growing criticism of NOAA's OE program that needs to be 
addressed. The loudest and strongest criticism is that the program, as 
it is presently structured, is not an Exploration Program. It is a 
bunch of individual Principle Investigators, myself included, ``doing 
their own thing''. It looks more like a ``mini-NSF'' program than an 
Exploration program. It is not surveying unexplored regions of the 
world.
    The recommendations made by the 2000 NOAA Presidential Panel, the 
recent Academy Study, and the President's Commission, which is about to 
publish its final report, all say the same thing. The program should 
center around a large annual global/international expedition on a 
``flagship'' for exploration. That is why the program needs a dedicated 
ship: so that it can get away from the normal ``traffic patterns'' of 
UNOLS and NOAA ships, which spend the vast majority of their time near 
the continental United States, and travel to the remote, uncharted 
regions of the world to conduct surveys--not science programs--in 
search of new discoveries. The scientific world can then react to these 
finding by developing research programs with funding from NSF and other 
sources.
    Now, thanks to the efforts of Senator Gregg and his colleagues in 
the Senate, Senator Dodd, Hollings, Inouye, and Stevens, the USNA 
CAPABLE has been transferred from the U.S. Navy to NOAA. And America 
now has its first ship of exploration!
    With this action completed, we must now insure that this ship of 
exploration does not fall into the traditional pattern of individual 
investigators doing their own thing in the well explored regions around 
the continental United States but that it goes where no one has gone 
before to the uncharted corners of our planet where new discoveries 
await us.
    And when we make these new and exciting discoveries of new life 
forms, new mineral deposits, new fisheries, and find new natural and 
cultural wonders beneath the sea, let us make sure that the children of 
our nation are with us in ``real time'' on these voyages of discovery 
to excite and motivate them to become America's next generation of 
explorers.
    Thank you very much for permitting me this opportunity to speak.

    Senator Gregg. Dr. Sandifer is now going to give us his 
thoughts on what the policy should be relative to the Ocean 
Commission. I thought we would save Dr. Rosenberg for last, 
since he is the hometown boy, the cleanup hitter.

STATEMENT OF PAUL A. SANDIFER, Ph.D., MEMBER, U.S. 
            COMMISSION ON OCEAN POLICY; AND SENIOR 
            SCIENTIST, NATIONAL CENTERS FOR COASTAL 
            OCEAN SCIENCE, NATIONAL OCEAN SERVICE, 
            NATIONAL OCEANIC AND ATMOSPHERIC 
            ADMINISTRATION
    Mr. Sandifer. Thank you, Chairman Gregg. I also want to, 
not only thank you for your tremendous support, but also my 
home State Senator, Senator Fritz Hollings, whose leadership 
made the Ocean Commission possible.
    I had intended to follow Andy's lead, so pardon me as I 
digress a little bit from the script here. The Commission 
decided on four foundation blocks for its plans for 
comprehensive national ocean policy. These are improved 
governance, ecosystem-based management and more emphasis on 
science and education.
    Andy is going to cover the governance and the ecosystem 
management issues. I want to focus a little bit of attention on 
the other two areas, that is, increased utilization of science 
for decisionmaking and education.
    Despite the extraordinary efforts in leadership of this 
committee and Senator Gregg, ocean science is still woefully 
underfunded. To deal with this problem, the U.S. Commission on 
Ocean Policy has recommended a doubling of Federal ocean, 
coastal and Great Lakes research budgets over the next 5 years.
    The recent actions of the committee that Senator Gregg 
already alluded to direct $454 million, including a nearly $206 
million increase, to support a number of the Commission's 
programatic recommendations within NOAA, is a tremendous first 
step toward implementing the Commission's overall science 
investment recommendation and we thank you heartily for that 
tremendous effort.
    Now, the Commission identified many areas where additional 
investments in scientific research and education should lead to 
measurable improvements in the way we manage and utilize our 
ocean and coastal resources.
    I have got a long list of those in my written testimony, 
and that doesn't cover all of them, but I am only going to hit 
on a few today of particular interest to me; that is one of the 
perks of being able to give the testimony is I get to choose, 
like Bob did, those items that interest me.
    Beginning with education: Support for a comprehensive, 
national ocean education program that would go from ``K-to-
gray'' pervades the entire Commission report. To develop and 
implement such a program, the Commission recommends 
establishment of a national Ocean Education Office; tripling 
the numbers of Centers for Ocean Science Education Excellence 
in the country; improving K through 12 ocean education 
activities; supporting more interaction between scholars and 
educators to build teacher capacity between scholars, 
researchers and educators, something that would be a big deal 
in this kind of campus environment; expanding scholarships for 
undergraduate, graduate and postdoctoral students and 
supporting informal education activities delivering the 
consistent message at aquaria, museums and zoos across the 
country.
    In addition, the Commission recognized the strengths of the 
National Sea Grant college program in ocean education and 
recommended substantial enhancement to that program. Overall, 
the Commission estimated ocean education funding needs at $25 
million in new money in the first year, growing to $136 million 
annually thereafter. And we are grateful that the committee 
seems to share our enthusiasm for improving ocean literacy, as 
evidenced by your recommendations for notable new investments 
in these areas.
    Moving to the observing system. None of us today could or 
want to imagine a world where we would have to live without 
constantly updated weather reports and forecasts. In light of 
the very recent and ongoing hurricane threats and impacts in 
the southern United States, where I live--and I checked before 
going to bed last night and first thing this morning to see 
where Jeanne was--the need for an Integrated Ocean Observing 
System, or IOOS, is in very real terms a matter of life and 
death.
    The observing system would measurably improve our abilities 
to protect human life and property from marine hazards, 
including not only the storms and floods that we are dealing 
with now, but also such things as harmful algal blooms, 
concentrations of disease-causing microorganisms or toxic 
chemicals.
    The observing systems could also substantially aid homeland 
security efforts and provide a wealth of useful information to 
businesses, academic researchers and ordinary citizens across 
the country.
    The observing system should be built upon a foundation of 
strong and diverse partnerships and be planned under the 
auspices of something called Ocean.US, an interagency 
coordinating arm of that National Ocean Council.
    NOAA should be the lead Federal agency for the observing 
system, but should work through Ocean.US to integrate the 
observing system across all agencies and ensure that the 
country ends up with one national observing system, not a whole 
bunch of unrelated systems.
    The price for implementing the observing system is 
considerable, beginning with an investment of $231 million a 
year and growing to $753 million annually in new funding. 
However, the economic and social costs of not building and 
implementing the observing system are probably incalculable. 
Again, we heartily thank the committee for supporting 
substantial investment in NOAA for integrated coastal and ocean 
observations.
    The area of living marine resources: The status of the 
Nation's fisheries was a topic of concern that we heard about 
at every single one of our meetings. As a result, the 
Commission devoted a lot of attention to fisheries, focusing 
largely on ways to improve the regional fishery management 
councils and Federal, regional and State management processes.
    Our recommendations deal with strengthening and separating 
scientific and allocation decisions; clarifying jurisdiction; 
improving public representation; expanding the use of dedicated 
access privileges and reducing overcapitalization; improving 
enforcement; dealing with bycatch and essential fish habitat 
from ecosystem approaches; and strengthening international 
management.
    The Commission recommends increases in funding for 
fisheries management at $29 million for year one, growing to 
$88 million annually for following years, with additional 
funding for ecosystem science to support fisheries management 
as part of the overall doubling of the Federal ocean science 
budget. And again, we thank the committee for its support for 
improved fisheries management.
    Now, indicative of the growing problem of human impacts on 
coastal waters are the increasing frequencies of beach 
closures, seafood consumption advisories, harmful algal blooms 
and occurrences of toxic chemicals and pathogenic 
microorganisms in coastal and even offshore environments, all 
of which in turn result in increasing cases of human illness.
    On the other hand, the oceans represent the greatest global 
reservoir of biodiversity, with huge and mostly unexplored 
potential for production of pharmaceuticals and other 
bioproducts that could measurably improve human existence and 
produce billions of dollars annually in new business revenues.
    The Commission therefore proposes a national, multiagency 
oceans and human health initiative and doubling of current 
funding levels for this critical effort. And again, we thank 
the committee for doing just that, recommending doubling of 
NOAA's oceans and human health initiative from $10 to $20 
million a year.
    Numerous factors impact populations of marine mammals, sea 
turtles, corals and other endangered and vulnerable marine 
species, including bycatch in directed fisheries, hunting, loss 
of breeding, nesting and foraging areas, ship strikes, 
pollution, disease, and the list goes on.
    Unfortunately, little is known about the relative 
importance or cumulative impacts of such factors on the 
survival, and especially the recovery, of most protected 
species. So the Commission has recommended that NOAA and other 
relevant Federal agencies expand their work on marine mammals, 
sea turtles, corals and other vulnerable species, specifically 
to get a better understanding of basic biology and population 
dynamics and how disease, contaminants, harmful algal blooms 
and other human activities impact these and how we can best 
respond to strandings and unusual mortality events.
    The Commission has recommended increasing funding by $17 
million a year, initially, with sustained funding of $26 
million over the fiscal year 2004 level. And we applaud the 
recent action of this committee to increase funding by $12 
million for a NOAA marine mammal initiative to deal with some 
of these issues.
    The final issue I want to mention is aquaculture. The 
Commission has recommended that NOAA become the lead for 
offshore marine aquaculture and that an Office of Sustainable 
Marine Aquaculture be established within NOAA to deal with both 
the policy issues and the environmental concerns that affect 
marine aquaculture development.
    In conclusion, Mr. Chairman, the Commission devoted a great 
deal of attention to science and education within NOAA and we 
recognize that today's NOAA simply does not have the resources 
nor the stature to do the job that tomorrow's ocean demands.
    To lead the Nation toward an ecosystem-based approach to 
management of coastal, ocean and Great Lakes resources as the 
Commission envisioned, NOAA must have the organizational 
structure, agency stature and authorities necessary to provide 
that leadership and to effectuate change; it must become more 
partner and service oriented; and it absolutely must have the 
necessary financial resources to do the job that the Nation so 
desperately needs it to do.

                           PREPARED STATEMENT

    Thank you, Senator Gregg, for your continuing high level of 
interest in and support for the activities of the Commission 
and especially for the outstanding efforts of this committee to 
put NOAA well on its way to gaining the funding required to 
implement many of the Commission's recommendations. Thank you, 
sir.
    Senator Gregg. Thank you very much, Doctor. We very much 
appreciate your thoughts and input and the great work you have 
done relative to the Commission.
    [The statement follows:]

                 Prepared Statement of Paul A. Sandifer

                              INTRODUCTION

Mr. Chairman and members of the Committee. My name is Paul Sandifer, 
and I thank you for the opportunity to testify before you today on 
behalf of the U.S. Commission on Ocean Policy, along with my colleagues 
and fellow Commissioners, Drs. Andrew Rosenberg and Robert Ballard.
    When I was appointed to the Commission in 2001, I was Director of 
the South Carolina Department of Natural Resources (SCDNR) and the only 
state official to serve as a Commissioner. In April of 2003, I retired 
from the SCDNR and joined NOAA as Senior Scientist within the National 
Ocean Service's National Centers for Coastal Ocean Science. Please note 
that I am appearing today solely in my capacity as a member of the U.S. 
Commission on Ocean Policy and that my testimony is based on 
recommendations from our Final Report which was submitted to the 
Administration and the Congress just one week ago on September 20, 
2004.
    Without doubt, the highlight of my professional life has been my 
service on the U.S. Commission on Ocean Policy. It has been an 
immensely rewarding and educational experience, and I believe that the 
Commission has crafted many well-thought-out recommendations for the 
improvement of ocean policy in this country. In my opinion, we are at a 
truly pivotal point of human life on this planet. Simply put, the 
oceans make Earth habitable for humans, yet we are in the process of 
disturbing, dismantling, and even poisoning this life engine. As my 
colleague, Dr. Rosenberg, has so eloquently stated, our ocean 
environment is truly at risk, and we must change course to reduce that 
risk and maintain a vibrant marine environment and its untold economic 
and environmental benefits to society.
    Rather than focusing on just the alarming trends, the Commission 
began its work by envisioning a better future for our oceans, coasts 
and Great Lakes. Early in our deliberations, we established a series of 
13 overarching principles to guide our work. Based on these principles 
and detailed evaluations of the myriad problems and opportunities 
associated with the nation's ocean, coastal and Great Lakes 
environments, the Commission focused on four foundation blocks that we 
deemed essential for a new and comprehensive national ocean policy. 
These are:
    (1) Improved governance.--The Commission believes that little 
progress will be made unless we first fix the way we do business in the 
marine environment, moving from an agency-by-agency or smokestack-by-
smokestack approach to a much more coordinated, interrelated and 
comprehensive ocean governance structure. As Dr. Rosenberg has pointed 
out, this entails creation of an ocean policy framework at the national 
level and substantial strengthening of and changes to NOAA, the 
nation's lead civilian ocean agency.
    (2) Ecosystem-based approach to management.--The centerpiece of the 
Commission's recommendations for management of U.S. coastal and ocean 
resources is that they be managed to reflect the relationships among 
all ecosystem components, including humans and nonhuman species and the 
environments in which they live and that eco-regional management areas 
be defined based on ecosystem, rather than political, boundaries.
    (3) Best available science.--Ocean policy decisions should be based 
on the best available understanding of the natural, social, and 
economic processes that affect ocean and coastal environments. 
Substantial and carefully targeted new investments are absolutely 
essential to provide the science foundation for improved decision-
making.
    (4) Broad public education.--Studies show that integrating ocean 
topics into curricula can boost student motivation, scientific 
literacy, and overall achievement. Increasing formal and informal 
educational opportunities will also result in greater public awareness 
and a stronger stewardship ethic for our ocean and coastal resources.
    Dr. Rosenberg has already talked about the first two of these 
foundation blocks, governance and ecosystem-based management. I would 
like to focus my testimony on science and education.
    The key element necessary to foster a new era of science- and 
ecosystem-based management of ocean and coastal resources is 
significant new investment in ocean-related natural and social 
sciences. Despite the extraordinary efforts and leadership of this 
Committee--for which everyone in the greater ocean community is truly 
grateful--ocean science is still woefully underfunded, especially in 
light of the increasing demands for more and better scientific 
information and advice to deal with homeland security and defense 
issues, declining natural resources, emerging health threats and many 
other problems.
    Recognizing the absolute necessity for greater investment in ocean-
related science, the Commission recommends a doubling of the federal 
ocean, coastal and Great Lakes research budgets over the next five 
years. Such investments are absolutely essential if the United States 
is to be able to assess and predict the status of marine resources; 
find beneficial new uses of ocean resources such as bioproducts, 
pharmaceuticals and aquaculture; restore fisheries and rebuild a 
vibrant fishery economy and fishery communities; grow coastal tourism 
while protecting those natural attributes of clean water and 
functioning habitats that make our coasts such attractive places to 
recreate, live and work; and the list goes on and on. The recent 
actions of this Committee to direct $454 million, including a nearly 
$206 million increase, to support a number of the Commission's 
programmatic recommendations is a tremendous first step toward 
implementing the Commission's proposal for a doubling of federal ocean 
science expenditures over a five-year period. Thank you very much for 
your magnificent support for the Commission's work and most especially 
for caring so deeply about the future of our coastal, ocean and Great 
Lakes resources and environments.
    Now, the Commission identified a number of very specific areas 
where additional investments in scientific research should lead to 
measurable improvements in the way we manage and utilize our ocean and 
coastal resources and the actual status of those resources. I've listed 
these in alphabetical order just for ease of presentation, as follows:
    The Commission identified a substantial list of specific areas 
where additional investments in scientific research should lead to 
measurable improvements in the way we manage and utilize our ocean and 
coastal resources and the actual status of those resources including 
such diverse topics as biodiversity, climate change, and water 
pollution. I have listed more than 20 of these below.

Biodiversity
Climate Change
Coastal Habitat
Coastal Hazards
Coastal Monitoring
Coral Communities
Ecosystem Science
Fisheries
Integrated Ocean Observing System
International Science
Invasive Species
Mapping and Charting
Marine Aquaculture
Marine Debris
Marine Mammals and Protected Species
Ocean Education
Oceans and Human Health
Regional Assessments
Scientific Infrastructure (labs, ships, submersibles, equipment)
Sediments
Socioeconomic Science
Water Pollution
Weather Services

    There is simply no way to do justice to such a list today, so I've 
chosen to concentrate on just several of particular importance and 
personal interest to me. These are: (1) ocean education and literacy; 
(2) the Integrated Ocean Observing System; (3) sustainable fisheries; 
(4) the interactions of oceans and human health; (5) conservation of 
marine mammals, sea turtles and other vulnerable species; and (6) 
marine aquaculture.
Ocean Education
    The oceans hugely influence the daily life of people across the 
country, regardless of whether they live in coastal or inland 
communities. In fact, in the view of the Commission, the United States 
is an island nation and all its states are coastal states. Development 
of an ocean stewardship ethic among the public at large is essential 
for the long-term conservation and sustainable use of ocean, coastal 
and Great Lakes resources. Perhaps because of the close connection 
between humans and the oceans over our entire evolution, ocean topics 
have the unique ability to engage students and hold their interest so 
that a host of scientific and mathematical concepts can be 
communicated. Ocean-based studies can also enhance student performance 
in areas beyond the natural sciences, such as geography, history, 
economics, law, and literature.
    Support for a comprehensive, national ocean education program that 
would go from ``K-to-gray,'' that is, from kindergarten through primary 
and secondary school, college, graduate and post-graduate school and 
lifelong informal learning activities pervades the entire Commission 
report. Among many activities, the Commission noted two national-level 
ocean education programs of particular value: the Centers for Ocean 
Science Education Excellence (COSEE) supported by NSF with additional 
funding from the Office of Naval Research and NOAA, and NOAA's National 
Sea Grant College Program. In addition, the wealth of U.S. aquariums, 
zoos, museums, and other informal education centers also provide the 
public with diverse opportunities to learn about the marine 
environment.
    The problem with ocean education in the United States is not a lack 
of interest but more a lack of resources and especially a coordinated, 
sustained, comprehensive ocean education program. Instead, we have what 
the Commission describes as ``a patchwork of independently conceived 
and implemented programs and activities'' that cannot provide the 
nationwide momentum and visibility needed to promote sustained ocean 
education for students, teachers, and the general public.
    Without leadership, no common vision for ocean education will be 
developed and no path for achieving such a vision will be laid out. 
Thus, the Commission recommends several steps, beginning with 
establishment of a national Ocean Education Office funded through 
NOAA's budget within an enhanced National Oceanographic Partnership 
Program. In addition, the Commission outlined other essential 
leadership roles for NOAA, particularly at the college and graduate 
school levels. Overall funding needs for ocean education activities are 
estimated by the Commission to be $25 million above fiscal year 2004 
levels in year 1, growing to $136 million in ongoing new annual 
appropriations. Funding at these levels would allow for: establishment 
of the Ocean Education office; strengthening of ocean education 
activities within NOAA, NSF, NASA, and ONR; tripling the number of 
COSEE centers; evaluation and improvements in K-12 ocean education 
programs; supporting close interaction between researchers and teachers 
to enhance teacher capacity; substantially expanded scholarship support 
for undergraduate, graduate and post-doctoral students to ensure the 
appropriate training of new generations of ocean scientists; and 
support for informal education experiences that can reach millions on a 
daily basis. In addition, the National Sea Grant Program, and its 
education and outreach efforts, should be enhanced as part of the 
doubling of the U.S. ocean research budget. Sea Grant has an excellent 
track record of providing teacher preparation and professional 
development programs consistent with state education standards and of 
offering hands-on educational experiences for students and teachers. 
The Commission recognized the strengths of the Sea Grant program and 
its long-standing partnerships at the state and local level, and 
recommended that the Sea Grant program not only receive higher funding, 
but also devote a greater proportion of its resources to ocean 
education. The enhancements to the Sea Grant program's educational 
portfolio would come from these increases and would be in addition to 
the sums identified above. We are grateful that the Committee shares 
our enthusiasm for improving ocean literacy, and has already 
recommended specific and significant new investments in these important 
programs.

Integrated Ocean Observing System
    Beginning about 150 years ago, the United States began building 
what is now the most comprehensive weather forecasting and warning 
network in the world. Today, none of us could or want to imagine a 
world where we would have to live without constantly updated weather 
reports. In light of the very recent and ongoing hurricane threats and 
storm-related impacts in the southern United States where I live, the 
need for such a system--and for substantial improvements in 
understanding weather, climate, and a broad range of ocean responses 
that affect both coastal and inland communities--is in very real terms 
a matter of life and death.
    The Integrated Ocean Observing System would augment physical 
observations and measurably improve our abilities to protect human life 
and property from marine hazards, including not only storms and 
flooding events, but also such things as harmful algal blooms and 
threatening pollution concentrations. One particular effort ongoing 
with the observing system network in the South Atlantic where I work is 
the development of significantly enhanced ability to predict storm 
surge and flooding, both of which contribute to more deaths and 
injuries than do the high winds of hurricanes and tropical storms. This 
is but one potential utility of the observing system. Others uses are 
as diverse as:
  --augmenting national defense and homeland security;
  --understanding human-induced and natural changes in the environment 
        and relations between them and predicting effects on humans;
  --tracking and understanding climate change and the ocean's role in 
        it; and
  --supplying important information to ocean-related businesses, marine 
        transportation industry, fishers and fishery managers, and 
        others.
    An integrated ocean observing system that is regionally, nationally 
and internationally connected and coordinated can serve the nation much 
better than the 40+ coastal ocean observing systems now in various 
stages of development and operation. These make important 
contributions, but the greatest value is in the synergy that will come 
from fully linking them together into a comprehensive network. In this 
regard the U.S. Commission on Ocean Policy recommends that the IOOS be 
a key element of a new ocean program, building upon strong partnerships 
among federal, state, territorial, tribal and local governments, non-
governmental organizations, industry, and academia. The IOOS should be 
planned under the auspices of Ocean.US, which would be the interagency 
coordinating arm for the observing system under the National Ocean 
Council that Dr. Rosenberg briefly described. NOAA should serve as the 
lead federal agency for implementing and operating the IOOS. NOAA's 
role should be to work through Ocean.US to integrate the observing 
system across all agencies, ensuring that the nation ends up with one 
national observing system, not a NOAA system, a Navy system and an NSF 
system, or a whole bunch of unconnected systems serving different 
needs.
    The success of IOOS will also depend on its drawing upon a broad 
constituency and meeting the needs of numerous users, including the 
general public. This will require that it: reach out to many groups, 
especially those outside academia; develop a set of core variables to 
be measured throughout the system, along with sufficient flexibility to 
deal with differing regional priorities and situations; include 
fisheries, protected species and other biological data and chemical as 
well as physical parameters; and establish a process for migrating from 
research to operational modes as quickly and seamlessly as possible.
    The price for implementing the IOOS is considerable--beginning with 
$231 million in additional funds in year 1 and growing to a sustained 
level of $753 million in new funding. However, the cost of not building 
and implementing IOOS in terms of economic and other impacts on U.S. 
society is probably incalculable. Again, we heartily thank the 
Committee for supporting this crucial initiative and making such a 
substantial investment in NOAA to support coastal and ocean 
observations.

Sustainable Fisheries
    The status of the nation's fisheries was a topic we heard about at 
every one of our meetings. It is something that people across the 
country and from every walk of life are concerned about, and nowhere 
was the need for an ecosystem-based management approach more evident 
than with regard to fisheries. As a result, 27 of our 212 
recommendations deal directly with fishery issues, and numerous more 
would affect fisheries indirectly. No other single issue received this 
much attention by the Commission.
    Because the Regional Fishery Management Council structure contains 
so many of the characteristics that the Commission believes are 
important as a foundation for ecosystem-based management, the 
Commission did not focus on wholesale changes to the Councils but chose 
instead to recommend substantial strengthening of the Councils, and 
federal and state management processes in six major areas: (1) 
strengthening the link between science and management by separating 
scientific and allocation decisions; (2) clarifying jurisdiction and 
increasing public representation; (3) expanding the use of dedicated 
access privileges and decreasing overcapitalization; (4) improving 
enforcement; (5) dealing with bycatch and essential fish habitat; and 
(6) strengthening international management. In particular, the 
Commission found that: ``The role of scientific information should be 
as strong as possible in fishery management and subject to the least 
possible political influence.''
    The Commission recommends increases in funding for fisheries 
management at $29 million for year 1 and approximately $88 million for 
following years. These new funds would support such activities as 
expanded work by the Scientific and Statistical Committees of the 
Councils; growth of cooperative fisheries research with participating 
fishermen and others; increased joint enforcement agreements with 
states to improve enforcement; development and implementation of 
improved regional bycatch plans; a more ecosystem approach to essential 
fish habitat designations; and other efforts to enhance the work of the 
fisheries management councils and the interstate fishery commissions. 
Additional funding for ecosystem science to support fisheries 
management at federal, regional and state levels should also be part of 
the overall doubling of the federal ocean science budget. Further and 
very importantly, fisheries science needs to be part of the more 
integrated national science program dealing with ecosystems. As the 
Commission points out, we need an overall science plan for ecosystem-
based management, and we need data and information management systems 
that will help ensure delivery of the best available scientific 
information to fishery managers, coastal managers, and others at 
federal, regional, state, tribal and local levels. Once again, the 
actions of this Committee to support improved understanding and 
management of fisheries are truly remarkable, and we thank you for 
them.

Oceans and Human Health
    Estuarine and coastal processes are being impacted by humans 
through urban and agricultural runoff, sewage discharges, deposition of 
airborne pollutants, industrial waste streams, shoreline modifications, 
wetland dredging and filling, overfishing, introduction of invasive 
species, habitat destruction, high density recreational use, climate 
change, and other pathways. Indicative of the growing problem are the 
increasing frequencies of beach closures, seafood consumption 
advisories, harmful algal blooms, and occurrences of toxic chemicals 
and pathogenic microorganisms in coastal and even offshore waters, 
sediments and biota. These negative human effects on marine ecosystems 
in turn result in increasing cases of human illness and other impacts 
on human well being.
    On the other hand, the oceans represent the greatest global 
reservoir of biodiversity, with huge and mostly unexplored potential 
for production of bioproducts that could measurably improve human 
existence. From these natural products, a broad range of useful 
materials could be developed, including pharmaceuticals, nutritional 
supplements, medical diagnostics, pesticides and herbicides for 
agricultural applications, enzymes and chemical products for disease 
research, and many others. The potential annual value of each class of 
these marine-derived bioproducts may be in the multi-billion dollar 
range.
    Based on both such opportunities and the need to understand and 
mitigate the increasing risks to humans from coastal and marine 
exposures, the Commission recommends several actions, including: (1) 
the establishment of a national, multi-agency Oceans and Human Health 
Initiative involving NOAA, NSF and NIEHS to sponsor and coordinate 
exploration, research, and development of new technologies related to 
the various connections between the health of coastal, ocean and Great 
Lakes ecosystems and human health; (2) expanded research related to the 
complex inter-relations of pollution, harmful algal blooms, emerging 
marine diseases, ecosystem degradation, climate change, and 
microorganisms and their effects on health of marine organisms and 
humans; (3) development of practical natural compounds from marine 
organisms; and (4) improved programs to ensure seafood safety and 
coastal water quality.
    To carry out these functions, the Commission recommends doubling of 
current funding levels for this critical initiative. We salute the 
Committee for its recommendation to do just that--increase funding for 
the NOAA Oceans and Human Health Program from $10 to $20 million, and 
again we thank you for your tremendous support.

Marine Mammals and Endangered Species
    Numerous factors impact populations of marine mammals, sea turtles, 
corals, and other endangered and vulnerable marine species, including 
bycatch in directed fisheries, hunting, loss of breeding, nesting and 
foraging habitat, ship strikes, pollution, and disease. Unfortunately, 
little is known about the relative importance or cumulative effects of 
such factors on the survival and especially the potential for recovery 
of most protected species. Yet, today the nation must cope with 
unprecedented and increasing incidences of unexplained mass mortalities 
of marine mammals, regional and global epizootics, increasing discovery 
of marine animal diseases that are shared with humans or terrestrial 
animals, continuing and accelerating declines of populations of sea 
turtles and other marine animals, and a substantial and increasing 
scope of disease threats to marine populations. As pointed out by the 
Commission: ``The lack of baseline biological data on most marine 
mammals and endangered species, coupled with limited stock assessment 
data, make it difficult to evaluate population abundance and trends, 
isolate causes of mortality, or distinguish management successes from 
failures.''
    In response to public concerns about the growing numbers of dead 
and dying marine mammals washing up on our shores, in the late 1980s 
NOAA established a Marine Mammal Health and Stranding Response Program. 
Even with rather limited resources, NOAA and its partners and extensive 
volunteer network have responded to stranding events encompassing a 
wide range of species and numerous causative factors, including 
diseases, starvation, toxins from harmful algal blooms, and human 
interactions. However, the causes of a substantial portion of these 
events are as yet undetermined, and the potential risks to humans are 
largely unknown. No similar federal program exists for other marine 
organisms like sea turtles or fish, such as the croakers that are dying 
off in droves now in mid-Atlantic states.
    The plight of marine mammals, sea turtles, corals, and many other 
marine organisms threatened by unexplained and unknown diseases and 
poor health suggests that the marine environment holds increasing 
threats to a variety of biota, including the human populations that are 
flocking to our coasts. There is a significant need for a multi-
disciplinary approach to examine the health of marine animal 
populations in coordination with the emerging integrated ocean 
observing system and the oceans and human health initiatives mentioned 
above.
    Thus, the Commission recommends that NOAA and other relevant 
federal agencies undertake an expanded research program on marine 
mammals, sea turtles, and other protected species populations and then 
use this information for more comprehensive, ecosystem-based management 
and more effective permitting procedures. Specifically, this research 
initiative should focus on:
  --better understanding of the basic biology, physiology, life 
        history, and population dynamics of marine mammals, sea 
        turtles, and other endangered or vulnerable marine species and 
        how disease, contaminants, harmful algal blooms, human 
        activities, and other stressors may impact these animals;
  --enhanced capability to respond quickly to strandings and unusual 
        mortality events involving marine mammals and sea turtles;
  --the effect of sound on marine mammals; and
  --development of technology to eliminate or mitigate human impacts on 
        marine mammals, sea turtles, and other endangered species.
    In these areas, integrated, interagency programs will be essential, 
especially in dealing with thorny issues such as the effects of noise 
on mammal populations. The Commission recommends increasing funding by 
$17 million/year initially with sustained additional funding of $26 
million/year over fiscal year 2004 levels, with some additional funding 
for research in these areas as part of the overall doubling of the 
federal ocean science budget. The Commission applauds recent action of 
this Committee to provide $12 million for a marine mammal initiative to 
deal with many of the problems noted above.

Marine Aquaculture
    The Commission concluded that sustainable marine aquaculture has 
potential to become a significant industry in the United States and a 
means of reducing the nation's annual $7 billion seafood trade deficit 
if developed properly. However, for offshore marine aquaculture to 
develop in the United States, three major problem areas must be dealt 
with: environmental issues must be addressed; a predictable regulatory 
framework must be put in place; and new technologies must be developed.
    Recognizing both the potential benefits and the possible negative 
environmental impacts associated with marine aquaculture, the 
Commission recommends that: (1) NOAA be designated the lead federal 
agency for marine aquaculture; (2) an Office of Sustainable Marine 
Aquaculture be established in NOAA with responsibility for developing--
in consultation with states, other federal agencies and interested 
parties--a comprehensive, environmentally-sound permitting, leasing, 
and regulatory program for marine aquaculture and expanding marine 
aquaculture research, development, training, extension, and technology 
transfer activities; and (3) the United States should work 
internationally to encourage global adherence to responsible 
aquaculture practices.
    Comprehensive marine aquaculture legislation that sets clear goals, 
authorities and responsibilities and ensures that aquaculture is placed 
within an ecosystem-based ocean management framework will likely be 
necessary.
    To accomplish these activities will require a minimum of $3 million 
in new funding in the first year, growing to $7 million annually 
thereafter and augmented by additional research funds through Sea Grant 
and other NOAA and federal-agency research budgets.

                               CONCLUSION

    The Commission considers structural improvements in ocean 
governance, an ecosystem-based approach to ocean and coastal resource 
management, substantially increased investment in scientific research 
to underpin management decision-making, and improved ocean literacy to 
be essential foundation blocks for a comprehensive and sustainable 
national ocean policy for the United States. In its deliberations, it 
devoted a great deal of attention to NOAA and considers the agency a 
crucial player in all four of these key areas.
    While recognizing the central importance of NOAA, the Commission 
also is cognizant of its many limitations as it is presently organized, 
operated and supported. In place of the ``old'' NOAA, the Commission 
envisioned a ``new NOAA'' that would be ``a stronger, more effective, 
science-based and service-oriented ocean agency--one that contributes 
to better management of oceans and coasts through an ecosystem-based 
approach . . .'' Today's NOAA simply does not have the resources or the 
stature to do the job that tomorrow's oceans demand. To lead the nation 
toward an ecosystem-based approach to management of coastal, ocean and 
Great Lakes resources as the Commission envisioned, NOAA must have the 
organizational structure, agency stature and authorities necessary to 
provide that leadership and effectuate change; it must become more 
partner and service oriented; and it absolutely must have the necessary 
financial resources to do the job that the nation so desperately needs 
it to do.
    Thank you for holding this hearing and for the continuing high 
level of interest in and support for the activities of the U.S. 
Commission on Ocean Policy. The Commission worked diligently to provide 
practical, workable recommendations for improvements to the overall 
U.S. ocean policy and to a host of management, research, educational, 
operational, and international activities. If enacted, the Commission's 
recommendations will lead to healthy ocean, coastal and Great Lakes 
resources that can sustain us, our children, and their children's 
children and provide a literal treasure-trove of economic benefits to 
the nation. Thanks to the outstanding work of this Committee, NOAA is 
well on its way to gaining a very significant portion of the funding 
required to implement many of the Commission's recommendations. Again, 
we thank you for this marvelous support, and I thank you for the 
opportunity to speak before you today.
    I would be pleased to respond to any questions you may have.

    Senator Gregg. I note that in the audience, we are joined 
by Dr. Berrien Moore, who has spent a lot of time in Washington 
recently and is doing a fabulous job of trying to give us some 
thoughts and direction for the NOAA research effort overall. 
And we certainly appreciate his support and his leadership; 
tremendous resource, obviously, here at UNH.
    Now, Dr. Rosenberg, we would like to get your input, 
thoughts and guidance and concerns.

STATEMENT OF ANDREW A. ROSENBERG, Ph.D., MEMBER, U.S. 
            COMMISSION ON OCEAN POLICY; AND PROFESSOR, 
            UNIVERSITY OF NEW HAMPSHIRE
    Mr. Rosenberg. Thank you very much, Senator, and to the 
committee for holding this hearing. And I would particularly 
like to thank you for your leadership on the Oceans Act of 
2000, continuing leadership on new legislation with regard to 
ocean policy and for the opportunity that I have had to serve 
on the Commission. Plus, I would like to thank the university 
for the opportunity to spend 3 years working on the Commission.
    It really has been an honor to work with an extraordinary 
group of fellow commissioners, including most notably Paul 
Sandifer, to my left, and the man who used to be known as 
Jacques Cousteau, but is now Robert Ballard on my right. They 
really are an extraordinary group of people and it has been a 
lifetime educational opportunity for me, which I am very 
grateful for.
    I believe that our recommendations truly meet the spirit 
and intent of the Oceans Act. And our ocean environment is at 
risk, as the Commission points out and as I certainly believe. 
And the Nation really does need to make policy changes to 
reduce that risk.
    As you noted, Senator, some of the students here are in an 
ocean policy seminar course that I am teaching, graduate course 
that I am teaching this semester and are going through the 
report. And I hope they will have an opportunity to comment on 
and review all of the recommendations.
    One of the interesting things that happened to me in the 
course of the Commission work was one reporter asked me about 
the former Ocean Policy Commission, the Stratton Commission and 
said, well, this U.S. Commission on Ocean Policy is the first 
commission in 35 years. I said yes, that is correct. The 
reporter said, ``Did you serve on the other commission as 
well?'' And my response was, ``no, I didn't. I was 12 at the 
time and my dad wouldn't let me.''
    But I think the important part here is that hopefully some 
of the now students and soon to be leaders, nationally and in 
some cases internationally, in the room, may have an 
opportunity to review our work 20 or 30 years from now and I 
hope they have good things to say about it, as we do about the 
Stratton Commission.
    My comments this morning will focus on two areas, the 
governance structure we use for implementing ocean policy and 
the adoption of the principle of ecosystem-based management for 
the oceans.
    Please note that I offer the Commission recommendations as 
well as my personal opinion in these comments and I have tried 
to be careful in distinguishing between them.
    The Commission recommends four components for a new 
governance framework to implement ocean policy: National 
coordination and leadership; a strengthening and streamlining 
of the Federal agency structure; a development of regional 
solutions to national problems; and the establishment of a 
coordinated offshore management regime.
    In my opinion, these four elements should be included in a 
National Ocean Policy Act that also specifically sets national 
goals for managing our ocean and coastal areas and helps knit 
together the extensive and often confusing framework of 
statutory mandates and policy direction we now have. So these 
goals should be based on the guiding principles in the report 
of the Commission.
    The Commission found that Federal level coordination and 
leadership is fragmented at best and inconsistent in too many 
cases. The Commission calls for a National Ocean Council to 
coordinate across the agency and that Council can help resolve 
conflicting mandates, improve the leverage of those programs in 
various agencies, the leverage they can obtain from one 
another, as well as provide more coherent leadership for the 
Nation on ocean policy.
    And I should note here, I worked for NOAA for 10 years and 
have enormous respect for the agency and for the other Federal 
agencies. They have incredibly talented employees and work 
extremely hard, but they need some additional tools in order to 
do what they need to do.
    I think the Ocean Council must do more than just oversee 
ongoing activities. The Council must have the authority to make 
real change in ocean governance. The Commission recommends a 
stronger NOAA as the lead ocean science and management agency 
for the Nation. And in my view, NOAA has remained a collection 
of agencies rather than a coherent lead ocean agency.
    The National Ocean Policy Act should strengthen NOAA by 
drawing programs together from across the Government to reduce 
program fragmentation. And as new imperatives come forward, 
such as the implementation of an Integrated Ocean Observing 
System that Dr. Sandifer mentioned or the implementation of a 
ecosystem-based approach to management, which I will discuss 
further, NOAA must grow into these programs in stride.
    NOAA must remain a science-based agency as one of its core 
attributes. Prediction, monitoring and management functions 
rely on science and research, the science and research 
enterprise of NOAA and its external partners, such as UNH and 
many other universities.
    As a former NOAA scientist, a NOAA Regional Administrator 
and then recently a member of the NOAA research review team 
that Dr. Moore chaired, I strongly believe that research and 
the provision of science advice for management and operations 
must remain together. The linkage between science and 
management needs to be strong enough to ensure that science 
advice of the highest quality is available on a timely basis to 
policymakers and managers. To put it bluntly, researchers can't 
refuse a call for science advice because they are more 
interested in something else because we rely on that science 
advice critically to make management decisions. That means that 
as NOAA continues to evolve, separating off research, our very 
best scientists from the advisory function is a difficult 
challenge that we have to address. And I believe we must keep 
the advisory function and the research functions together.
    Overall I believe there are a couple of clear options for 
NOAA, including restructuring the agency into three lines based 
on core functions or possibly based along mission lines. The 
core functions being ecosystem-based management; operations and 
prediction services; and scientific advice, research and 
education. Or the mission lines, coastal and marine ecosystem 
services; weather and climate services; and research, 
operations and data services.
    The budget must, of course, then follow the structure and 
allow programs to be streamlined and consolidated.
    And in my opinion, the end result may be that the stronger 
and bigger NOAA logically becomes an independent agency, but 
that decision must wait to see the shape of that agency to 
come.
    The Commission recommends that we adopt the principle of 
ecosystem-based management, that is managing human activities 
within a large marine ecosystem in concert rather than 
separately, considering the cumulative impacts of those 
activities on the functioning of the ecosystem as a whole.
    For example, coastal development interacts with the 
pollution abatement programs and affects fisheries productivity 
in the coastal ocean and salt marshes and nearshore areas, such 
as along the New Hampshire coast.
    In order to implement ecosystem-based management, five 
changes are needed: Creating regional councils and information 
management systems; developing the capability for the Federal 
Government to manage on an ecosystem basis; structuring science 
programs to support ecosystem-based management; having an 
overall set of policy goals to guide the process; and 
developing a comprehensive offshore management regime to deal 
with gaps in the current management authorities.
    Regional councils must be developed in order to plan and 
coordinate across various sectors of human activities that 
impact the ecosystem. The Commission recommends setting up 
regional pilot programs where each region may choose the issues 
it begins work on; that flexibility is essential.
    Finally, there are major gaps in the current set of 
authority for management, particularly in offshore waters. 
There is no real governance structure for newly emerging 
activities, such as energy production, aquaculture and 
bioprospecting to name a few. Without an overarching policy 
framework that sets goals for ecosystem-based management, 
ensures that analysis considers impacts across sectors, 
specifically sets criteria for deciding protection and access 
privileges, development will be poorly managed.
    Senator, and to your committee in general, I thank you for 
the opportunity to testify today and particularly for your 
holding this hearing in New Hampshire. I have only touched on a 
few of the important issues in the Commission report. I was 
intending on going through all 212, but thought that perhaps 
that might go a little long.

                           PREPARED STATEMENT

    I do recommend that we look across that set of issues, and 
as your committee and the Commerce Committee has already done, 
begin to focus on the broad scale picture as quickly as 
possible, because I think there is no time to waste in terms of 
protecting the ocean. Thank you very much.
    Senator Gregg. Thank you, Doctor. And I presume your 
graduate students here took many notes and will be paraphrasing 
that statement back to you to assure the A that they deserve.
    [The statement follows:]

               Prepared Statement of Andrew A. Rosenberg

    Mr. Chairman and members of the Committee: Thank you for the 
opportunity to testify before you today concerning the future of U.S. 
ocean policy. I am Andrew Rosenberg, a member of the U.S. Commission on 
Ocean Policy and a Professor of Natural Resources in the Institute for 
the Study of Earth, Oceans and Space at the University of New 
Hampshire.
    The Ocean's Act of 2000 formed the U.S. Commission on Ocean Policy 
and directed us to ``make recommendations for coordinated and 
comprehensive national ocean policy . . .'' The Act set out eight 
specific objectives for this policy paraphrased here: (1) protection of 
life and property; (2) responsible stewardship of ocean and coastal 
resources; (3) protection of the marine environment; (4) enhancement of 
marine-related commerce, resolution of conflicts among diverse users of 
the marine environment and engagement of the private sector in 
developing approaches to the responsible use of marine resources; (5) 
expansion of knowledge of the marine environment and the advancement of 
education in fields related to the ocean and coasts; (6) development 
and improvement in technological capability for ocean related 
activities; (7) cooperation among all government agencies to ensure 
coherent regulations, appropriate use of funding, efficient operation 
of federal agencies, and enhancement of partnerships with state and 
local governments; and (8) leadership by the United States in ocean and 
coastal activities.
    My participation as a Commissioner is an honor and a once in a 
lifetime educational opportunity for which I am very grateful. I 
believe our recommendations truly meet the spirit and intent of the 
Oceans Act. Further, I believe that we must immediately begin to make 
changes in U.S. ocean policy to reverse an alarming, widespread 
degradation in the health of the oceans and coasts, vital living marine 
resources, coastal communities, leadership in ocean science and the 
life-support system of the earth. While this may sound dramatic, I 
believe that our ocean environment is at risk and a change of course is 
needed to reduce that risk.
    In this testimony I wish to focus on two overarching themes of the 
Commission report; the governance structure we use for managing our 
activities and impacts on the ocean and the adoption of the principle 
of ecosystem-based management for the oceans. My colleagues, Drs. 
Sandifer and Ballard, will be addressing other aspects of the report 
for the Committee.
    The Commission recommends four components for a new governance 
framework to implement Ocean Policy: (1) national coordination and 
leadership, including (2) a strengthened and streamlined federal agency 
structure, (3) the development of regional solutions to national 
problems, and (4) the establishment of a coordinated offshore 
management regime. In my opinion, these four elements should be 
included in a National Ocean Policy Act that also specifically sets 
national goals for managing our ocean and coastal activities and helps 
knit together the extensive often confusing framework of statutory 
mandates and policy direction we now have. These national goals should 
be based on the guiding principles in the report of the Commission. In 
particular, I would like to highlight: stewardship, resources are held 
in the public trust for all Americans; ecosystem-based management, 
understanding and mitigating the cumulative impacts of human activities 
on the ecosystem as a whole; adaptive management, continuously re-
evaluating management as new information becomes available and making 
adjustments as needed to meet the goals; understandable, clear rules, 
making the rules that govern various activities coherent for the 
public; accountability, to ensure that government and the public do 
what is needed to conserve marine ecosystems; and international 
responsibility, working cooperatively on ocean issues and meeting our 
responsibilities for global ocean policy. Using these and the other 
principles an overarching ocean policy can be articulated for the 
nation.
    The Commission found that federal level coordination and leadership 
is fragmented at best and inconsistent in too many cases. In my 
opinion, agencies are working hard to meet their mandates. I had the 
privilege of working for NOAA for ten years, and served as Deputy 
Director of the National Marine Fisheries Service. The NOAA personnel 
are talented and dedicated but they don't have all the tools they need 
to do the job. Nor do they have an overarching framework for all of the 
conflicting mandates that the various statutes and demands of the day 
bring. The Commission calls for a National Ocean Council to coordinate 
across the agencies. The Council can help resolve conflicting mandates, 
improve the leverage that programs can obtain from one another, and 
present a more coherent leadership for the nation on ocean policy. The 
Council should be chaired by an Assistant to the President for Ocean 
Policy, not by any one agency head. The goal of the Council should be 
to work toward a coherent national policy with regard to management, 
science and education, with agencies working together, not in 
opposition to one another. While Councils may seem just another layer 
of bureaucracy, I think this Ocean Council must do much more than just 
oversee ongoing activities. Its mandate, following on from the Oceans 
Act mandate to the Commission, should be to implement a more coherent 
and efficient national governance system. The starting point for the 
Council should be planning and coordinating the implementation of the 
Commission's recommendations. Somewhat analogous to current discussions 
in the intelligence realm, the Council must have the authority to make 
real change in ocean governance through the budget process, resolving 
conflicting mandates and streamlining of programs across the federal 
government. However, note that it will still be the agencies that have 
responsibility for implementing specific actions to address mandates. 
The Council serves as a planning, coordinating and conflict resolution 
body for the implementing agencies, as well as a monitor for progress 
toward national goals.
    The Commission recommends a stronger NOAA as the lead ocean science 
and management policy agency for the nation. We recognize that many 
ocean related activities are going to remain in various agencies across 
the government and the National Ocean Council will need to coordinate 
between these agencies. NOAA was created in response to the Stratton 
Commission recommendations and has done an enormous amount for the 
nation. However, in my view NOAA has remained a collection of agencies 
rather than a lead ocean agency. In some ways, within NOAA there is a 
mirror of the problem that we found across the federal ``ocean'' 
agencies, that is, program fragmentation and conflicting authorities. 
The National Ocean Policy Act should serve as an organic act, taking 
the opportunity to strengthen NOAA by drawing programs together from 
across the government to reduce program fragmentation. It should also 
take the opportunity to focus NOAA on its core competencies and 
mandates; assessment, prediction and operations, ecosystem-based 
management of ocean and coastal areas and resources, and science, 
research and education. The current NOAA line structure reflects the 
agencies they were created from rather than the tasks they will need to 
undertake in the 21st century. Again, I have high regard for the people 
and mission of NOAA and in many ways feel a part of the agency. But I 
also know it is hard to change the way business is done without a 
change in structure because working patterns become set. But as new 
imperatives come forward, such as the implementation of a new 
integrated ocean observing system, the implementation of an ecosystem-
based approach to management, and increasing demands for research and 
scientific advice, NOAA must be restructured in order to grow into 
these programs in stride. To take another example, the Commission 
recommends as a guiding principle the integration of atmospheric, land 
and water related science and policy. Unfortunately, the ``wet'' side 
of NOAA still struggles to talk to the ``dry'' side of NOAA.
    Restructuring organizations can be a tricky process to say the 
least. There is still however an urgent need for the overall agency to 
act as a corporate whole. Several principles must be kept in mind. NOAA 
must remain a science-based agency as one of its core attributes. 
Prediction and monitoring functions for weather to climate to ocean 
observations, or the management functions for ocean and coastal areas 
and resources including sanctuaries, fisheries, aquaculture or habitat 
protection rely on the science and research enterprise of NOAA and its 
external partners. There has been much discussion of separating the 
research in NOAA from management and operations. As a former NMFS 
scientist and a former NMFS Regional Administrator and serving on the 
recently completed NOAA Research Review Team, I strongly believe that 
research and the provision of the science advice for management and 
operations must remain together. Separating out research from the 
advisory functions will leave the other parts of NOAA without the best 
scientific basis for decision-making. The science advisory function is 
a fundamental job of the best scientists in the agency as part of the 
science and research enterprise. Then, if the science and research 
enterprise is to be structurally separate from management and 
operations, the linkage between these lines needs to be strong enough 
to ensure science advice of the highest quality is available to respond 
to management and operational needs on a timely basis. To put it 
bluntly, researchers cannot refuse a call for science advice because 
they are more interested in something else. If this linkage cannot be 
reliably made then the science and research enterprises must remain 
within the operational lines.
    Overall, I believe there are a couple of clear restructuring 
options for NOAA. One possibility is to restructure the agency into 
three lines according to the core functions of ecosystem-based 
management; operations and prediction services; and scientific advice, 
research and education. This would require the linkage of science with 
the other two lines as discussed above. Another alternative is to 
structure along mission lines, coastal and marine ecosystem services, 
weather and climate services, research, operations and data services. 
In this case the research and science functions would remain 
distributed across all the lines with the research, operations and data 
services line serving an integrating function for the science program. 
Clearly there are other configurations, but to me breaking down some 
walls is necessary to open the architecture of the agency and create a 
new NOAA. The budget must then follow this structure and allow programs 
to be streamlined and consolidated. Such restructuring will then 
provide the basis for NOAA to grow and strengthen through consolidation 
of programs from across the government. The end result may be that the 
stronger, bigger NOAA logically becomes an independent agency, in order 
to fully meet the challenges of changing ocean policy. The Commission 
report doesn't recommend an independent NOAA, but as stated in the 
hearing upon release of the report, that remains an option. It is the 
function, structure and strength that must be addressed in order to 
make the decision on the appropriate location and stature for the 
agency.
    A major challenge for governance of ocean activities is changing to 
a perspective of ecosystem-based management. Ecosystem-based management 
means managing human activities within a large marine ecosystem in 
concert, rather than separately, and considering the cumulative impacts 
of those activities on the functioning of the ecosystem as a whole. The 
perspective is that the natural system sets the bounds for management, 
rather than political boundaries. This is because within an ecosystem, 
effects on one component can logically be expected to impact other 
components. Therefore, as we seek to manage across the full range of 
human activities and mitigate their impacts on the natural environment, 
we need to consider the interactions between different management 
actions. For example, coastal development interacts with pollution 
abatement programs and affects the productivity of the coastal ocean in 
salt marshes and nearshore areas such as along the New Hampshire coast. 
In other words, fisheries are affected by more than just fishing and 
pollution is affected by more than just controlling the amount of 
discharge. Because humans are an integral part of the ecosystem, social 
and economic impacts are part of the ecosystem-based management 
perspective.
    Ecosystem-based management does not mean that we don't have to 
manage each of the sectors of human activity. Fishing still needs to be 
managed to prevent overfishing or restore overfished resources for 
example. But the management of the fishery should be linked to the 
management of other sectors to provide a more coherent set of policies. 
The focus for ecosystem-based management should be to maintain the 
function of coastal and marine ecosystems including both their goods 
and services. We want to maintain the ability to harvest fish as goods 
from the ecosystem, but we want to ensure the ecosystem services 
provided by overall productivity and ocean health isn't undermined. In 
other words, we want to enjoy a healthy ocean for many other reasons 
than just fishing.
    In order to implement ecosystem based management five changes are 
needed; creating regional councils and information management systems, 
developing the capability for the federal government to manage on a 
ecosystem basis, structuring science programs to support ecosystem-
based management, having an overall set of policy goals to guide the 
management process and developing a comprehensive offshore management 
regime to deal with gaps in current management authorities. I have 
already commented on the needed changes in NOAA to support ecosystem 
level science and management. For the federal government to have the 
capability to bring together the various sector activities and 
mandates, and provide the needed flexibility for ecosystem-based 
management a stronger NOAA and a National Ocean Council with 
substantial authority are needed. Regional councils must be developed 
in order to plan and coordinate across the various sectors of human 
activities that impact an ecosystem. Large marine ecosystems are 
generally on a regional scale such, as the Gulf of Maine, or the South 
Atlantic Bight. Multiple jurisdictions are involved and many types of 
human activities occur within each ecosystem. The Commission recommends 
setting up regional councils on a pilot program basis (voluntary with 
substantial flexibility to start) as planning and coordination bodies. 
The National Ocean Council needs to facilitate their work. Each region 
may choose different issues to begin work on ecosystem based management 
and this flexibility is essential. Further, these activities must be 
funded in order to foster real change. This means funding data and 
information management so policy makers have the science to develop 
management plans, funding ecosystem assessments to bring everyone onto 
a common footing for planning and impact analysis, and funding the 
management actions themselves.
    Regional ocean councils have a difficult task, fitting together the 
pieces of management across the sectors. This means, for example, 
making the fisheries management program work in concert with coastal 
zone management programs, pollution abatement programs and protected 
species programs. The goal is management plans that specifically 
include consideration of the cumulative impacts of all of these 
actions, creating a system where they leverage one another. The federal 
government must provide sufficient flexibility to allow this to happen 
but also ensure that the primary goal of maintaining functioning 
ecosystems is met.
    Finally, there are major gaps in the current set of authorities for 
management particularly in offshore (federal) waters. There is no real 
governance structure for newly emerging activities such as energy 
production, aquaculture, and bioprospecting to name a few. Also 
included are specific conservation measures such as marine protected 
areas. Delineating rights and privileges in offshore areas held in the 
public trust is complex. For offshore oil and gas there is a well 
developed management system in place, but for other activities that 
result in exclusive access to areas there is no such system. Without an 
overarching policy framework that sets goals for ecosystem-based 
management, ensures that analysis considers impacts across the sectors 
and specifically sets criteria for deciding protection or access 
privileges, development will be poorly managed.
    Ecosystem-based management is not some theoretical construct. It is 
common sense. It means looking at all the parts of the machine to 
understand how they can work together. The goal is a more effective 
management system that does a better job of protecting the oceans from 
unwanted changes and further degradation.
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today. I have only touched on a few of the 
important issues in the Commission report. I would be pleased to 
discuss these and other matters with you further at your discretion.

    Senator Gregg. I think the essence of a lot of the comments 
that have been made is the reorganization of the Federal role 
in oceans policy, specifically how NOAA should be structured, 
and Dr. Ballard I think touched on it, when you look at NOAA's 
role versus NASA's role, why does NASA receive so much more in 
the way of funding and why is its role so much more dominant.
    I would be interested in the panel's discussion of what 
created this historical stepchild treatment of the oceans 
policy and how do we get--your report has obviously outlined 
it, but how do we push it to the front burner and get it to the 
status of what NASA may be or should be?
    Mr. Ballard. Thank you, Senator. There are all sorts of 
explanations that go back to the very fundamentals on the 
creation of NOAA and its placement in the Department of 
Commerce. It was not the recommendation of the Stratton 
Commission that it be placed in the Department of Commerce.
    I think certainly one of the issues is for scientists and 
explorers to get into outer space, it is not that easy. It is 
not something you can do on your own. And it required the 
community to work together, to develop the strength within 
Congress to develop the funding for NASA so that they could 
pool their resources and provide that gateway into outer space.
    The oceans, for better or for worse, you can get into them 
pretty easily. And when NOAA was created, there was already a 
very, very large oceanographic community, both in academia and 
the Government and private sector; whereas when NASA was 
created, it was fundamentally the Air Force was the only major 
player in outer space.
    So I think that it is the history of the genesis of the two 
different programs that has led to why they are so different. I 
think that there is a lot to be learned from the NASA model; I 
think it has been extremely successful. And the difficulty is 
getting the oceanographic community throughout the sectors to 
see that as a strength as opposed to a weakness.
    I am hoping that through the strengthening of NOAA, that it 
can be successful. But as Andy points out, there is a lot of 
misgivings upon the part of other members of the marine 
community about can NOAA pull that off. I vote to try. I think 
that the time has come to attempt to strengthen NOAA and to 
have it be much more competitive in that world; that is my own 
personal opinion. I don't know where Paul is on that.
    Mr. Sandifer. Bob, I tend to agree with you. There was some 
interesting politics at the time of the Stratton Commission 
report, as there always are. And President Nixon at the time, 
according to the stories I hear on this, simply was not willing 
to place NOAA where it was originally intended because of 
personal preferences. So it ended up under the reorganization 
order being part of Commerce.
    I think though the real difference between the development 
of NOAA as the national ocean agency for this country and NASA 
has been the lack of a defining crisis. In space, it was the 
Sputnik crisis, the concern that the Soviet Union was outpacing 
us in the potential development of rocketry and space-based 
weapons systems that got the Nation mobilized to really begin 
investing, and that investment then morphed into a lot of other 
different areas, but all space based.
    In the environmental arena, it was Rachel Carson's seminal 
text, Silent Spring, that reminded all of us, through my 
childhood at least, of the tremendous problems of the 
environment and what awaited us if we didn't take action. And a 
great number of efforts were made, with the Environmental 
Protection Agency being one of them.
    And I think what the Ocean Commission is trying to say with 
this report, both our preliminary version and this final 3\1/2\ 
pounder, plus all the appendices, which I have been told by the 
chairman now brings the total weight of our weighty document to 
13 pounds.
    Senator Gregg. A small cod.
    Mr. Sandifer. I think what we have tried to do is to tell 
you, tell the country that we have the same kind of crisis now 
facing the oceans and it is time for us to step up to the plate 
as a Nation and deal with it by making the necessary, both 
investments in science and management and in the structural 
changes in order to be able to deal with the problems.
    It is very clear to us that, as Bob described it, the lungs 
of the Earth--the oceans produce most of the oxygen we 
breathe--we are an island nation, every State is an island 
State in that sense, and we must now pay attention. And this 
ocean blueprint says that we are in crisis. We are not so far 
gone that we cannot turn the corner and protect our resources, 
but we are close. And that is what we hope to do with this 
message.
    Senator Gregg. So do you think NOAA should be a separate 
agency or should it be within Commerce or should it be a 
quasiagency within Commerce?
    Mr. Rosenberg. I actually believe that NOAA requires 
substantial independence. Now, whether that is an independent 
agency or as in some of the recent legislation I believe that 
you have cosponsored, uses some of the mechanisms for other 
agencies, like FAA and PTO and so on, to gain that 
independence, I think it is essential that NOAA gains some 
independence as well as gaining some strength. The reason for 
that is partly the size of the agency and to bring it together 
into a coherent whole. It is also partly because of the 
layering that occurs within NOAA on everything from budgetary 
decisions to policy decisions.
    Having worked in the Fisheries Service, which is the 
largest regulatory part of NOAA--and incidentally, one of the 
reasons why it is a little harder for people to like NOAA 
better than NASA is that it has a regulatory function. The 
layering that occurs right up through the Department, obviously 
may be important from a policy perspective, but also hinders 
the agency in becoming what it needs to be on its own and 
gaining the profile that it has.
    So I believe that it does need to have some independence. 
But I believe that restructuring of the agency from where it 
currently exists is also necessary. It is quite difficult to 
make a fundamental change if everybody is in the same place, in 
the same job and with the same name as they have had before; 
sometimes you need to make that change structurally in order to 
get a change in direction.
    Senator Gregg. Assuming we were able to follow through on 
your report and get NOAA restructured and get the Federal house 
in order, how do you address the international issue? I mean, 
the oceans are not a regional, national issue; they are an 
international issue. You have got the Treaty of the Seas, but 
what is the process that we should be pursuing in this area to 
try to address, especially your point, Dr. Ballard, about the 
artifacts being protected that are out there and proper use of 
the minerals and the resources that are out there?
    Mr. Ballard. Well, that also goes for fundamental 
exploration; this is everyone's planet. I think clearly the 
Deep Sea Drilling Program is a wonderful example of 
collaboration of many nations to look into the third dimension 
of our planet as a great model.
    NOAA has historically been the spokesperson in many, many 
international discussions. For example, when we did our first 
exploration of the mid-ocean ridge, Project Famous, with the 
French, NOAA was the lead agency, interacting with its 
equivalency, which was IFREMER.
    In fact, we find that other countries prefer that. I was 
just in Athens a few days ago, working with their equivalency 
of NOAA, which is the Hellenic Center for Marine Research. 
Other governments tend to be organized around a central agency. 
So when it comes to international collaboration, having a 
strong NOAA will make that even easier.
    Mr. Rosenberg. I agree with Bob, certainly from a science 
perspective. From a policy perspective, it is also I think 
imperative to have a lead ocean agency and a clearly identified 
entity, certainly working with the State Department.
    But just as one brief example, I used to be the 
representative for the United States to several of the 
international fishery organizations. And there was a meeting of 
North Atlantic Fishery Ministers to discuss coordinating 
fishery policy in the North Atlantic. And the United States 
wasn't invited because they couldn't identify a fishery 
minister. And so we had this long argument about who was the 
responsible official.
    Senator Gregg. We could have sent Herbie Drake.
    Mr. Rosenberg. Yes. We could have sent Herbie Drake. And I 
did suggest that I believe at one point.
    But we don't have as clear a face internationally as we 
need to on many of the marine environmental issues.
    On the science issues, again we struggle because of 
fragmentation. And I do think that that is one of the virtues 
of having, not only a National Ocean Council, but also a much 
stronger lead ocean agency, that you can make that interaction 
from a position of greater strength.
    Senator Gregg. To get to the fisheries issue, which is 
critical, what should we do to address that, specifically 
regionally? But NOAA's problems with fisheries are historic. 
And probably the most difficult part that we deal with, as 
Members of Congress, is NOAA's dealing with fishermen and with 
the rights to fish. How do we address that?
    Mr. Rosenberg. Well, I will start and then Paul perhaps can 
add some comments. I think, of course, as you well know, 
Senator, and most of the audience probably knows, it is a 
little harder to be popular when you're regulating. And so, you 
know, we wouldn't expect--the Weather Service people receive a 
service and they are usually happy unless the forecast is 
wrong. In the Fishery Service, if they are doing their job, 
they are telling people they can't do things. Unfortunately, 
that is part of regulation; it is not all of the features.
    I think that, first of all, Fisheries need to become less 
isolated, in a sense, within the agency. It is not simply about 
managing fisheries; it is also about managing the marine 
environment. There are lots of other pieces to this puzzle. 
What do other scientists, as well as other parts of the agency 
bring to the table in terms of cooperative research, in terms 
of developing some kind of coherence in how the regulations 
work.
    And having conflicting mandates on marine mammals and 
habitat protection and management of fisheries itself causes a 
lot of that friction. So I often use in some of my 
presentations on ecosystem-based management a chart of the 
Northeast that shows various closed areas. And, you know, I 
actually was Regional Administrator when many of those areas 
were closed and it is hard for me to figure out where you can 
fish and where you can't because it is so confusing. So gaining 
the ability to actually put together a coherent plan for the 
ecosystem as a whole, I think makes a substantial difference.
    Bringing fishermen into cooperative research programs, such 
as UNH working with other partners around New England has done 
very effectively, I think is incredibly important. I think that 
the Cooperative Research Program has been very successful. The 
Commission report recommends expanding it very strongly. I 
think it is been beneficial for fishermen as well as for the 
agency, very broadly. And bringing a broader public focus to 
issues, not only of fisheries, but the marine environment in 
general, strengthening of Sea Grant, strengthening the ocean 
education programs also gets over the isolation.
    It is easy to focus on, you know, you have a group of the 
regulated community and the regulators and not very many other 
people paying attention and that is a really difficult recipe 
for conflict. If you can broaden out that community a little 
bit, I think that you can actually make some better progress 
and also change the climate quite a bit.
    Mr. Sandifer. I agree entirely with Andy's comments. I 
would like to return for just a moment, Senator, to your 
question regarding the international arena. Fisheries in the 
international arena has always been controversial and will 
remain so. But the Commission report covers a number of 
recommendations, specific recommendations dealing with how we 
would do better in international arenas. And of course, one of 
these, the first one is the first recommendation from the 
Commission, made in November 2 years ago, and that was for the 
country to accede to the Law of the Sea Treaty as soon as 
possible, and hopefully that will still occur.
    But there are a bunch of specific things that the 
Commission recognizes, international and in some cases just 
bilateral fisheries agreements where we have responsibilities. 
We need to completely fulfill our responsibilities, make sure 
that we are, in fact, at the table. We make a number of 
recommendations dealing with things such as corals, where it is 
not just the coral environment or the fisheries that depend on 
those environments, but in some cases products made from coral 
that become part of the problem. And we recommend a number of 
steps that could be taken, one of which would be to establish a 
better way for us to do business with countries that harvest 
coral resources by providing some mechanism of incentive for 
them to protect the resources that we then take advantage of.
    The same thing holds in the area of aquaculture, where 
there is a great deal of interest in this environment and in my 
background, where we strongly recommend the utilization of the 
U.N.'s Code of Responsible Fisheries, which includes 
aquaculture, in not only getting the United States to play by 
those rules, but getting as many other countries in the world 
to play by the same set of rules.
    So I think what we are recommending in a nutshell would be 
for us to focus on those international arenas, those 
international areas, codes of activities where we can agree 
what is responsible activity for this country and for others 
and try our best to ensure that all of the countries play by 
that same set of rules. It creates a level playing field for 
our fishermen and it improves the market that we generate or we 
make for imported products. It ensures then that we are, in 
fact, buying product that would be harvested sustainably in 
other parts of the world's oceans. So there are a number of 
those kinds of recommendations in here and I think it is just a 
matter of do we have the will to step up to the plate.
    Senator Gregg. I guess as part of the will question is do 
we have the structure? In other words, much of what you talk 
about would fall under the State Department's responsibility. 
And how do we coordinate effectively the State Department with 
the agency that has knowledge of this, assuming it is NOAA, in 
a more effective way?
    Mr. Sandifer. Senator, I think you are absolutely correct. 
And I believe that the recommendations, both in the report and 
in pending legislation that you have, that would not only 
strengthen NOAA and strengthen its responsibilities in this 
area, but strengthen its response to the State Department and 
the State Department's, shall we say, willingness to listen to 
the folks who know something about the resource and science 
side. So I think that could be a very, very significant step 
forward if enacted.
    Mr. Rosenberg. If I could just add one brief note about 
this. Within NOAA, at least in my experience, there are several 
international programs. You don't have an international program 
office; you have about four or five for different lines. And 
while I can understand well the differences between some of the 
specific negotiations within the different lines, I think it is 
symptomatic of NOAA that those international program offices in 
Fisheries or NOS or the other agencies don't really interact 
with each other; they operate as if they are separate agencies. 
So that actually weakens the profile of not only the United 
States in those negotiations, but also NOAA in the discussions 
as well.
    Often you deal with different people in the State 
Department, depending on which international program you are 
sitting in. So I do think, again, there are some structural 
changes that are needed that relate to the overall structural 
change, such that it is a NOAA program, not a Fisheries program 
or an NOS program.
    Senator Gregg. Would that apply to pollution also, relative 
to the EPA?
    Mr. Rosenberg. I think it does. I think in the report we 
note that there are a couple of cases related to Clean Water 
Act where, you know, the EPA has one program, perhaps the 
incentive programs for reducing pollution and NOAA has the 
disincentive programs for reducing pollution as opposed to 
pulling them together.
    There are issues, both on the science side as well as the 
policy side, with regard to the Clean Water Act-related 
functions. Habitat is an excellent example of that. Section 
404, responsibilities under the Clean Water Act, cut across at 
least four or five different agencies. And it is unclear where 
the lead is on many of the specific actions with regard to 
habitat. Most often, NOAA has a commenting authority; EPA has 
the implementing authority; but sometimes it is Army Corps and 
so on. So that fragmentation means that as opposed to having a 
coherent sort of task force, you have a little bit, sometimes 
more than a little bit of tug of war between agencies.
    I think that we have identified in the report several 
opportunities for consolidation of programs that are currently 
shared between EPA and NOAA, that in many cases that 
consolidation logically should be within NOAA. In other cases, 
it might be within EPA. But addressing program fragmentation I 
think is a critical issue and it does cut across much more than 
NOAA. So if we only think about restructuring NOAA, then we 
will have only done a piece of the job.
    Senator Gregg. I believe we are running out of time. Which 
leads me to my last question, which is, if you had the magic 
wand, what would be the three things each of you would do to 
make sure that this policy in the oceans blueprint was executed 
on most effectively, the three top priorities?
    Mr. Ballard. Well, clearly, thanks to you and your 
colleagues, we have tremendous support in the Senate. We have a 
lot of work to be done in the House. So my dream would be that 
the House behaves as the Senate's behaved.
    Senator Gregg. Words of wisdom; I have never heard such 
words of wisdom.
    Mr. Rosenberg. That is a tough act to follow, Bob. Thanks a 
lot.
    Mr. Ballard. Dream on.
    Mr. Rosenberg. Yeah. Well, the three actions that I would 
take, the first is I would proceed very strongly with an 
overall governance structure, as in the bill that the Commerce 
Committee has developed, which I believe is called the Hollings 
Oceans Act. I think many of the elements are there from the 
Commission report. But begin that fundamental governance 
restructuring that needs to happen.
    Second, I believe that we do need to fund the development 
of regional information programs to enable ecosystem-based 
management and have clear guidelines for the development of 
regional programs for ecosystem-based management, so that those 
solutions come from the region as opposed to being developed by 
NOAA and handed off to the region.
    And that is going to require pulling together a variety of 
data sources on large marine ecosystems around the country and 
making that information available in a readily accessible form 
to managers within the regions so that they can actually work 
through problems, and that they are working together so it is 
not fisheries managers in one corner and coastal zone managers 
in another.
    And third, I think that we absolutely need to move forward 
with recommendations such as those in the NOAA research review, 
but more broadly for the science enterprise, if you like, of 
the Nation, in terms of really strengthening our science 
planning, coordination, and then funding for ocean-related 
science.
    I think the NOAA research review gave a lot of guideposts 
in that direction in terms of developing real planning and 
partnerships with universities, but we need to actually 
implement those things as a high priority activity to create 
the structure we need to do the science we need.
    Mr. Sandifer. Not surprisingly, after spending 3 years with 
these guys, I am in complete agreement with both of them. I 
would really like to see the House of Representatives of the 
U.S. Congress approach these ocean issues with the same 
determination and energy and interest that the Senate has.
    Beyond that, I think the enactment of a governance 
structure that results in a NOAA that is really a true national 
ocean agency in reality as opposed to just name is a 
significant first step.
    Second most important step would be to fund the necessary 
science, education, and other infrastructure needs that we have 
identified and this committee has made such a great start on.
    And third, I will diverge a little bit from my colleagues 
and say that not only do we need to move toward ecosystem-based 
science in management, but the academic community needs to 
embrace what ecosystem-based science really is and begin 
training a new generation of scientists and policymakers who 
understand interdisciplinary sciences, that is cross boundaries 
beyond traditional disciplines, and are able to converse with 
scientists in different fields, policymakers in different 
areas, and translate a variety of scientific advances into 
practical, everyday applications that normal human beings can 
use. Thank you, sir.
    Senator Gregg. Well, I want to thank the panel. And I think 
what is obvious to everybody here in the audience and to those 
who hopefully will be able to watch this, is that we are 
incredibly lucky as a Nation to have these types of 
individuals, their talent, their ability focused on this issue, 
and as a result, making progress on what is such a critical 
issue.
    You know, you don't have to go very far from here to walk 
to the edge of the ocean and look out and see what an 
extraordinarily beautiful sight it is, but how vast it is and 
how big an issue it is for us as a Nation and as a part of the 
world to address.
    In this blueprint is a way for us to get our Nation on the 
right track, and if America gets on the right track, hopefully 
we can lead the rest of the world to the right track.
    So you have done an extraordinary job with this Commission. 
It is something I hope we can take the initiatives and policies 
that are presented and execute on, and certainly I intend to 
commit to try to do that.

                         CONCLUSION OF HEARINGS

    And again, thanks to the University of New Hampshire and 
President Hart for the courtesy of allowing us to use this 
facility. And I thank our extraordinary panel for taking the 
time to be here today. Have a great day and thank you all for 
attending.
    [Whereupon, at 10:59 a.m., Monday, September 27, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
